<html>
<title> - H.R. 701, CONSERVATION AND REINVESTMENT ACT OF 1999, AND H.R. 798, TO PROVIDE FOR THE PERMANENT PROTECTION OF THE RESOURCES OF THE UNITED STATES IN THE YEAR 2000 AND BEYOND</title>
<body><pre>[House Hearing, 106 Congress]
[From the U.S. Government Printing Office]




 
 H.R. 701, CONSERVATION AND REINVESTMENT ACT OF 1999, AND H.R. 798, TO 
  PROVIDE FOR THE PERMANENT PROTECTION OF THE RESOURCES OF THE UNITED 
                   STATES IN THE YEAR 2000 AND BEYOND

=======================================================================

                             FIELD HEARING

                               before the

                         COMMITTEE ON RESOURCES
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED SIXTH CONGRESS

                             SECOND SESSION

                               __________

                  JUNE 12, 1999, SALT LAKE CITY, UTAH

                               __________

                           Serial No. 106-40

                               __________

           Printed for the use of the Committee on Resources


 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 house
                                   or
           Committee address: http://www.house.gov/resources

                                 ______

                     U.S. GOVERNMENT PRINTING OFFICE
59-388                       WASHINGTON : 1999





                         COMMITTEE ON RESOURCES

                      DON YOUNG, Alaska, Chairman
W.J. (BILLY) TAUZIN, Louisiana       GEORGE MILLER, California
JAMES V. HANSEN, Utah                NICK J. RAHALL II, West Virginia
JIM SAXTON, New Jersey               BRUCE F. VENTO, Minnesota
ELTON GALLEGLY, California           DALE E. KILDEE, Michigan
JOHN J. DUNCAN, Jr., Tennessee       PETER A. DeFAZIO, Oregon
JOEL HEFLEY, Colorado                ENI F.H. FALEOMAVAEGA, American 
JOHN T. DOOLITTLE, California            Samoa
WAYNE T. GILCHREST, Maryland         NEIL ABERCROMBIE, Hawaii
KEN CALVERT, California              SOLOMON P. ORTIZ, Texas
RICHARD W. POMBO, California         OWEN B. PICKETT, Virginia
BARBARA CUBIN, Wyoming               FRANK PALLONE, Jr., New Jersey
HELEN CHENOWETH, Idaho               CALVIN M. DOOLEY, California
GEORGE P. RADANOVICH, California     CARLOS A. ROMERO-BARCELO, Puerto 
WALTER B. JONES, Jr., North              Rico
    Carolina                         ROBERT A. UNDERWOOD, Guam
WILLIAM M. (MAC) THORNBERRY, Texas   PATRICK J. KENNEDY, Rhode Island
CHRIS CANNON, Utah                   ADAM SMITH, Washington
KEVIN BRADY, Texas                   WILLIAM D. DELAHUNT, Massachusetts
JOHN PETERSON, Pennsylvania          CHRIS JOHN, Louisiana
RICK HILL, Montana                   DONNA CHRISTIAN-CHRISTENSEN, 
BOB SCHAFFER, Colorado                   Virgin Islands
JIM GIBBONS, Nevada                  RON KIND, Wisconsin
MARK E. SOUDER, Indiana              JAY INSLEE, Washington
GREG WALDEN, Oregon                  GRACE F. NAPOLITANO, California
DON SHERWOOD, Pennsylvania           TOM UDALL, New Mexico
ROBIN HAYES, North Carolina          MARK UDALL, Colorado
MIKE SIMPSON, Idaho                  JOSEPH CROWLEY, New York
THOMAS G. TANCREDO, Colorado         RUSH D. HUNT, New Jersey

                     Lloyd A. Jones, Chief of Staff
                   Elizabeth Megginson, Chief Counsel
              Christine Kennedy, Chief Clerk/Administrator
                John Lawrence, Democratic Staff Director





                            C O N T E N T S

                              ----------                              
                                                                   Page

Field hearing held June 12, 1999.................................     1

Statement of Members:
    Cannon, Hon. Chris, a Representative in Congress from the 
      State of Utah, prepared statement of.......................    00
    Hansen, Hon. James V., a Represenative in Congress from the 
      State of Utah, prepared statement of.......................    00
    .............................................................    00
    .............................................................    00
    .............................................................    00
    .............................................................    00

Statement of Witnesses:
    Clarke, Kathleen, Executive Director of the Utah Department 
      of Natural Resources; Courtland Nelson, Director of Utah 
      Division of Parks and Recreation; John Kimball, Director of 
      Utah Division of Wildlife Resources........................    00
    Collins, Clark, Executive Director, BlueRibbon Coalition, 
      Pocatello, Idaho...........................................    00
        Prepared statement of....................................    00
        Prepared statement of....................................    00
    Cowan, Caren, Executive Secretary, The New Mexico Cattle 
      Growers Association........................................    00
    Fisher, Wendy, Utah Open Lands, Salt Lake City, Utah.........    00
        Prepared statement of....................................    00
    Foutz, Ryan, Manager, Sportsman's Warehouse, Riverdale, Utah.    00
        Prepared statement of....................................    00
    Hall, Travis, Public Relations Manager, Browning Arms, 
      Morgan, Utah...............................................    00
        Prepared statement of....................................    00
    Henry, Karen, Wyoming Farm Bureau, Robertson, Wyoming........    00
        Prepared statement of....................................    00
    Hyde, George, Chief Operating Officer, Barnes Bullets, Inc., 
      American Fork, Utah........................................    00
        Prepared statement of....................................    00
    Maughan, Dennis, Commissioner of Twin Falls County, Idaho....    00
    Peay, Don, Executive Director, Sportsmen for Fish and 
      Wildlife of North Salt Lake, Utah..........................    00
        Prepared statement of....................................    00
    Priestley, Frank, President, Idaho Farm Bureau Federation, 
      Pocatello, Idaho...........................................    00
        Prepared statement of....................................    00
    Ramirez, Leslie W., Attorney, Albuquerque, New Mexico........    00
        Prepared statement of....................................    00
    Robinson, Christopher F., Ensign Group, L.C, Salt Lake City, 
      Utah.......................................................    00
    Smith, Bert, Ogden, Utah.....................................    00
        Prepared statement of....................................    00
    Valentine, Robert, Brigham City, Utah........................    00
        Prepared statement of....................................    00

Additional material supplied:
    Briefing Paper...............................................    00
    Hage, Wayne, article, ``Property and War''...................    00
    Text of H.R. 703.............................................    00
    Text of H.R. 798.............................................    00
    Washington State Farm Bureau, prepared statement of..........    00
    .............................................................    00

Communications submitted:
    Additonal material submitted for the record by:
        Leavitt, Gov. Michael, Governor, State of Utah, prepared 
          statement of...........................................    00
        Kano, Mayor David T. prepared statement of...............    00
        Heun, Tracy, Parks and Recreation Director, Clearfield 
          City, prepared statement of............................    00
        Rose, Lorinda, Executive Director, Virgin River Land 
          Preservation Assoc., prepared statement of.............    00
        Kimball, John, Director, Dept. of Natural Resources, Div. 
          of Wildlife Resources, State of Utah, prepared 
          statement of...........................................    00
        Cunningham, Sally S., Executive Director, National 
          Council of Youth Sports, prepared statement of.........    00
        Howes, Jonathan B., Chairman, Parks and Recreation 
          Authority, North Carolina, prepared statement of.......    00
        Holmes, Roger, President, International Association of 
          Fish and Wildlife Agencies, Minnesota, prepared 
          statement of...........................................    00
        Bell, Gregory S., Mayor, Farmington City, Utah, prepared 
          statement of...........................................    00
          Additional material submitted by.......................    00
        Baker, James Jay, Executive Director, NRA Institute for 
          Legislative Action, prepared statement of..............    00
        Weeks, W. William, Executive Vice-President, The Nature 
          Conservancy, prepared statement of.....................    00
    Grant, Fred, prepared statement of...........................    00
    .............................................................    00
    .............................................................    00
    .............................................................    00
    .............................................................    00
    .............................................................    00
    .............................................................    00


 H.R. 701, CONSERVATION AND REINVESTMENT ACT OF 1999, AND H.R. 798, TO 
  PROVIDE FOR THE PERMANENT PROTECTION OF THE RESOURCES OF THE UNITED 
                   STATES IN THE YEAR 2000 AND BEYOND

                              ----------                              


                        SATURDAY, JUNE 12, 1999

                          House of Representatives,
                                    Committee on Resources,
                                              Salt Lake City, Utah.
    The Committee met, pursuant to call, at 11 a.m. in the 
State Office Building, 1st Floor Auditorium, State Capitol, 
Salt Lake City, Utah, Hon. James Hansen presiding.
    Mr. Hansen. Good morning. We expect the young lady from 
Idaho, Mrs. Chenoweth, to join us shortly and the two gentlemen 
from Utah to be with us. We understand they're both on their 
way. In fact, one just walked in the door, Representative Cook, 
we appreciate you coming up and joining us at this time.
    Let me give an opening statement here and then we'll get 
into this hearing. We have a number of people who want to speak 
and we'll see what we can accommodate here. I want to thank the 
witnesses, the audience and Members of Congress for attending 
this field hearing. This is an Official Congressional Hearing 
of the House Resource Committee. I chair the Committee on 
Public Lands and National Parks and chairman Don Young has 
asked me to conduct this full Committee hearing.
    The business before us includes H.R. 701, the Conservation 
and Reinvestment Act of 1999 sponsored by Mr. Young of Alaska, 
and H.R. 798, the Permanent Protection of America Resources 
2000 Act sponsored by Mr. Miller of California.
    Some may not be aware of our procedure so let me take a 
second to explain this. The Committee has invited four panels 
of witnesses to testify on these two measures and these panels 
represent differing viewpoints. Each witness has prepared a 
written statement and will present a summary of that statement 
during their allocated five minutes time. There are lights on 
the witness table, you can see them there. It's just like a 
traffic light. Green means go, yellow means wrap it up, and red 
means stop. After each panel presents their testimony, each 
Member of Congress may ask questions of the witnesses. You will 
also be asked to give us questions back that we will send you 
in the mail and we would appreciate it if you would give us 
very comprehensive answers.
    The Committee received numerous requests for witnesses to 
appear today and unfortunately, time constraints limit the 
number we can accommodate. We'll try to do our best. However, 
for those wishing to have their voices heard on these matters 
they're invited to submit their comments in writing to the 
Resource Committee within ten days of this hearing. These 
comments will be made part of the official record and I 
encourage those interested to submit their views.
    Lastly, there are some strong feelings on these issues and 
we invited some very opposing views to testify today. We 
respect each witness opinion. We respect your rights to voice 
those opinions and we expect the witnesses in the audience to 
do the same.
    The issues before us, H.R. 701 and H.R. 708, both attempt 
to address the problem of Land and Water Conservation Funds 
being used for purposes not originally intended by Congress. 
The Land and Water Conservation Fund was developed to reinvest 
nonrenewable oil and gas revenues into conservation and 
recreation. The legislation before us reforms these past 
practices but each bill goes about this in a slightly different 
fashion. They are both technical measures and both have 
positive components and address some real problems.
    I believe that Mr. Young and Mr. Miller have both come up 
with some very interesting ideas. They feel that it would 
benefit hunting, fishing, and wildlife in general. However, 
other people have different ideas. Moreover, outdoor and urban 
recreation demands are growing at incredible rates and this 
funding would greatly help satisfy these pressures. For 
example, the State of Utah under the Young bill would receive 
nearly $8 million for wildlife and other programs through state 
side LWCF and another $6.79 million through Federal LWCF or 
urban park and recreation. Thus the benefits could be great but 
Federal dollars rarely come without strings attached. We must 
ensure we are not being enticed with Federal dollars only to 
find out they come to us with mandates and actions that hurts 
our respective states.
    I personally have not taken a position on either of these 
bills. That's one of the reasons that we're doing this here in 
Salt Lake, so that people in the west part can hear this. 
Congressional hearings have been held in Washington, DC, Alaska 
and Louisiana. There has been tremendous interest from all 
sides and I look forward to hearing from several witnesses from 
Utah. I would like to expressly thank my own mayor, Gregory 
Bell, who I haven't seen come in yet, of Farmington, Utah and 
the Director of Natural Resources for the State of Utah, 
Kathleen Clarke, who represents Governor Leavitt at this 
hearing.
    Several of the other witnesses have been long-time friends 
of mine and served the people of Utah or have conducted 
business in our fine state and I welcome each of you.
    Lastly, it is good that we have witnesses from other Rocky 
Mountain states that are with us at this time. I hope we'll end 
up with at least four members of the Committee, including 
myself, the young lady from Idaho has now arrived. We're 
grateful to Congressman Cook, we're in his district at this 
time, who also has an interest in this legislation. I will now 
call upon my colleagues for any opening remarks they may have. 
Are you ready, Mrs. Chenoweth, or do you want me to go with Mr. 
Simpson first? Mr. Simpson.
    [The prepared statement of Mr. Hansen follows:]

Statement of Hon. James V. Hansen, a Represenative in Congress from the 
                             State of Utah

    The House Resources Committee will come to order.
    I want to thank the witnesses, the audience, and Members of 
Congress for attending this field hearing today. This is an 
official Congressional hearing of the House Resources Committee 
that I have been asked to conduct on behalf of Chairman Don 
Young. The business before us includes H.R. 701, the 
Conservation and Reinvestment Act of 1999 sponsored by Mr. 
Young of Alaska and H.R. 798, the Permanent Protection of 
America's Resources 2000 Act sponsored by Mr. Miller of 
California.
    Some may not be aware of our procedures, so let me take a 
second to explain. The Committee has invited four panels of 
witnesses to testify on these two measures and these panels 
represent differing view points. Each witness has prepared a 
written statement and will present a summary of that statement 
during their allocated five minute time frame. There are lights 
at the witness table. Green means go, yellow means begin 
wrapping up and red means stop. After each panel presents their 
testimony, each Member of Congress may ask questions of the 
witnesses.
    The Committee received numerous requests for witnesses to 
appear today and unfortunately time constraints limit the 
number we can accommodate. However, for those wishing to have 
their voice heard on these matters are invited to submit their 
comments in writing to the Resources Committee within ten days 
of this hearing. These comments will be made part of the 
official record and I encourage those interested to submit 
their views.
    Lastly, there are some strong feelings on these issues and 
we have invited some very opposing views to testify today. We 
respect each witnesses opinion, we respect your rights to voice 
those opinions and we expect the witnesses and the audience to 
do the same.
    The issues before us, H.R. 701 and H.R. 798 both attempt to 
address the problem of Land and Water Conservation Funds being 
used for purposes not originally intended by Congress. The LWCF 
was developed to reinvest nonrenewable oil and gas revenues 
into conservation and recreation. The legislation before us 
reforms these past practices but each bill goes about this in a 
slightly different fashion. These are both technical measures 
and both have positive components that address real problems. I 
believe that Mr. Young and Mr. Miller both have good ideas. The 
benefits to hunting, fishing and wildlife in general could be 
tremendous. Moreover, outdoor and urban recreation demands are 
growing at incredible rates and this funding would greatly help 
satisfy these pressures. For example, the State of Utah under 
the Young bill would receive nearly $8 million for wildlife and 
other programs through state side LWCF and another $6.79 
million through Federal LWCF for urban parks and recreation. 
Thus, the benefits could be great but Federal dollars rarely 
come without strings attached. We must insure we are not being 
enticed with Federal dollars only to find out they come to us 
with mandates and actions that hurt the State.
    I personally have not taken a position on either of these 
bills and that is the reason for this hearing process. 
Congressional hearings have been held in Washington DC, Alaska 
and Louisiana. There has been tremendous interest from all 
sides and I look forward to hearing from several witnesses from 
Utah. I would specifically like to welcome my Mayor, Greg Bell, 
Mayor of Farmington, Utah and the Director of Natural Resources 
for the State of Utah, Kathleen Clarke who represents Governor 
Leavitt at this hearing. Several of the other witnesses have 
been long time friends, served the people of Utah or have 
conducted businesses in our fine state and I welcome each of 
you. Lastly, it is good that we have witnesses from other Rocky 
Mountain states to hear their perspectives.
    Welcome to Salt Lake for our Members of Congress who are 
visiting and I will recognize each Member for an opening 
statement.

    Mr. Simpson. Mr. Chairman, I don't have an opening 
statement but I do want to thank you for holding this hearing. 
Like you, I have not officially taken a position on this 
legislation either on either one of these. I am here to learn 
and to listen to the people that are here to present testimony 
on this important area of legislation.
    I have some concern, as I look at the book in front of you 
called The Utah Fishing Guide, that most of the maps in the 
Utah Fishing Guide are of Idaho and that does cause me some 
concern.
    Mr. Hansen. This book was just given to me and I have to 
say I'm really looking forward to looking at it. I have this 
problem. I get an itch in my right hand and the only thing that 
will cure it, according to my dermatologist, is a fly rod.
    Mr. Simpson. I understand that itch. Many of us have that 
itch.
    Mr. Hansen. You have that same itch.
    Mr. Simpson. Occasionally, yes. But I do appreciate you 
holding this hearing here and I look forward to listening to 
the witnesses.
    Mr. Hansen. The young lady from Idaho.
    Mrs. Chenoweth. Thank you, Mr. Chairman. And I want to 
apologize to you for my tardiness and I would like to ask your 
permission for my staff to sit up here with us without the 
suits and the formal requirements of staff.
    Mr. Hansen. Not an objection. So ordered.
    Mrs. Chenoweth. Thank you. Missed flights, missed 
connections, no sleep, no breakfast, no luggage, so please 
forgive me but I am ready for this hearing. And Mr. Chairman, I 
have taken a position on this bill. It is no secret I am 
adamantly opposed to the bill and have advised the chairman as 
such before I started working to see us redirect our goals. The 
freshman class of the 104th Congress is still referred to in 
the media by many people as that feisty freshman class of the 
104th Congress and I can tell you we still fight with the same 
feistiness for the rights of private ownership.
    Mr. Chairman, as I study this bill, the more I study it, 
the more I realize that this bill again represents the transfer 
of wealth from the private sector to the public sector. And 
it's something that I have always been opposed to and it's no 
secret I'm opposed to this.
    Mr. Chairman, I would like to also ask officially for the 
record if, because so many people were unable to testify and 
although your generosity extended to me allowed for one more 
witness, that witness had already made previous commitments and 
was unable to come by the time I got back to him. But the 
Wyoming Cattlemen, the Wyoming Farm Bureau, the Oregon 
Cattlemen, the Washington Cattlemen, Washington Farm Bureau, 
Mr. Cushman, various other people who asked to testify were 
denied, not by you, Mr. Chairman, but by some process behind 
this system were denied the ability to be heard today and so I 
would again like to ask for the record if we could hold another 
hearing in the west, either in California or in Oregon or 
Washington.
    Since both representatives are here from Idaho, I know 
that's futile to ask for a hearing in Idaho. But I would again 
like to make that recommendation because when we took the 
majority, we were going to do things differently. We were going 
to have open hearings so everyone could be heard. And I know 
that's what your concern is, Mr. Chairman, and so I would like 
to make that appeal to you and to Mr. Young for the record. 
Thank you very much.
    Mr. Hansen. Appreciate the young lady's comments. I'm sure 
we want to have hearings from the public. That's one of the 
reasons we do these things and we hope that we're representing 
the public when we act upon legislation. I will make a point to 
discuss that with Chairman Young and see what he has to say and 
maybe the three of us or the members of the Committee can get 
together and determine how we want to play this.
    You mentioned staff. I want to thank all the members of 
staff who have come out. I know it's always a--it's kind of a 
chore to do that and they're always so good about it. We 
appreciate that. Mr. Healey is here from the minority staff. 
Rick, if you feel that you're inclined to come up here to 
verbally abuse us or anything else, by all means come on up. 
Mr. Freemire, our chief counsel and head of the Committee of 
Public Lands and Parks is sitting to my right and others I 
probably missed but appreciate all of them for taking the time 
to be with. Deb, we appreciate you being with us.
    The gentleman from the second district in Utah, thank you 
for allowing us to come into your district, Mr. Cook. We'll 
turn the time to you for any statement you may have.
    Mr. Cook. Well, thank you very much, Mr. Chairman. I'm 
delighted that you and Mike Simpson and Helen Chenoweth and 
Alan Freemire and Chris Cannon, who will be here I think in a 
few minutes, are here in the second district to hold this very 
important hearing.
    Although I'm not a member of the Resources Committee, I 
really do appreciate, Congressman Hansen, the chairman's 
gracious invitation to join you today. Unfortunately, I do have 
a prior engagement with a group of veterans downtown in about 
half an hour and I won't be able to stay for very long. 
However, I will be reviewing the Committee record and I'm sure 
that I can rely on Chairman Hansen to keep me abreast of 
anything additional that happens here today. The question of 
how to distribute land and water conservation funds is a very 
important issue. A concern of mine is that Utah makes sure it 
gets its fair share. Under H.R. 701 and H.R. 798, the majority 
of funds from offshore oil revenues will be going to the 
coastal states such as Louisiana, Texas and Alaska that 
generate that oil for the country. As a representative from 
Utah, I find this somewhat disturbing because Utah is a well-
known supplier of coal to the country and yet these revenues 
are taken by the Federal Government and Utah is given no 
preference with these funds. Now, if full Federal funding is to 
occur, I think that every state should benefit from the 
revenues from offshore oil and gas just as the entire country 
benefits from the revenues that Utah's coal creates.
    Utah, I believe, would benefit from some of the programs in 
this Act but I, like Helen Chenoweth, also have some 
reservations about parts of the proposals. So like the others 
here, I've pretty well not made up my mind yet but I'm very 
interested in the testimony in this hearing today as a way to 
help me decide exactly how I'm going to vote on this.
    Conservation programs, both for land and water, educational 
efforts and revitalization of existing lands would improve the 
many outdoor areas and programs already enjoyed by Utahns. I 
believe this should be done effectively and unobtrusively so it 
does not damage our state's economy, does not spoil the outdoor 
experience for those who appreciate it so much. Utah's open 
space, particularly on the Wasatch Front, is a cherished 
commodity. We should do everything in our power to ensure that 
it's not lost.
    And I'd like to take this opportunity to point out I think 
the great activism and leadership that Chairman Hansen's son, 
Joe, particularly has shown in this area. His commitment to 
Utah's open space is unrelenting and should be supported, I 
think, when a chance arises through local and not Federal 
control.
    Finally, I'd like to voice my concern that we must be 
careful not to increase the system already mired in 
bureaucracy. The healthy Utah lands and programs must outweigh 
the headache of more government oversight in the 
administration. We must assure that taxes will not have to be 
raised even the slightest to pay for these improvements to our 
lands. Thank you and I apologize again for having to leave this 
hearing early.
    Mr. Hansen. Thank you, Mr. Cook. I ask unanimous consent 
that all the letters that we've received, both for and against 
these two measures, be included in the record. I have a group 
here from a number of governors, the National Rifle 
Association, a number of cities and counties and organizations 
in support. I know there's a number in opposition that we've 
also received.
    We'll start this hearing with Kathleen Clarke, executive 
director of the Utah Department of Natural Resources. She's 
here representing the governor of the State of Utah. She's 
accompanied by Mr. Courtland Nelson, director of Utah Division 
of Parks and Recreation and Mr. John Kimball, director of Utah 
Division of Wildlife Resources.

 STATEMENT OF KATHLEEN CLARKE, EXECUTIVE DIRECTOR OF THE UTAH 
DEPARTMENT OF NATURAL RESOURCES; COURTLAND NELSON, DIRECTOR OF 
 UTAH DIVISION OF PARKS AND RECREATION; JOHN KIMBALL, DIRECTOR 
             OF UTAH DIVISION OF WILDLIFE RESOURCES

    Mrs. Clarke. On behalf of Governor Michael Leavitt we'd 
like to welcome you to the state of Utah today and thank you, 
Congressman Hansen and representatives, for the opportunity to 
speak today on behalf of the Conservation and Reinvestment Act 
of 1999, the most important national legislation for wildlife 
conservation, open space and state parks and recreation to 
reach the floor of Congress in our generation. The Utah 
Department of Natural Resources stands united in (inaudible) 
and many local elected officials and representatives of 
wildlife and outdoor recreation organizations from across Utah 
in our whole-hearted support of this landmark legislation. Let 
me give you a few of the reasons why we so support it.
    Wildlife-related recreation is in high demand by the 
citizens of our state as evidenced by a recent study by Utah 
State University called the Cranitch Report. This was a report 
that measured public attitudes toward wildlife and wildlife-
related recreation in Utah and according to the report, let me 
quote, ``Utahns are highly interested in the state's fish and 
wildlife resources. Clearly, Utahns place substantial value on 
the state's wildlife resources and view the protection and 
enhancement of those resources as important to the quality of 
life enjoyed by residents of the state.''
    I want to emphasize here that wildlife-related recreation 
now takes many forms, from traditional activities such as 
hunting and fishing, to nonconsumptive activities such as bird 
watching and photography. Our mandate from the people of Utah 
is clear. Yet for too long the funding necessary to manage many 
species of wildlife and to preserve critical wildlife habitat 
has been simply unavailable. The same may be said of our state 
parks and open space initiatives throughout Utah.
    Recreation needs have dramatically increased in the past 20 
years. An average annual population increase of 2 percent has 
fueled the demand for more outdoor recreation opportunities and 
burgeoning urban growth centers from Logan to St. George and as 
open space disappears and with it wildlife and outdoor 
opportunity, there is great concern about preserving our 
quality of life here in Utah, about ensuring the social, 
economic and yes, even spiritual values that we all draw from 
direct contact with our natural world. Sadly, funding for parks 
and recreation facilities and from the Federal Land and Water 
Conservation Fund has been virtually nonexistent over the last 
several years. At the same time, our unprecedented population 
growth has created an even greater need for parks, open space 
and recreation opportunity.
    Since 1964 Utah has received nearly $40 million in land and 
water conservation funding and this has funded over 400 state 
parks and recreation projects. Nearly 70 percent of those funds 
have gone directly to cities and counties for them to design 
and provide close-to-home recreation opportunities. Some of 
these include the Dimple Dell Regional Park, Sugarhouse Park, 
Shepard Lane Park and other regional and neighborhood parks 
throughout the state.
    The fund has also been essential to the development of 
Utah's state park system and with those funds we have been able 
to develop such parks as Antelope Island, Bear Lake, Willard 
Bay, Utah Lake, Wasatch Mountain, Dead Horse Point, Snow Canyon 
and many others. Unfortunately, in recent years several 
opportunities to enhance or broaden our parks network have 
slipped away. Many of our parks and recreation facilities are 
obsolete. Age and overuse have taken their toll on many of our 
premier parks. How will CARA help solve these problems? Of 
course you're all familiar with the three types of CARA and I 
will briefly for you discuss how they would impact us.
    Title II would provide a stable source of funding for a 
variety of purposes. It would allow us to begin the daunting 
task of rebuilding our obsolete infrastructure and making 
needed capital improvements to our state park system to meet 
the demands of a growing population. CARA would supply matching 
funds for cooperative state and local projects. It would help 
us with existing outdoor recreation experiences by allowing us 
to enhance them in building trails and preserving natural 
corridors and working cooperatively. It would also provide 
funding to develop major trails and many other amenities.
    Title III of the legislation would provide for 
comprehensive approach to wildlife conservation funding and 
provide funding to address those species that are not fished or 
hunted. The revenues could be used for conservation easements 
which would leave land in private ownership, mostly farms and 
ranches, while it would preserve the critical habitat for 
wildlife. It would pay for wildlife education programs, provide 
matching funds for communities to develop their own projects 
and programs to support these objectives. It should be noted 
that rather than purchase lands, we need to seek conservation 
easements, leases or cooperative which are the preferred 
option. Working cooperatively with the Utah Department of 
Natural Resources, willing land owners may (inaudible) to 
wildlife habitat while continuing to produce important 
commodities on their properties. My time is up so----
    Mr. Hansen. No. Finish your statement.
    Mrs. Clarke. Okay. Today fewer than 7 percent of Utah's 
over 700 resident wildlife species have a steady reliable 
funding base to support their management. Passage of CARA will 
be a conservation milestone in Utah and the nation for 
maintaining wildlife diversity and for keeping many species off 
the endangered species list. The results of a survey conducted 
again by Utah State University indicate that Utah statesmen 
were highly supportive of funding programs to manage the 
wildlife diversity. Furthermore, given a number of choices, 
they overwhelmingly preferred having these programs paid for by 
assessments on energy development.
    The message is clear. The Conservation and Reinvestment Act 
of 1999 is exactly what the people want. A broad variety of 
outdoor recreation needs were documented during Governor 
Leavitt's recent Utah Great Outdoors Conference. 
Representatives from every planning district in the state 
expressed critical needs for reliable and stable funding to 
keep pace with Utah's expanding population of outdoor active 
people. They also identified the need to replace facilities 
that are being used in new and more impacting ways and to 
maintain critical habitat for wildlife.
    What would CARA ultimately mean for Utah and the nation? It 
will provide for protection and restoration of our coastal 
habitats. It will cause land and water conservation activities, 
providing essential recreation opportunities for our citizens 
and provide for our consistent and dedicated plan to conserve 
our precious fish and wildlife resources. All of this will mean 
that we can maintain our quality of life as our cities and 
towns experience great economic growth.
    Passage of CARA would recommit Congress and this nation to 
the principle that a part of the revenues earned from depletion 
of nonrenewable offshore oil and gas reserves should be 
reinvested in permanent assets that will serve the conservation 
and recreation needs of all the home owners.
    Congressman Hansen and members of this Committee, we stand 
at a crossroads, faced with an unprecedented opportunity to 
preserve and enhance our natural resources for generations to 
come. We encourage you to aggressively work to enact 
legislation for the sake of our children because if our 
children lose touch with their natural world, if they don't 
have a place under the sun to play, if they care more about 
video games and the Internet than they do about the wildlife 
and the outdoors, then our precious natural resources will be 
in trouble and so will our children.
    Thank you for your time. And I would be happy to take 
questions and with your indulgence would invite these two 
gentlemen to join me in answering your questions since they are 
the program managers that will be directly responsible for the 
oversight implementation of the state's acquisitions 
(inaudible).
    Mr. Hansen. Thank you. Mr. Nelson, anything you'd like to 
add to Kathleen Clarke's statement? Mr. Kimball, anything you'd 
like to add? Questions for this panel. The young lady from 
Idaho is recognized for five minutes.
    Mrs. Chenoweth. Thank you, Mr. Chairman. Before I get into 
my questioning, I would like to ask for unanimous consent to 
enter into the record about 2,000 survey questionnaires that 
Mr. Cushman has accumulated on this issue. Secondly, the 
testimony of the Washington Farm Bureau, a letter in opposition 
for the record. Thirdly, the testimony of Fred Grant, who is a 
constitutional attorney. We were not able to get him on the 
program. And a publication by Mr. Wayne Hage entitled 
``Property and War'' which may clearly explain why this 
transfer is occurring in this day and age.
    Mr. Hansen. Is there objection? Hearing none, so ordered.
    [The 2,000 Survey Questionnaires will be kept on file at 
the Committee office in 1324 Longworth House Office Bldg., 
Washington, DC]

  H.R. 701--Additional Testimony Submitted for the Record from May 3 
                         through June 11, 1999

    Wentz, Alan
    Ducks Unlimited, Inc.

    Gordon, Gerald E.
    Utah Wildlife Federation

    Carpenter, L. Steven
    Utah Recreation & Parks Association
    Montana Department of Fish, Wildlife and Parks

    Pfeiffer, Donald G.
    Washington, IA

    [The Washington Farm Bureau letter may be found at the end 
of the hearing.]
    [The statement of Fred Grant and The Wayne Hage Article, 
``Property and War'' follows:]

[GRAPHIC] [TIFF OMITTED] T9388.001

[GRAPHIC] [TIFF OMITTED] T9388.002

[GRAPHIC] [TIFF OMITTED] T9388.003

[GRAPHIC] [TIFF OMITTED] T9388.004

[GRAPHIC] [TIFF OMITTED] T9388.005

[GRAPHIC] [TIFF OMITTED] T9388.006

[GRAPHIC] [TIFF OMITTED] T9388.007

[GRAPHIC] [TIFF OMITTED] T9388.008

[GRAPHIC] [TIFF OMITTED] T9388.009

[GRAPHIC] [TIFF OMITTED] T9388.010

[GRAPHIC] [TIFF OMITTED] T9388.011

[GRAPHIC] [TIFF OMITTED] T9388.012

[GRAPHIC] [TIFF OMITTED] T9388.013

[GRAPHIC] [TIFF OMITTED] T9388.014

[GRAPHIC] [TIFF OMITTED] T9388.015

[GRAPHIC] [TIFF OMITTED] T9388.016

[GRAPHIC] [TIFF OMITTED] T9388.017

[GRAPHIC] [TIFF OMITTED] T9388.019

[GRAPHIC] [TIFF OMITTED] T9388.020

[GRAPHIC] [TIFF OMITTED] T9388.021

[GRAPHIC] [TIFF OMITTED] T9388.022

[GRAPHIC] [TIFF OMITTED] T9388.023

    Mrs. Chenoweth. Thank you, Mr. Chairman. Mrs. Clarke, I 
wanted to ask you, Utah has a----
    Mr. Hansen. We ought to get that mike a little closer, if 
you would, Mrs. Chenoweth, so that they can pick it up over 
here.
    Mrs. Chenoweth. Thank you very much. Mrs. Clarke, I wanted 
to ask you, Utah now has about 65 percent of its land base in 
Federal ownership and you are supporting more of that in the 
Open Spaces Title II element of this bill. How much does Utah 
have to give? Is it 70 percent, 80 percent? Where are you going 
to draw the line?
    Mrs. Clarke. I think our primary interest in supporting 
this bill is the state side funding that would come to us to 
allow us to utilize monies for development of local recreation 
initiatives. Funding that traditionally has been used on the 
Federal side has only been used in this state at the will and 
desires of the people. It's always had a congressional sponsor 
and been strongly supported for very specific reasons. So we 
have not experienced abuses in the dealing of Federal money on 
this.
    And there may have been some very appropriate uses. We have 
received money from this to help deal with the endangered 
species in Washington County. We have a habitat conservation 
program down there and without the Federal funding, that would 
have been a tremendous burden on that community down there to 
deal with that endangered species and funding has come from the 
Federal sides of that program. So there have been very 
appropriate uses.
    Mrs. Chenoweth. Thank you, Mrs. Clarke. How much of a 
percentage are you willing to give up of Utah to the Federal 
Government? Is it 65 percent, 70, 75? Where are you going to 
draw the line? Where is the state going to stand up and say 
we've had enough?
    Mrs. Clarke. I think we need to draw that line on 
individual specifics. Like I say, there are instances where we 
have welcomed some Federal participation and Federal funding 
but our focus really is on getting the acquisition, the 
opportunity to deal with the state side issues. It may be these 
gentlemen would like to add something from their perspective as 
they've dealt with that Federal piece.
    Mrs. Chenoweth. I think it's important to have an end goal 
in mind. How much is the state willing to give up to the 
Federal Government? It's at 65 percent now. Are you willing to 
draw the line at 70 percent or 75 or 80 or 85? Where does it 
stop?
    Mrs. Clarke. I don't think any of us want to see an 
increase in Federal ownership of land in this state.
    Mrs. Chenoweth. Could you help define for me what open 
space means?
    Mr. Kimball.  Yes, ma'am. I think from a wildlife 
standpoint at least, open space is basically wildlife habitat 
and it's to some extent difficult to call it open space because 
many of the critical habitats in our state are really 
surrounded by public land, as you pointed out, but open space 
is critical for wildlife for the same reasons it was critical 
for pioneers that moved here. They settled on these lands and 
they developed these lands and currently those lands support 
vital elements of wildlife resources and our desire, really 
from a wildlife standpoint, is to maintain the uses of those 
lands and the wildlife populations that they support right now.
    You were talking about Federal ownership and I think from a 
wildlife standpoint we're not interested in even state 
ownership of these lands. We're simply interested in trying to 
maintain these lands in the situation or condition that allow 
them to support wildlife populations.
    Mrs. Chenoweth. Mr. Kimball--if the chairman will just 
allow me one more question. By definition in this bill, 
wildlife is termed and defined and wildlife associated 
recreation is defined as that which can meet the demand for 
outdoor activities associated with wildlife including but not 
limited to hunting, fishing, restoration of wildlife viewing 
areas, observation towers, blinds, platforms, land and water 
trails, wildlife conservation, education and it also includes 
game and nongame wildlife. I mean, it could be anything, plant 
or animal or anything that appears on private property or 
Federal property or state property. So you see, we're not 
drawing the boundaries very well in terms of where this ends 
and what the boundaries of this bill really are. Thank you, Mr. 
Chairman.
    Mr. Hansen. The gentleman from Idaho, Mr. Simpson, is 
recognized for five minutes.
    Mr. Simpson. Thank you. I appreciate your testimony here 
today. And let me tell you where I'm coming from and some of 
the reasons that I haven't taken a position on this bill yet. 
On the one hand I see the advantages of this having served on a 
local city council and used Land and Water Conservation Funds 
and made communities more livable by providing recreational 
facilities for the youth and adults in those communities. I 
think those Land and Water Conservation Funds are very 
important and I would like to see those funds replenished. This 
legislation obviously would put money back into those sorts of 
activities.
    And I think that we have to have livable communities, means 
we have to have recreational facilities available for both our 
youth and our adults and we need to upgrade in Idaho, as I'm 
sure in Utah, our parks. We have insufficient funding to 
maintain the current park system we have, let alone expand it 
for the use of the people around this state. Oftentimes people 
in Idaho cannot even get a reservation in a state park because 
of the unavailability of spaces. You call January 1st and by 
the end of the day, they're filled up for the rest of the year. 
And so the people of Idaho really need those recreational 
opportunities and recreational spaces.
    On the other side there's a great deal of concern about, as 
was just mentioned by the other congressman from Idaho, about 
private property rights and Federal ownership and more 
ownership of Federal land. Would you support or could you see 
an amendment to this being beneficial which would be a no net 
gain type of amendment which if the state or the Federal 
Government were to purchase land, private land and take it off 
the tax rolls, that it would have to give up land currently 
owned by the Federal Government so that in the state there 
would effectively be a no net gain?
    Mrs. Clarke. Mr. Nelson asked in he could respond to this 
question, so I defer.
    Mr. Nelson. Mr. Chairman, Representative Simpson, I think 
that is a working title that has lots of value. We have that 
same situation in Utah right now with our land acquisition 
within the state government. And while it is sometimes hard to 
pin down exactly the formula which should be used for that and 
under what conditions, I think we have been successful in 
achieving that goal and objective. As to whether that would 
work with the Federal Government or not, I think it would be a 
concept that could be massaged and could seek the support of 
some Federal agencies who are those most directly impacted 
(inaudible).
    Most of our acquisition on the state side comes from those 
local communities, five, 10, 15, 20 acres. None of us deal 
anymore without partnerships. And my personal experience here 
in Arizona as the director, almost every acquisition involves a 
willing seller who is very interested in us taking over their 
property at a fair market value or at a compensated value below 
that for tax purposes and they in fact are bringing to us 
opportunities. How that particular scenario fits into a no net 
loss for a state agency, we have been able to work that out and 
I would think that would have some potential with the Federal 
Government in the vast (inaudible).
    The difference, and I would think Mr. Kimball may want to 
speak about this federally, is that the critical lands for 
play, for the wildlife habitat, are those that everybody seeks 
for the most part, as opposed to let's say some desert 
environment or some hard to access areas that the Federal 
Government would own and may not have for the near future any 
good public recreation or wildlife use.
    Mr. Simpson. You mentioned that yours at the state level 
it's a willing seller/willing buyer provision.
    Mrs. Clarke. Always.
    Mr. Simpson. It's my understanding under this provision, 
under this statute, that the Federal Government would not be 
able to condemn land. It would have to be willing seller/
willing buyer; is that as you understand it?
    Mr. Nelson. That is the case. We haven't used the eminent 
domain type thing one time in 25 years and I would never 
propose that in this day and age. As I said, for the most part 
my experience has been completely the opposite. This was the 
case down in St. George with our habitat conservation but we 
have been scrambling to meet the needs of these land owners 
(inaudible).
    Mrs. Clarke. That philosophy is consistent throughout the 
department. We never want to be heavy handed. There's some 
wonderful programs in wildlife where we're working on 
conservation easements but always the goal is to leave the land 
in private ownership. We have a state private property 
ombudsman. We may be one of the only states in the country that 
has that because of our commitment to private property rights. 
That person is housed and totally supported in my department 
and we often consult them to make sure we are not treading on 
private property rights.
    Mr. Simpson. Well, I compliment you for that.
    Mr. Kimball. I would just second what Courtland said and 
that's the fact that our interest is in maintaining wildlife 
habitat. It's not in owning or managing lands and we feel like 
the traditional uses that are there are currently supporting 
the wildlife habitats that we're interested in maintaining. So 
it's working with those traditional occupants of those lands 
and the industry that supports them that keeps them there. 
That's where our interest is.
    Mr. Simpson. Again, I thank you for your testimony.
    Mr. Hansen. The gentleman from the second district in Utah, 
if you have questions we'll recognize you five minutes.
    Mr. Cook. Thank you, Mr. Chairman. First I really want to 
commend this first panel. I know Ms. Clarke, Mr. Kimball and 
Mr. Nelson have worked hard and presented, I'm sure, the view 
of the governor of the state as you visit us in our offices in 
Washington and your help with regard to some of these 
amendments to the Land and Water Conservation Fund Act have 
been very, very helpful and I want to commend you for your 
work.
    I did want to ask you, Kathleen, specifically, for the 
people that live in the Salt Lake Valley, my congressional 
district is actually one of the most--it's not only by far the 
most urban congressional districts in the state but even in all 
of the western United States, one of the most urban 
congressional districts and I think people in Salt Lake really 
do appreciate the open space. I think they appreciate these 
opportunities. And could you kind of describe specifically for 
Salt Lake folks that are kind of bottled up in tight quarters 
most of their living experiences, what some of the programs 
that would affect some of the parks, that are close by, that 
are close here right to Salt Lake, and if you could even 
comment on maybe some of the educational impacts of the bill.
    Mrs. Clarke. I have here a list. Let me just read you a few 
of the projects that of right now where we have requests for 
funding through this program for Salt Lake. The Boys and Girls 
Club Park, which is a playground and volleyball courts. 
Environmental Center, Interpretive and Education in Landscaping 
Center, the Jordan River Parkway, monies for land acquisition 
and trail development along that corridor, a sports field 
facility which is for kids to play ball, just good wholesome 
recreation opportunity. The Lodestone Park, which would be for 
picnicking, playgrounds and some rest rooms. Again, the Dimple 
Dell, the Seventh East Park, which would be picnicking, sports 
again, and play field. Hidden Valley trailhead, the Bingham 
Creek Pedestrian and Bicycle Trail.
    So you see in there a whole array of different kinds of 
things, some that are an interpretive opportunity, an 
educational opportunity, some for just recreation, wholesome 
activities for kids, others that would be more serene and a 
place to go walk, to think, to retreat from the city. I'm going 
to let Courtland speak to the list of projects in a broader 
context all over the state.
    Mr. Nelson. Mr. Chairman and Representative Cook, I think 
it's two components to be answered. One that Kathy gave, that 
there is a strong need in the Wasatch Front and in the urban 
areas to provide that close-to-home recreational opportunity. 
While we speak of Yellowstones and Yosemites and Grand Canyons, 
many of us have life experiences that are close to home. Part 
of it sticks with us forever, whether it's a young family with 
their kids out enjoying the open space in the playground or a 
hike along the Jordan River or in the case of Idaho, some of 
the wonderful things you've done with your trails in Boise and 
in the Ketchum area and exists along the Colorado, along the 
Platte.
    Those are wonderful opportunities where the Federal money 
matches the local money for the improvements and those close-
to-home opportunities because there are many people in these 
urban cities who cannot get out to southern Utah or up to the 
Uintahs to have that recreation.
    I think also, particularly in your district, Representative 
Cook, we in the state parks and the Federal recreation areas 
are the playgrounds for your citizens. Every Friday night the 
highways are full with people during the summer months, and 
more and more in the spring and the fall, who are heading to 
eastern Utah, southern Utah and expecting some basic recreation 
facilities, whether it's for wildlife opportunities, whether it 
is for boating or hiking, they play where we provide facilities 
and then come back to your district to live their lives. So I 
think there's two answers to that question.
    If I may address your attention to this map here, and I 
will pick up and pass it. The recommended projects for John's 
wildlife programs, as well as for the suggested grants that we 
have received from potential applicants should CARA pass. That 
will give you a good feel for the geographic distribution for 
these projects.
    Mrs. Clarke. Mr. Chairman, if I could take one more minute, 
I'd like to ask Mr. Kimball to comment on some of the urban 
initiatives of the Division of Wildlife Resources.
    Mr. Kimball. I appreciate that. I would have tried to butt 
in anyway. We're really interested--as you know, there are two 
components to Title III that address specifically wildlife 
recreation and wildlife education and Kathleen said in the end 
of her statement that we need to make sure that there is a 
connection between our urban citizens and the wildlife 
resources of this state. We expect these future citizens to 
really support wildlife programs and that connection's 
important for our agency.
    Just about a month ago in Representative Hansen's district 
in Davis County we partnered with Davis County and a number of 
other people in a bird festival to talk about wetlands and 
wetland values and Davis County felt like I think it was an 
extremely successful partnership. Two weeks ago about, director 
Clarke participated in an urban fishing sort of ribbon cutting 
program at Farmington Pond where we've partnered with local 
sportsmen's groups to develop a fishing pier into a pond, a 
handicapped access fishing pier for urban fishing.
    I also have a residence down here in the mouth of City 
Creek. I spend a great deal of my time when I'm not working, 
walking up City Creek just to get away from my work, quite 
honestly. And I think that's important. And those of you that 
were here last night and saw the news would perhaps note that I 
think it's the University of Utah that's voting on Monday 
whether or not to consider a conservation donation of foothill 
range. It's an important component for us in this urban area.
    Mr. Cook. I want to thank you. I would also like to ask the 
chairman for unanimous consent for one additional minute just 
to ask another follow-up question of this panel.
    Mr. Hansen. No objection. So ordered.
    Mr. Cook. One of the concern--I appreciate, because I think 
there are many programs, as I said in my opening statement, 
that would really be of benefit to us here. One of the concerns 
I share with my colleague from Idaho, Mrs. Chenoweth, is that 
do you think could be a problem in either of these bills of 
adding to the Federal bureaucracy of our land management and is 
there any chances that taxes would have to be increased as a 
result if these bills are enacted?
    Mrs. Clarke. On the face of the bill I do not read that. 
John, did you want to say something?
    Mr. Kimball. From the Title III component it simply 
partners into an existing Pittman-Robertson program that quite 
honestly, Federal Governments and states have used for almost 
50 years. It's that very program that's rebuilt in many cases 
wildlife populations, of the game wildlife populations, and 
that component simply fits into that. It's one of the things 
that as a state director, I really appreciate the fact that it 
uses a system that I'm already comfortable with and as I 
understand, there is no tax addition, it's a distribution, a 
redistribution tax.
    Mr. Nelson. Mr. Chairman, Representative Cook, I wanted to 
add that as I read H.R. 707 there is also a requirement that 
payment in lieu of taxes, the bill is increased and an interest 
from the fund goes to the counties that have Federal land.
    Mr. Cook. Thank you very much.
    Mr. Hansen. The time of the gentleman has expired. Mrs. 
Clarke, if you had your druthers on this, which one of these 
bills would you prefer, H.R. 701, H.R. 798?
    Mrs. Clarke. We support H.R. 701. The only element of H.R. 
798 we would love to see incorporated is a funding stream to 
support the Forest Legacy Program which has been an important 
source of funding for the State of Utah. We have a state option 
on that money so that we can get money directed to the state. 
The land that we deal with under the Forest Legacy Program in 
Utah does not go to the Federal Government. It stays in private 
hands for the conservation needs with the option of either the 
state or private interest holding that conservation easement. 
So we would love to see an amendment and would certainly 
support one but in general we support H.R. 701.
    Mr. Hansen. Would the state support running the state side 
funds through the state legislature to authorize these state 
projects?
    Mrs. Clarke. I'm going to invite these two gentlemen to 
respond since they would be the ones directly responsible for 
the management of those funds.
    Mr. Nelson. Mr. Chairman, on the state parks side of the 
state fund we are required to bring all of our capital projects 
through two committees. They have to approve those before those 
monies could be spent. And of course there is a state 
requirement for that that I would have to work in achieving. So 
on the state side, which historically has amounted to 31 
percent (inaudible). That occurs nationally. It gets more 
cumbersome if you require the locals to also go through a state 
approval process in order to (inaudible). I think the 
(inaudible) value to the west that I think runs headlong into 
some of the things we're dealing with local control and to have 
local agencies have to go through another bureaucratic exercise 
in order to match those state funds I think would be 
duplicitous.
    We have a citizen board in our case in Utah and I believe 
that's the case in Arizona and Colorado, I'm not sure about 
Idaho, that has--they review the grant applications, they rank 
them and they make those awards and that goes to my state parks 
board who again rate them and rank them and those go out to the 
citizens so you have two levels of citizen board evaluation 
based on staff evaluations but these also add some integrity to 
the system.
    Mr. Kimball. The legislation, as I understand it, calls for 
a public process to help develop, in the wildlife programs 
anyway, the programs that we'll implement and I guess I can 
assure you that our state legislature, who authorizes my 
spending feel, I think, like they have pretty good oversight on 
what our agency does and what our agency doesn't do. They don't 
direct the funding as you've indicated but they do direct where 
I'm allowed to spend money and I would assume that that's the 
level of oversight that they'd be comfortable with.
    Mr. Hansen. I see from your booklet that there's apparently 
pretty good support for this issue in the State of Utah 
executive branch. The legislative branch, where are they coming 
from? Have you heard anything from those folks? What about 
county commissioners and mayors, people like that?
    Mrs. Clarke. I believe the mayors of the Utah League of 
Cities and Towns is fully behind this. We have many of our 
cities that have supported it. There have been some concerns 
raised about private property issues. We believe that they can 
all be accommodated and addressed within the context of the 
bill and that this would not be abusive in any way regarding 
those private property rights. But we think there's 
overwhelming support as indicated by that lengthy list of 
people who have rallied around and see the great benefits of 
having this funding available to the communities and to the 
state to use in all of these objectives we've discussed.
    Mr. Hansen. The president of the senate or speaker of the 
house, have they taken a stand on this?
    Mr. Nelson. I'm not aware of them taking a stand but I can 
say that last year in our legislative session particularly 
dealing with wildlife habitat and wildlife habitat issues, we 
spent a lot of time talking about how we would fund the 
protection of wildlife not only from the standpoint of 
preserving wildlife values on private lands but mechanisms to 
do that and I think our legislature was extremely comfortable 
with the concept of conservation easements and working with 
conservation easements to secure wildlife conservation on 
private lands.
    Mr. Hansen. I've noticed that you've already addressed 
Title II and Title III, which I wanted to ask about and also 
private property interests that you've talked about, and I 
won't ask you but I'd like you to respond, if you would, when 
you did have the land conservation fund or when it was to be 
fully funded how was the money spent in Utah. I guess that's in 
your booklet also.
    Mrs. Clarke. It is.
    Mr. Hansen. And I've looked at your list of what you 
anticipate you will do from later on so I see my time is up. 
We've now been joined by the congressman from the Third 
Congressional District, a member of the Committee and, Mr. 
Cannon, if you have any opening statement or anything you'd 
like to ask these witnesses, we'll recognize you for five 
minutes.
    Mr. Cannon. Thank you, Mr. Chairman. I'd ask unanimous 
consent to have my opening statement just included in the 
record.
    Mr. Hansen. Without objection. So ordered.
    [The prepared statement of Mr. Cannon follows:]

 Statement of Hon. Chris Cannon, a Representative in Congress from the 
                             State of Utah

    Thank you Mr. Chairman. First, I would like to welcome our 
colleagues to our beautiful state. I am honored to host our 
Committee. Also, I would like to welcome our panelists and 
extend my appreciation to them for taking time on a Saturday 
morning to discuss this important legislation. I know our 
Chairman, Mr. Young, has worked very hard and diligently on 
this legislation and he is very proud of it. I also understand 
many groups have some concerns with various issues contained in 
the legislation. I hope that our discussion today will provide 
some insight into those concerns and provide a helpful dialogue 
to address any outstanding matters. I am anxious to let our 
panelists begin their remarks, so I will try to keep my 
comments brief.
    Many of our panelists this morning will highlight the 
benefits of H.R. 701. While I recognize H.R. 701, provides some 
great benefits for the states, including Utah, I would like to 
note that I understand this legislation is not without fault. 
There are many individuals who are concerned that this bill 
encourages the acquisition, by the Federal Government or 
states, of more land. I suspect that some of our witnesses this 
morning will touch on those concerns.
    H.R. 701 would establish a new formula and procedure to 
distribute funds from the Land and Water Conservation Fund. 
Historically, the Secretary of the Interior has been 
appropriated roughly $270 million annually for the acquisition 
of environmentally sensitive lands throughout the United 
States. In the past, these acquisitions have occurred without 
any accountability or consideration of property rights or 
existing Federal areas. I would like to commend the Chairman 
for including language in H.R. 701 which adds significant 
private property protection and Congressional oversight to the 
process.
    Mr. Chairman, I know we have a full morning ahead of us and 
I am eager to hear from the knowledgeable individuals before us 
today. I suspect we will have a good discussion and I look 
forward to examining all aspects of the legislation.
    Thank you Mr. Chairman.

    Mr. Cannon. I want to apologize for being here a little 
late. We committed to a parade in Springville before this 
hearing was set and I appreciate the chairman's willingness to 
defer this hearing for an hour and still it was impossible for 
me to get here on time. I apologize.
    I want to thank the panelists in particular for being here. 
We've actually spent some time privately talking about these 
issues. And let me point out that the booklet which I think 
you're referring to is the booklet that members of the panel 
have given me in the past and I think that's a remarkably 
thoughtful and thorough book and so at this point and given the 
number of panelists I think we're going to have today, I think 
I'll yield back the balance of my time.
    Mr. Hansen. Thank you. Do any members of the Committee have 
additional questions for the panel? Mrs. Chenoweth recognized 
for five minutes.
    Mrs. Chenoweth. Mr. Chairman, this won't take five minutes 
but I wanted to let Mrs. Clarke know that I am very, very 
supportive of restoring the Land and Water Conservation Funding 
system as it was passed in 1965, which is a far better formula 
for the states than what is laid out in H.R. 701. I have been 
working with Yvonne Farrell from my state. I enjoy the green 
belt with my children and grandchildren. While I don't believe 
that this is a basic function for the Federal Government, it's 
part of our life today.
    And, for the record, I have said on and off the record and 
I'll say it again, I think we made a serious mistake in 1995 
when we took funding away from the states while not at the same 
time taking funding away from the Federal Government. There is 
nothing that can really help families more than to be able to 
pray together and play together. Yvonne Farrell made that point 
to me when I spent a day with her mountain biking and biking on 
the green belt. When we have parks and recreational areas close 
to homes where parents really know where their children are 
playing, it does make a difference.
    My concern, as you know, is of the expansion of Federal 
ownership. Secondly, my concern in this bill is that this bill 
would require a partnership with the Secretary of Interior 
having all final say on what kind of program that you would 
implement and it would require 50 percent matching funds. It 
allows for local units of government to go around the governor 
and form a partnership with the Federal Government and of 
course it increases overall Federal spending. But, like I say, 
we made a mistake in 1995. We must correct that mistake and 
bring that funding back to the states. So within that frame of 
reference I'm very supportive of doing that.
    Mrs. Clarke. I appreciate hearing that and it sounds to me 
like we have a lot in common in terms of what our interests 
are. Our primary interest here today as I stated is to see that 
mechanism back in place. We acknowledge there are some concerns 
on the Federal funding side and trust that you will deal with 
those appropriately. I want to tell you I appreciate the values 
that I think we all embrace regarding the need for recreation, 
for wholesome recreation close to home, as well as for 
protection of our wildlife interests and values that are out 
there.
    We like the context of the bill. It allows for local 
governments, however, to design some of their own recreational 
needs. It fits into some local solutions to some of our 
compelling needs, creates partnerships that we want to support. 
And as a single mother with three sons, let me just add a 
personal note and say that, you know, I don't take my boys 
fishing or take them camping but I really enjoy those things 
that are close to home, things that are easy for me to access. 
I'm a busy woman and I'm very grateful that there have been 
things close to home for us to do together as a family. And I 
echo what has been said, we need to pray and play together. And 
we are just anxious to have funding available to help us 
accommodate the compelling demands of our citizens to continue 
to enjoy those types of opportunities.
    With growth moving ahead in this state as it is, and we're 
looking at doubling our population before 2020, we're just 
overwhelmed with needs to repair and restore facilities that 
are falling apart now as well as to look to the future as to 
how we're going to accommodate the increasing demands for those 
types of opportunities.
    We would love to see this legislation or a formula for the 
state to get back into the funding picture enacted by this 
legislation or by this legislature and encourage you to 
consider it. Thank you.
    Mr. Hansen. Thank you. We appreciate Kathleen Clarke, Mr. 
Nelson, Mr. Kimball for their testimony and we will excuse this 
panel. And I don't see Mayor Bell coming in so we'll call on 
the second panel. Mr. Bert Smith of Ogden, Utah, Mr. Robert 
Valentine of Brigham City, Utah, Mr. Don Peay, executive 
director, Sportsmen for Fish and Wildlife of North Salt Lake, 
Utah, Mr. Travis Hall, public relations manager of Browning 
Arms in Morgan, Utah. If they would come up, we'd appreciate 
it. We appreciate the panel being here. Mr. Smith, if you would 
like to go first, sir, we'd appreciate hearing from you. If 
you'd pull that mike over, I'd appreciate it. Thank you.

              STATEMENT OF BERT SMITH, OGDEN, UTAH

    Mr. Smith. Thank you, Mr. Chairman. Could you find 
something to tape that on that board? It's an important map. 
Distinguished congressmen, I appreciate being able to say my 
piece here about this bill. I'm Bert Smith, president of the 
National Federal Land Conference, an organization designed to 
protect private property. Our office is located in Bountiful, 
Utah. My home address is a ranch in Nevada and a townhouse in 
Ogden, Utah and a business in Ogden, Utah, as my papers will 
describe.
    I'm a member of the Nevada Cattle Association and a member 
of the board of directors. I'm a member of the Utah Cattle 
Association and the New Mexico Cattle Association. I have 
property in all those states.
    I'm well acquainted with the public land issue, probably as 
well as any witness you will ever have because I'm known in my 
own circles, not very widely because I'm only a country 
bumpkin, but I'm known as Mr. Sagebrush Rebellion and I 
continue to fly that flag. It's an important flag to me because 
we stand for no net loss of the private property and Mr. 
Chairman, as you well know that was an important issue at one 
time and even Senator Hatch, wanted to pass the bill in that 
respect.
    I have a business that is widely known as an agri-business 
and we do business with all of the livestock people in the 
west. It's not just a country store, it's a world country store 
because we have visitors from all over the world come there. 
It's quite a museum piece and we have anything you want, if we 
can find it and we have a big sign that says that. And another 
big sign that says Holy cow, what a great store. So we're not 
sober all the time. We make fun of ourselves and the public 
love it. It's a menagerie but it's not small.
    And we enjoy our ranch people and they come there to buy 
wholesale and retail. We do wholesale in seven states. We sell 
as many as 2,000 saddles a year. We're the second largest 
horseshoe dealer in the United States. We're the largest 
Wrangler jean dealer in Utah.
    To go on, I have some substantial land holdings in Nevada 
and Arizona and New Mexico. I am an in holder. The government 
surrounds me. And the reason I want this map up there is you're 
well acquainted that the black is federally owned. I mean 
Nevada is all Federal land outside of Reno and Las Vegas, a few 
of the bigger cities, are in holders.
    You'll notice there that the gray snake that runs across 
there is 40 miles wide, that represents the railroad. I mean 
every other section is in holding by the railroad. They're the 
money out there trying to push this thing through. They would 
love to sell some of their mountaintops that they've got as the 
largest land grant in the history of the world. They'd like to 
sell that and some of the oil companies feel the same way. In 
Reno there is a big influence from the oil companies on this 
bill.
    We're deeply disappointed in Representative Don Young and 
other good Republicans who would sponsor such a bill. Buy up 
more land to be held in the tight iron grip of the Federal 
Government.
    Bill H.R. 701 has so many golden threads woven into a 
blanket of untruths that it's misleading. This sounds like a 
motherhood bill and it opens the door that would let Clinton/
Gore walk in or drive a truck through that door if we let that 
crack open. They have some real money spent on bills out there 
that they would like to buy up everything. This is a very 
dangerous door opener. There is one thing that we all agree 
that----
    Mrs. Chenoweth. Mr. Chairman----
    Mr. Hansen. The young lady from Idaho.
    Mrs. Chenoweth. I would ask unanimous consent to allow Mr. 
Smith additional time of three minutes.
    Mr. Hansen. Hearing none--what do you need, Mr. Smith, 
three more minutes? You have three more minutes.
    Mr. Smith. Well, I'll sum it down.
    Mr. Hansen. So ordered. Debbie, could you give him three 
more minutes?
    Mr. Smith. I'm known as a talker so I apologize for 
taking----
    Mr. Hansen. I think you're doing fine.
    Mr. Smith. The bill violates Article 1, Section 8 and the 
government should be held to the limited ownership of land. I 
would like to submit as my witness a book that cost a quarter 
of a million dollars in legal research, ``How the West was 
Lost.'' This will undo the sweetheart deals the Federal 
Government has been delving in for a hundred years.
    Mr. Hansen. Is there objection to the book being submitted 
into the record? Hearing none, so ordered.
    Mr. Smith. And also ``The Golden Fleece'' is the one that's 
been out for a long time. It has a lot of wonderful information 
on this subject of why the Federal Government shouldn't be in 
the land business. And the Federal Government owns 42 percent 
of the United States, 92 percent of Nevada. How much is enough? 
The question has been asked here today, how much more do they 
want? Do they want it all? That would be total socialism if 
they had it all. Are we going to be a free country or are we 
going to give it up? That's the question I'd like to ask. Thank 
you.
    Mr. Hansen. Thank you, Mr. Smith. And all of the 
information you've given us, we'll include that.
    [The prepared statement of Mr. Smith follows:]

     Statement of Bert N. Smith, President, National Federal Lands 
                               Conference

    Dear Sir/Maam,
    I am Bert N. Smith, President of the National Federal Lands 
Conference, an organization used to protect private property 
rights, which is located in Bountiful, Utah.
    I am authorized to give testimony for the Coalition of 
Counties in Arizona and New Mexico.
    I am a Utah Agri-business owner in both the retail and 
wholesale sectors.
    I am a Nevada cattle rancher and a member of the Nevada 
Cattlemen's Board of Directors.
    I am an inholder, (Owner of land surrounded by federally 
owned land).
    H.R. 701 is a very dangerous bill that would give the 
Federal Government billions of taxpayers dollars to buy up 
private land and remove it from the counties tax base.
    We are deeply disappointed that Rep. Don Young and other 
``good'' Republicans would sponsor this bill. We are also 
disappointed that the bill is getting support from the National 
Governors Association and the National Association of Counties.
    This bill, H.R. 701, has so many golden threads woven into 
a blanket of untruth that it has misled both the state and 
county organizations.
    We do not need more government ownership of land. 
Government ownership of land is a violation of the very 
foundation of this free government, the right to own private 
property. Here are a few of the reasons that additional Federal 
ownership is unlawful and unneeded.

        1. This bill violates Article I Section 8. Five western states 
        have passed laws and we need to reinforce them.
        2. This bill violates Article IV Section 4. This guarantees 
        that the state and the people are sovereign. The Federal 
        Government should never have the power of eminent domain.
        3. Exhibit #1. The Golden Fleece. Nevada is 90 percent owned by 
        the Federal Government and 6 percent owned by the railroad. The 
        railroads are the biggest inholders and have the most to gain 
        by selling all of their unusable land. Also, the oil companies.
        4. Exhibit #2. ``How the West was Lost,'' a complete document 
        of how the Federal Government has completely manipulated laws 
        and usurped the right of property ownership. Page 240 and 241 
        explains how the Federal Government violated the trust and kept 
        the deed to the western land. Page 239 exposes a sweetheart law 
        suit (Kleppe) that must be overturned. This book is a very 
        complete and extensive legal document.
        5. The Federal Government has caused almost all of the inholder 
        disasters such as declaring private property critical petro 
        clif areas. The people must pay tax and can't use the land.
    I know of a man in Arizona whose rights rave been completely 
trampled upon. He has a subdivision on the Arizona strip that is 
approximately the size of St. George City. Appraisers have given it a 
worth of $20 million. The Federal Government has had it tied up for 15 
years now, due to the idea that there are signs of desert tortoise. He 
pays thousands of dollars each year in taxes for land that he can't use 
or sell. This is just one example of the Federal Government abusing the 
property rights of citizens.
    The number of property rights disasters that take place now is 
staggering. I fear that the number of abuses to property rights will 
become overwhelming if H.R. 701 is passed. It is an overwhelming 
problem now. H.R. 701 can not be supported by you or anyone else that 
loves or respects this country. The rights that we have here have been 
fought for for generations and these rights need to be preserved. H.R. 
701 would destroy these rights and must not be supported.

    Mr. Hansen. Mr. Valentine, you're recognized for five 
minutes.

       STATEMENT OF ROBERT VALENTINE, BRIGHAM CITY, UTAH

    Mr. Valentine. Thank you, Congressman Hansen and members of 
this Committee. I appreciate the invitation and opportunity to 
testify in support of this legislation this morning, for both 
H.R. 701 and 798. I regard them as a major step in the 
direction of providing additional funding for the much needed 
use of Utah's recreational and wildlife advocates.
    As you can see from my resume, I've been involved, 
intimately involved with wildlife management throughout my 
service as a wildlife board member for 10 years and I also 
served as Director of the Division of Wildlife Resources for a 
little over three years. Therefore, I feel qualified to talk 
about the wildlife management funding and their needs.
    Through an appointment to and the continued service as the 
U.S. House of Representatives appointee to the Utah Reclamation 
Mitigation and Conservation Commission, I've gained much 
valuable experience and understanding of the needs of the 
recreationalists in the state of Utah. With that very brief 
introduction, I'd like to continue my testimony.
    Utah is not the unique state in the west. Our needs and 
objectives are common with other states throughout this portion 
of the country. In continued talks with various state directors 
and members of the Western Association of Fish and Wildlife 
Agencies, I was able to understand and conclude that funding 
the requirements and needs in Utah are not different from those 
in the surrounding states.
    While serving as a city councilman and a county 
commissioner, I operated with a long-standing philosophy of use 
or pay. That's not been the situation in the state of Utah nor 
for that matter do I believe it's been the situation in many of 
the other western states.
    The funding for wildlife management in the state of Utah is 
broken down quite generally as 65 percent coming from the sale 
of licenses and permits, 25 percent of their annual budget 
comes from Federal funds generated by Pittman-Robertson, 
Wallop-Breaux and Dingell-Johnson. The other 10 percent came 
from general fund appropriation and/or other sources within the 
state of Utah. As you can see, 85 to 95--85 to 90 percent of 
the funding for wildlife management within the state of Utah 
came directly from the sportsmen. This is a major imbalance.
    The nonconsumptive community does not have an acceptable 
opportunity to contribute their fair share. Those individuals, 
particularly those in the last decade, have demonstrated a very 
passionate and strong feeling for wildlife and wildlife 
management and have taken a very active role in stating their 
management objectives in regard to wildlife management and what 
they would like to see done. I do not favor denying these 
people an opportunity to participate in that process. I think 
these two pieces of legislation go a long way toward addressing 
the need for additional funding here in the state of Utah.
    As you probably heard many times in the past, as it relates 
to wildlife management, the Endangered Species Act has created 
many unfunded mandates the sportsmen in this state have been 
forced to fund because no other funding was available. Although 
the imbalance has improved somewhat in recent years, it's still 
an inadequate amount to conduct all of the required programs.
    It does not require much stretch of the imagination to look 
at the Land and Water Conservation Funds as those generated 
through the general population and their purchase of patroling 
popular products. Therefore, this legislation, in my humble 
opinion, is a more balanced opportunity for funding of those 
unique wildlife management requirements that many of the 
nonconsumptive community feel very near and dear to them.
    I think this legislation goes a long way in addressing this 
imbalance and I would encourage both houses of Congress to pass 
this very important critical legislation that is much needed by 
this state and other states throughout the country. As we 
address the continued and ever increasing needs for wildlife 
management and recreational opportunities, this can be the most 
beneficial legislation to resolve those concerns.
    In closing, I thank you very much again for the opportunity 
and courtesy to continue to work toward passage of this 
legislation. Thank you.
    [The prepared statement of Mr. Valentine follows:]

          Statement of Robert G. Valentine, Brigham City, Utah

    Thank you, Congressman Hansen. I appreciate the invitation 
and opportunity to testify in behalf of this legislation, both 
House Bill H.R. 701 and H.R. 798, as a major step in the 
direction of providing additional funding for the much needed 
use of Utah recreationalists and wildlife advocates. As you can 
see from my resume, I have been intimately involved with 
wildlife management through my service as a wildlife board 
member for ten years and also as I served as director of the 
Division of Wildlife Resources for a little over three years. 
Therefore, I feel qualified to talk about the wildlife 
management funding and their needs as well as through an 
appointment to and continued service as the U.S. House of 
Representatives appointee to the Utah Reclamation Mtigation and 
Conservation Commission. I have gained valuable experience and 
understanding of the needs of the recreationalists in the state 
of Utah. With that very brief introduction, I would like to 
continue my testimony.
    Utah is not a unique state in the west. Our needs and 
objectives are common with the other states throughout this 
portion of the country. In continued talks with the various 
directors of the members of the Western Association of Fish and 
Wildlife Agencies, I was able to understand and conclude that 
the funding requirements and needs of Utah are not different. 
While serving as a city councilman and county commissioner, I 
operated with the long-standing philosophy of ``user pays.'' 
That has not been the situation in the state of Utah, nor for 
that matter do I believe it has been the situation in many of 
the other western states. The funding for wildlife management 
in the state of Utah is broken down quite generally as 65 
percent came from the sale of licenses and permits, 25 percent 
of their annual budget came from Federal funds generated by 
Pittman-Robertson, Wallop-Breaux and Dingel-Johnson; the other 
10 percent came from general fund appropriations and/or other 
sources within the state of Utah. As you can see, 85 to 90 
percent of the funding for wildlife management within the state 
of Utah came directly from sportsmen. This is a major 
imbalance. The nonconsumptive community does not have an 
acceptable opportunity to contribute their fair share. These 
individuals, particularly in the last decade, have demonstrated 
a very passionate and strong feeling for wildlife and wildlife 
management and have taken a very active role in stating their 
management objectives in regard to wildlife management and what 
they would like to see done. I do not favor denying these 
people an opportunity to participate in that process. I think 
these two pieces of legislation go a long way toward addressing 
the need for additional funding here in the state of Utah.
    As you have probably heard many times in the past as it 
relates to wildlife management, the Endangered Species Act has 
created many unfunded mandates that the sportsman in this state 
have been forced to fund because no other funding was 
available. Although the imbalance has improved somewhat in 
recent years, it is still an inadequate amount to conduct all 
of the required programs. It does not require much stretch of 
the imagination to look at the Land and Water Conservation 
Funds as those generated through the general population and 
their purchase of petroleum products. Therefore, this 
legislation, in my humble opinion, is a more balanced 
opportunity for funding of those unique wildlife management 
requirements that many of the nonconsumptive community feel 
very near and dear to. I think this legislation goes a long way 
in addressing this imbalance and I would encourage both houses 
of Congress to pass this very important and critical 
legislation that is much needed by this state and other states 
throughout the country.
    As we address the continued and ever-increasing needs for 
wildlife management and recreational opportunities, this can be 
the most beneficial legislation to resolve those concerns. In 
closing, I thank you very much again for the opportunity, and 
encourage you to continue to work toward passage of this 
legislation.
    Thank you.

    Mr. Hansen. Thank you.
    Mr. Valentine. Mr. Peay.

 STATEMENT OF DON PEAY, EXECUTIVE DIRECTOR, SPORTSMEN FOR FISH 
             AND WILDLIFE OF NORTH SALT LAKE, UTAH

    Mr. Peay. You have my written comments. I may vary from 
that just to reiterate points. I hate reading a prepared 
statement.
    Mr. Hansen. Incidentally, all the written comments that 
everyone will give will be included in the record and we 
appreciate you--we'll take your statement here but they'll all 
be included in.
    Mr. Peay. Sportsmen for Fish and Wildlife is a very large 
sportsman group in the state. Several of you have attended our 
fund raisers and I would say we're probably 80 percent 
Republican except for the district of Mr. Cannon's in Price and 
that's a very democratic district but you know the support we 
have----
    Mr. Cannon. And we love your sportsmen there, too, by the 
way.
    Mr. Peay. You saw 600 people come.
    Mr. Cannon. That's right.
    Mr. Peay. We are mostly businessmen and we support limited 
government. We don't want any more government control than 
possible. But I would just have to say that public land is a 
great blessing because in Utah 95 percent of the private land 
says no trespassing, no hunting, no fishing, keep out. And so 
while we may be concerned about what the Federal Government 
does on Federal land, the verdict's already in on private land. 
We're locked out, period. That's where we recreate. That's 
where we hunt. That's where we fish is on public land. It's a 
great blessing to be able to go into the Grovant Wilderness of 
Wyoming or Hells Canyon in Idaho or any of these other western 
states. Public land is a great blessing.
    Let me tell you just a few specific examples about what 
I've done the last 10 years. I was a businessman. I sold that 
business and got involved in the wildlife conservation 
business. The ranchers and the sportsmen in Utah were basically 
at war. There's too much wildlife. There's too many cows. And 
rather than let the Federal Government solve that solution, we 
decided to try to work together with the Farm Bureau, the 
cattlemen, the wool growers and we've done several projects 
involving millions of dollars where we either buy land or buy 
grazing permits or water rights and then we trade, swap, do 
various things in a win-win business, free market system as 
much as possible to solve problems.
    And so we have a lot of ranchers who are our friends but 
frankly, there are a lot of ranchers who are going out of 
business and they call us and say, This is a better wildlife 
ranch than it is a cattle ranch, would you guys be interested 
in buying it? Mr. Hansen knows of the Wilcox ranch. They 
approach us, we don't go approach them. And so the challenge is 
as private groups it's hard to raise enough money to buy land 
and then turn it over to all the public that don't pay for 
that.
    Just a quick example. When lands were settled in Utah, 
perhaps 4,000 private acres were settled to design access and 
control of 100,000 acres of public land. We had one place in 
Utah where half a million acres of public land was controlled 
by five families owning 20,000 acres. We were very excited in 
the Book Cliffs where there was a chance to buy these private 
lands to compensate these ranchers at fair market value and 
open up a half a million acres to public access to wildlife. So 
these are the benefits that can come through CARA funds if 
they're given as much local control as possible. We don't want 
the Federal Government in here trying to dictate but there is a 
need for funds to solve problems and we've done that 
successfully.
    I'd just like to answer Ms. Chenoweth's question. I think 1 
percent more in Utah. I think if we could acquire perhaps 
200,000 acres of these highly leveraged ranches from willing 
sellers, that would solve a lot of problems with conflicts 
between wildlife and livestock and it would also open up access 
to millions of acres of public land that we've been locked out 
of. So it's not a great amount of land, it's just key strategic 
pieces of land.
    And I also want to point out one other thing as we've dealt 
with many of these ranchers. When they say, Well, why can't you 
get money from the state or the Federal Government, we say, 
Well, some congressmen don't want us to do that. And they say, 
Well, isn't that violating our private property rights because 
we should be able to sell to any willing buyer. So that's a 
point. And these are direct comments from ranchers we've dealt 
with.
    One other point of this legislation that we want to focus 
in on is there's been some discussion that this is an 
opportunity for the nonconsumptive people to contribute. It's 
really not a direct contribution. This is a royalty from 
offshore drilling. And we think strongly, as we've said, 
sportsmen have paid the bill for a long time. We would like to 
see funds from CARA go in to augment hunting and fishing 
programs which are lacking.
    We always step up to the plate for license increases. The 
Utah Legislature passed a $6 habitat authorization license a 
couple years ago that generates $3 million a year to protect 
habitat. So sportsmen are always paying the bill. Now there's 
some free money and the other group wants all of it. We feel 
strongly that this money should go to augment hunting and 
fishing programs. And I think that--my time's running out.
    You can read some comments of some ideas that we have 
specifically. But, as I say, in the last 10 years we've done 
this. We've solved problems. We've tried to do it through win-
win business principles. And a lot of my people that support me 
are in the sporting goods industry and it's a $500 million 
industry in this state and this is a huge business that we need 
to protect. So 80 percent of us Republicans in our group think 
that CARA is a good concept. Thank you.
    [The prepared statement of Mr. Peay follows:]

Statement of Donald K. Peay, Executive Director, Sportsmen for Fish and 
                                Wildlife

    Dear Utah Delegation Members,
    The organized sportsmen groups of Utah, strongly support 
the Conservation and Reinvestment Act (CARA), and offer some 
additional suggestions to create the best legislation possible 
for wildlife conservation.
    For the past 100 years, sportsmen have carried the burden 
for ALL wildlife conservation. Literally billions of dollars 
have been invested. When hunting and fishing license fees are 
not enough, sportsmen support excise taxes such as Pittman-
Robertson and Wallop-Breaux to generate billions more. Four 
years ago, the sportsmen of Utah requested the Utah legislature 
to create an additional habitat license that generates 
approximately $3 million additional dollars annually for 
habitat preservation in Utah. It is still not enough money, so 
sportsmen annually donate tens of millions more dollars to 
private organizations such as Ducks Unlimited, Rocky Mountain 
Elk Foundation, Foundation for North American Wild Sheep, 
National Wild Turkey Federation and others.
    Last year, Congress considered passing an excise tax 
similar to Pittman-Robertson for non-hunting and non-fishing 
items (Teaming with Wildlife). The non-consumptive folks 
resisted this effort and the idea was defeated. These people 
absolutely refuse to directly pay for wildlife conservation, 
yet demand a huge voice in wildlife management.
    CARA is an alternative funding source, and the funds are 
badly needed to protect wildlife habitat, as human populations 
continue to grow. Many groups feel that this ``free money'' 
should be used only or primarily for species that are not 
hunted or fished. We completely disagree: For decades sportsmen 
have funded millions of non-hunted species projects. Additional 
dollars are needed for species that are hunted and fished. When 
you protect habitat for species that are hunted and fished, you 
protect habitat for all species.
    Perhaps one additional line should be added to legislation 
under intended uses, Title III, Section 302 to indicate:

        ``To augment existing hunting and fishing programs''

Core components of the Legislation

    Because of the additional need to protect habitat for all species 
including those that are hunted and fished, we support CARA, H.R. 701. 
However, because of the historical funding for wildlife management, and 
the anti-hunting and anti-fishing agenda of some in the non-consumptive 
groups, we hope that the following core recommendations are in the 
legislation:

        1. 100 percent of the control of how the money is spent is 
        given to states
        2. States retain title for all water, land and easements 
        acquired with CARA money.
        3. A local public input process into how the CARA dollars 
        should be spent.
        4. Clearly indicate CARA dollars are for game and non-game 
        species.
        5. No Money--0 percent--of CARA dollars may be used to purchase 
        lands and waters that would restrict hunting or fishing beyond 
        normal limits established by the state wildlife commission. No 
        money may be used to create non-hunting and non-fishing 
        preserves.
        6. 501 C 3 Wildlife Conservation organizations may obtain CARA 
        dollars as part of on the ground or in the water matching funds 
        for private wildlife conservation organization projects.

The best suggested use of CARA dollars in Utah:

Primary Uses

    1. At least 50 percent of the CARA dollars in Utah go into securing 
winter range for large game species. The CUP project has hundreds of 
millions of dollars for wetlands and fisheries. The CRP program 
provides funding for upland game. Protecting Utah's big game winter 
range is Utah's greatest need, and is being most significantly impacted 
by human population growth. Securing big game winter range helps 
multitudes of other species.
    2. Improve, enhance and rehabilitate existing Federal lands. There 
are millions of acres of Forest Service and BLM lands that could be 
greatly improved by the use of chaining, burning, re-seeding, and other 
habitat manipulation projects.
    3. Acquisition of critical School and Institutional Trust Lands, 
that are being sold off in the thousands of acres on an annual basis in 
Utah.
    4. Acquisition of water rights to protect in stream flows, 
wetlands, and riparian systems.
    5. Acquisition of grazing permits from retiring ranchers. This will 
allow for resolving conflicts between wildlife and livestock on public 
lands.

Secondary Uses

    1. Perform studies and monitoring of species.
    2. Hire more employees for specific species protection.
    3. Law enforcement and education programs.
    For the past 10 years, we have worked to protect wildlife 
populations, and to resolve conflicts between livestock and wildlife. 
There can be win/win solutions, as retiring ranchers are fairly 
compensated for their assets in a willing seller and willing buyer 
arrangement.
    We appreciate your support of this critical piece of legislation to 
protect the industry of hunting and fishing, and the intrinsic value 
and quality of life associated with Utah's great wildlife heritage. 
However, if this legislation becomes nothing more than another Federal 
program, administered from Washington DC with bureaucracy and red tape, 
use the money to reduce the deficit.
    Sincerely,
    Donald K. Peay
    Executive Director
    Mr. Hansen. Thank you, Mr. Peay. Mr. Hall. Mr. Hall is 
recognized for five minutes.

STATEMENT OF TRAVIS HALL, PUBLIC RELATIONS MANAGER OF BROWNING 
                      ARMS IN MORGAN, UTAH

    Mr. Hall. Thank you, Mr. Chairman and members of the 
Committee on Resources. Let me first start out by saying that I 
apologize for the absence of our president Don Gobel. He was 
the person that was invited to testify today and had to go to 
Europe where the ownership of our company is but he felt that 
it was a very important topic that he has very much interest in 
so I'm here representing Browning.
    My name is Travis Hall. I'm the public relations manager 
and I would like to thank you for this opportunity and I appear 
before you today with the strong support of Browning for H.R. 
701, the Conservation and Reinvestment Act of 1999. Browning 
sincerely appreciates your efforts in bringing this 
conservation proposal to the table which will ensure the future 
of wildlife, the conservation of resources, and provide much 
in-demand recreational activities for our citizens resulting in 
economic growth to our communities.
    Browning is also encouraged that many of the same needs 
were recognized in H.R. 798. As you know, the need for these 
programs in the states are significant. They enjoy wide public 
support and our children and their children will thank us for 
the commitment we make to ensure the conservation and vitalty 
of America's natural resources.
    As many of you know, Browning is headquartered in Morgan, 
Utah. We are one of the largest manufacturers of sporting 
firearms as well as outdoor clothing, gun cases and 
accessories, archery equipment, footwear, knives, flashlights 
and gun safes. Browning employs over 120 people in Utah and 
sales top $200 million annually. Millions of people across the 
nation enjoy outdoor activities each year and the cost to 
manage the vast resources is enormous and has been funded 
largely by sportsmen and sportswomen.
    Browning, through the Wildlife Restoration Act, or the 
Pittman-Robertson Act and the Federal Aid in Sports Fish 
Restoration Act, Dingell-Johnson and Wallop-Breaux has helped 
fund the management and restoration of fish and wildlife for 
over half century. These funds are the principal source of 
funds for state fish and wildlife programs. And I don't need to 
go into all of the details of what these funds aid in. For 
example, selection, acquisition, restoration, rehabilitation 
and maintenance of areas of land and water.
    In addition, Browning has long supported local, national 
and international conservation organizations. These 
organizations, along with hunters and anglers for years have 
contributed to game species conservation. And I might point out 
that these game species conservation result in correlary 
benefits to nongame species from the conservation of habitat. 
These efforts that Browning is directly involved with through 
the Pittman-Robertson Act and the donations and the license 
fees that are charged to the sportsmen and anglers will greatly 
be enhanced by the additional funding to be provided by the 
Conservation and Reinvestment Act.
    Let me give some reasons on why Browning supports H.R. 701. 
H.R. 701 commits the United States to a policy of dedicating 
revenues to securing the status of living renewable resources, 
conserving land and water resources, and providing outdoor 
activities for our cities and local communities through a 
permanent indefinite appropriation to fund state based 
programs.
    H.R. 701 builds on the support the states have relied on 
for decades from our nations hunters and anglers to finance 
state fish and wildlife programs by broadening this funding 
support to a permanent indefinite appropriation from a general 
revenue source.
    H.R. 701 focuses decisions on spending priorities at the 
local level where states and communities are in the best 
position to know what those needs and priorities are. We must 
facilitate local identification of issues and problem solving, 
not top down prescriptive solutions.
    H.R. 701 allows states to work with private land owners in 
a nonregulatory manner to achieve their land management 
objectives consistent with good conservation for fish and 
wildlife.
    And, finally, H.R. 701 builds on our citizens' strong sense 
of stewardship about their land by making them a part of the 
problem solving and implementation of solutions.
    I might state that Browning is encouraged that H.R. 798 has 
provisions for funding to the states but that we strongly 
support H.R. 701. Let me conclude by saying sportsmen and 
sportswomen need help in funding the efforts to ensure the 
future of fish and wildlife in protecting their habitats. This 
is certainly one of the most important pieces of conservation 
legislation and Browning pledges its support and effort in 
working with you to enact this legislation this year to help 
preserve our natural resources.
    [The prepared statement of Mr. Hall follows:]

      Statement of Travis Hall, Public Relations Manager, Browning

    Mr. Chairman and Members of the Committee on Resources. My 
name is Travis Hall, Public Relations Manager at Browning. I 
would like to thank you for the opportunity to appear before 
you today with the strong support of Browning for H.R. 701, the 
Conservation and Reinvestment Act of 1999.
    Browning sincerely appreciates your efforts in bringing 
this conservation proposal to the table, which will ensure the 
future of wildlife, the conservation of resources and provide 
much in-demand recreational activities for our citizens, 
resulting in economic growth to our communities. Browning is 
also encouraged that many of the same needs were recognized in 
H.R. 798 the Permanent Protection for Americas Resources 2000 
Act. As you know the need for these programs in the states are 
significant, they enjoy wide public support, and our children 
and their children will thank us for the commitment we make to 
ensure the conservation and vitality of America's natural 
resources.
    Browning, which is headquartered in Morgan, Utah, is one of 
the largest manufacturers of sporting firearms as well as fine 
outdoor clothing, gun cases and accessories, archery equipment, 
footwear, knives, flashlights and safes. Browning employs over 
120 people in Utah and sales top $200 million annually. 
Millions of people across the nation enjoy outdoor activities 
each year. The cost to manage the vast resources is enormous 
and has been funded largely by sportsmen and sportswomen. 
Browning, through the Wildlife Restoration Act (Pittman-
Robertson Act) and the Federal Aid in Sports Fish Restoration 
Act (Dingell-Johnson and the Wallop-Breaux Amendment), has 
helped fund the management and restoration of fish and wildlife 
for over a half century. These funds are the principal source 
of funds for State fish and wildlife programs. These funds aid 
in the selection, acquisition, restoration, rehabilitation, 
improvement and maintenance of areas of land and water that are 
feeding, resting and breeding places for fish and wildlife, and 
also aids in the research into problems of wildlife management. 
In addition, Browning has long supported local, national and 
international conservation organizations.
    These organizations along with hunters and anglers for 
years have contributed to game species conservation, resulting 
in corollary benefits to non-game species from the conservation 
of habitat, etc. These efforts will be greatly enhanced by the 
additional funding to be provided by the Conservation and 
Reinvestment Act.
    Mr. Chairman here are the reasons Browning supports 
H.R.701:
        <bullet> H.R. 701 commits the United States to a policy of 
        dedicating revenues to securing the status of living renewable 
        resources, conserving land and water resources and providing 
        outdoor activities for our cities and local communities, 
        through a permanent, indefinite appropriation to fund state-
        based programs.
        <bullet> H.R. 701 builds on the support the states have relied 
        on for decades from our Nation's hunters and anglers to finance 
        state fish and wildlife programs by broadening this funding 
        support to a permanent, indefinite appropriation from a general 
        revenue source.
        <bullet> H.R. 701 focuses decisions on spending priorities at 
        the local (not Washington) level, where states and communities 
        are in the best position to know what those needs and 
        priorities are. We must facilitate local identification of 
        issues and problem solving, not top-down prescriptive 
        solutions.
        <bullet> H.R. 701 allows States to work with private landowners 
        in a non-regulatory manner to achieve their land management 
        objectives consistent with good conservation for fish and 
        wildlife.
        <bullet> H.R. 701 builds on our citizens' strong sense of 
        stewardship about their land by making them a part of the 
        problem solving and implementation of solutions.
    Let me now briefly comment on H.R. 798. Browning is encouraged that 
H.R. 798 has provisions for funding to the states for State-based 
enhanced wildlife conservation. We are also encouraged that H.R. 798 
seeks to use revenues under a permanent, indefinite appropriation. Both 
bills have similar objectives to provide funding for fish and wildlife.
    Mr. Chairman let me conclude my remarks by reiterating Brownings' 
support of H.R. 701. Sportsmen and sportswomen need help in funding the 
efforts to ensure the future of fish and wildlife and protect their 
habitats. This is certainly one of the most important pieces of 
conservation legislation and Browning pledges its' support and effort 
in working with you to enact this legislation this year to help 
preserve our natural resources.
    Thank you.

    Mr. Hansen. Thank you, Mr. Hall. From the three of you who 
testified in favor of this legislation, I would assume that the 
three of you come down on the side of H.R. 701; is that 
correct?
    Mr. Valentine. Yes, sir.
    Mr. Hansen. We'll turn to the questions from the Committee. 
Mrs. Chenoweth, you're recognized for five minutes.
    Mrs. Chenoweth. Thank you, Mr. Chairman. Mr. Smith, I want 
to thank you for your testimony and I would be interested in 
reading that first book that you put into the record, so I'll 
be in touch with you about that.
    Mr. Peay, I wanted to thank you for being so decisive and 
focused in your testimony but I do want to say that I work on 
the Subcommittee for Forest and Forest Health in the Resources 
Committee and one of our biggest heartaches is that roads are 
now being closed for multiple use purposes and that includes 
hunting. Mr. Simpson just joined me and the Committee in a 
hearing in Idaho in the Targhee National Forest where the 
forest service has gone in and built not just berms, they 
called it berms, but 10- to 15-foot deep tank traps in order to 
stop access. The hunters and fishermen in my state, as well as 
people who have traditionally accessed the back country for 
berry picking and picnicking and camping and so forth are 
frustrated beyond belief because access to the back country is 
being closed.
    So, with that comment, I'd like to solicit the support of 
your organization in working with our Subcommittee in trying to 
keep access open to the back country on our federally 
controlled lands whether it's under the control of BLM or under 
the control of the forest service. I think we have a common 
ground here and that is to keep our back country open to 
hunters. That's our way of life. And with the gun control 
measures that are coming down the pike, with limited access for 
hunters, we can quickly see our way of life changing.
    Mr. Valentine, I have studied your testimony and I've 
studied the suggestions that you have made to make improvements 
to H.R. 701, and I've got to say that three of them absolutely 
astounded me they were so good.
    Number one is 100 percent control of how the money is spent 
would go to the states. Right now, the way the bill is put 
together the Secretary of Interior, in a top down system, has 
all final say over how the money is spent and how the state 
puts their plan together.
    Secondly, you've recommended that the states retain all 
title to water, land and easements acquired with CARA money. 
Brilliant suggestion and I appreciate that.
    And, thirdly, you suggested a local public input process on 
how CARA dollars will be spent. While that appears rather 
obliquely in the bill, I think it does need to be shorn up.
    You also suggested that the 501-C-3 organizations, we call 
them the NGOs, nongovernment organizations, may obtain CARA 
dollars as part of the ground or water matching funds for 
private wildlife conservation organization projects and I 
wanted you make a note of what I'm going to refer to you 
because I'd like to get your input on this.
    In Title II, Section 1006.A.1 it already provides for 
private nonprofit agencies or political subdivisions to be able 
to receive 70 percent matching funds from the Federal 
Government. However, it's interesting that the bill requires 
that the political subdivisions must report back as to how they 
spend their money to the secretary. They must report back to 
the Congress. However, that requirement is not in there for the 
501-C-3s. So I think the 501-C-3s have gotten a pretty good 
deal there. But I want to thank you very much for your 
constructive comments.
    Mr. Valentine. Well, I would like to take credit for those, 
Congresswoman, but I think Mr. Peay made most of them.
    Mrs. Chenoweth. Oh, did he? Well, let me direct my comment 
to him.
    Mr. Peay. We do have a lot of common ground, I think.
    Mrs. Chenoweth. I think we do. And those were, especially 
the first three, brilliant suggestions and I'd like to work 
with you on amendments to make sure that we get them into the 
bill. Thank you.
    Mr. Hansen. Thank you, Mrs. Chenoweth. The gentleman from 
Idaho, Mr. Simpson.
    Mr. Simpson. Mr. Chairman, I don't have any specific 
questions for the panel. I just want to thank you for your 
testimony and you brought up some interesting points as a land 
owner. Good question. Shouldn't a land owner be able to sell 
their land to any willing buyer? I guess that's really the 
question here. As a land owner, I guess, Mr. Smith, you 
mentioned that you own land in Nevada and Utah and New Mexico. 
Should you be able to sell your land to a willing buyer.
    Mr. Smith. If I understand the question, do I have the 
right to sell my land to a willing buyer? Well, a willing 
seller and a willing buyer makes the deal. But in many cases we 
have the problem that the Federal Government causes the land 
values to be worthless by declaring some petroglyph or some 
endangered turtle species and then your land is worthless and 
you have no appraisal to sell and the government depreciates 
the value of your land below what it's worth.
    For example, a $20 million subdivision, because it's 
infested with turtles, has been declared worthless because you 
can't use it to sell it. You pay $20,000 a year taxes on it.
    Mr. Simpson. I agree that's really a problem with 
inholdings, too, in that they can restrict the use of your land 
and consequently decrease the value of it. And that is a 
concern that we ought to address somehow. But fundamentally, as 
a principle, it seems to me that as a land owner you ought to 
be able to sell your land to anyone who is willing to buy it, 
if you want to sell it. You can sell it now to the nature 
conservancy if you want to. You can sell it to Sierra Club if 
you want to. You could sell it to virtually any organization 
that had the right to buy it, that had a willingness to buy it 
and the money to buy it if you so chose to do it.
    Mr. Smith. I wouldn't in good conscience sell it to the 
Federal Government.
    Mr. Simpson. And that would absolutely be your right as a 
land owner. But other land owners by preventing that, other 
land owners who may choose to do that would be prevented from 
doing that and should we by law prevent them from doing that if 
they so choose to do it of their own free will? Good 
fundamental question.
    Mr. Peay. I get asked that monthly.
    Mr. Simpson. By individuals that want to sell their land.
    Mr. Peay. Uh-huh.
    Mr. Simpson. The other thing that this--the conservation 
easements, the open space easement, the ability to use open 
space, today we are in Idaho developing--there's a program 
that's just beginning where they are trying to develop open 
spaces by paying ranchers/farmers to keep their land in ranch 
and farm land so that it's not developed into condos and so 
forth and so on to maintain those open spaces and the ability 
to keep some of these lands as open spaces and using that money 
to be able to do some of that and also to be able to use some 
of the money to purchase conservation easements and scenic 
easements in areas like the Sawtooth National Recreation area 
so that those aren't developed and degraded in future years is 
a very important aspect of this piece of legislation. Thank 
you, Mr. Chairman.
    Mr. Hansen. Thank you, Mr. Simpson. The gentleman from 
Utah, Mr. Cannon.
    Mr. Cannon. Thank you, Mr. Chairman. Let me begin by 
pointing out that there were a few comments about Republicans 
and Democrats. This really is not a Republican/Democrat issue. 
It's actually, I believe, a fairly difficult Federal versus 
local issue and it's substantially complicated by our current 
practice in America. I just make the point that the current 
funding under LWCF would be $900 million for Federal 
acquisition without these bills. Historically, we've averaged 
about $300 million in Federal funding for that program and in 
recent years we've gotten to about $700 million so we've spent 
a lot of money in the Federal Government and the question is 
how do we do that.
    Let me point out also that it's really not the fact of the 
matter wildlife versus cattle as Mr. Peay pointed out. Clearly 
there are a lot of alliances there but we do have substantial 
issues of our public lands use and our western lifestyle which 
is extraordinarily affected by the government.
    When you have the Endangered Species Act, which I would 
suggest anybody who looks at a map and had the areas of the map 
enlarged based upon how many specialists the government has 
working on the endangered species program, you would see that 
the southwest is massively disproportionately represented in 
the heavier vegetated and lands that have greater wildlife on 
it and the northeast are desperately underrepresented on that 
map.
    And, as a practical matter, I'm going to ask Mr. Smith here 
to comment on this in a moment, but it seems to me that when 
you have a Federal Government all the money the Federal 
Government has, numbers are quite mind boggling, in fact, that 
they actually become--they so dominate the market that you 
really don't have the kind of traditional buyer/seller 
relationship given all the weight that Federal Government has 
and given its current land base.
    Before I do that, Mr. Smith, let me just say, Mr. Peay, 
those were your suggestions. Did you want to make some more 
comment on those discussions that Mrs. Chenoweth was talking 
about earlier?
    Mr. Peay. I guess I have a history of being very blunt and 
I probably won't change that. But as I sat around the tables 10 
years ago listening to all the rhetoric, we decided to find 
solutions, and there are solutions. And there can be 
cooperation between sportsmen and ranchers. We've proven that 
in millions of dollars in projects. Wildlife's benefited, 
livestock's benefited. You'll notice in there as passionate as 
we are, my last comment is if this becomes just another Federal 
program administered out of Washington, we don't want it and I 
think Congressman Cannon, to follow up what you're saying is 
also having some comments there that if there's a turtle 
problem there's $20 million from the Federal Government to do 
something. But we have chaining projects to help mule deer 
which 30,000 people in southern Utah are trying to get a mule 
deer habitat today and the BLM won't do anything about it.
    And so there is a disproportionate amount of Federal money 
already going into turtles and prairie dogs, et cetera and we 
as the sportsmen try to get a little money for mule deer 
habitat and can't do that. So we share the concerns but our 
comments in here are let's find some ways to free up local 
people to solve conflicts in the west.
    Mr. Cannon. And I suspect after what you've said is that 
the fine point here is that local control works a lot better 
than Federal control.
    Mr. Peay. Absolutely.
    Mr. Cannon. Mr. Smith, would you like to comment any 
further on the role of the Federal Government as a purchaser of 
inholdings of public lands?
    Mr. Smith. Yes. I think that it's commonly known that when 
the Federal Government owns land, that they lock it up, just 
like was mentioned. They close the roads. These roads in 1888 
was declared right-of-ways and they violate that. They violate 
their own laws. They've been notorious in violating everything 
that they do. For example, I would like to let these good 
sportsmen know that once they start funding these lands and 
buying the lands for them, there are going to be strings 
attached to them and it'll be a national fish and wildlife, it 
won't be a state. They'll take them over. Don't they know that? 
They ought to study that a little bit.
    Mr. Cannon. It would be very hard to disagree with those 
statements in light of the statements that have been made by 
the Secretary of the Interior over the last couple of years, 
last six or seven years, six years, when he's talked about the 
role of the administration and the bureaucracy in deciding what 
qualifies under the law and what qualifies under his 
conscience. Thank you. Yield back.
    Mr. Hansen. Thank you. And I agree with the gentleman from 
Utah. This administration does not have a great track record 
when it comes to things regarding Federal ground. Grand 
Staircase Escalante done in the middle of the night with no 
knowledge, we have to say that in this Committee we're playing 
defense all the time and we would like to play a little offense 
because some fertile minds coming up with ways to try to 
circumvent pending legislation and laws that are on the books.
    Mr. Smith, we'd all like a copy of that. We'd like to hear 
all sides of these issues before we move on legislation and I 
would appreciate it if you would make sure we could have a copy 
of the book that you brought up there. There's also a problem 
on this inholding stuff. As you know, I chair the Committee on 
Parks and Lands and most people don't like to have their ground 
in the middle of a national park, so we have maybe two or three 
acres in one and here it is stuck, the guy's paying taxes on 
it, he can't get to it, he calls up and wants something out of 
it. Some people want to hold up the government for it. Others 
just donate it. It's really hard to figure out how to do it.
    One of our beautiful southern Utah parks, for example, 
there's a gentleman from Las Vegas who owns two acres, called 
me up, said, Mr. Chairman, I'd like to have a bill to authorize 
selling me those two acres. I said, Do you want to sell it to 
us? He said, Yeah. I said, What do you want? He says, A million 
dollars an acre. I said, Sir, how old are you? He says, I'm 85. 
I said, Well, wait and buy it from your heirs because you get 
down to the idea some people really want to hold us up on 
things. And others don't. But there isn't a good way in the 
Federal Government, due to legislation, to have a really good 
way to do these things.
    We've held hearings like you can't believe on how do you 
swap ground? How do you trade ground? How do you do anything? 
Try it sometime. The average length time to even make a minimal 
small thing with a municipality is 11 years. So it gets very 
frustrating. I'm not speaking for or against the bill, I'm 
trying to say some of the frustrations that I have.
    Mr. Smith brought up another interesting point, the 
Endangered Species Act. It is not at all fair that someone 
finds a slimy slug on some guy's property which at one time was 
valued at $20 million an acre and all of a sudden, as we had, 
our own Secretary of Interior come into this state and say, 
We'll give you $600 an acres for it because it has no value. 
Well, where's the fairness in that? We're trying to rectify 
that through legislation. But whatever the value of the ground 
was prior to finding endangered species is only fair to people. 
And it's totally unfair to ask them to take that kind of loss 
because somebody finds it. In fact, we've even found instances 
that have been documented where some people have moved an 
endangered species, by hand, onto somebody else's property just 
so that it would lower the price. So there's a lot of 
unfairness going on and I agree with your statement on that.
    Mr. Peay, and I know the great work you've done on the 
desert big horn sheep. Mr. Cannon introduced a bill last year 
which he's going to introduce shortly and now called the San 
Raphael Swell Bill. And in that, which totally amazes me, the 
people in Emery County have given the environmental communities 
more than I ever expected they would. As far as wilderness, as 
far as conservation in the area, as far as the historic area, 
as far as heritage areas and the whole bill, we got hung up on 
one little point and that one little point was called Sid's 
Mountain.
    And, through the efforts of John Kimball and Mr. Valentine 
and others who have been in that position, we've tried to 
establish in Utah the desert big horn sheep. Unfortunately, 
there's no water on this ground so they put guzzlers in. Those 
who understand the criteria of the Wilderness Bill know you 
can't put a mechanical device in a wilderness area. That one 
point brought down a ton of bills that we coupled together. 
Fortunately we passed the majority of them in last minute and 
hardly anybody knows that happened. And even the Senate finally 
got away from the Sunday gas bags and got interested and passed 
a few of those themselves, which totally amazes me.
    Anyway, we finally got some of those good pieces of 
legislation passed. Now we find ourselves in a situation where 
I would hope that the Sierra Club would look at it for a change 
in the southern Utah wilderness, and would look at it and would 
see there is a good piece of legislation and we can protect the 
desert big horn sheep and I would appreciate the efforts of 
your organization and being an educational organization take 
care of that.
    Mr. Hall, you mentioned the Pittman-Roberton Bill. What 
have you folks done on that? You've mentioned you've 
contributed a lot of money to it. Tell me about that, would 
you?
    Mr. Hall. Well, as you know, the Pittman-Robertson Act is 
an excise tax charged to the manufacturers of certain sporting 
arms and ammunition. Browning obviously being a manufacturer of 
sporting arms has contributed to the excise tax--well, we pay 
the excise tax on the cost of the manufacturing of our 
products. I'm not prepared to give you the total dollars that 
have been spent over the last 50 years or contributed to this 
but it is something that Browning is involved with. Because we 
are a manufacturer, that excise tax is charged to us and we do 
support that Act.
    We feel that without those monies the state-funded programs 
would not have, as Mr. Kimball pointed out earlier I think it 
was, 35 percent of the monies that the state programs run off 
of come from the Pittman-Robertson Act. So we appreciate the 
Pittman-Robertson Act, we're all for it, but we see this as an 
opportunity, H.R. 701, to supplement the funds that are coming 
from the Pittman-Robertson Act to be able to fund some of these 
state programs for wildlife and for the conservation of our 
natural resources.
    Mr. Hansen. Thank you. We'll excuse this panel and thank 
you so much for your testimony. It's been very interesting. And 
the Committee will now call panel three composed of Mr. Ramirez 
apparently from a law office in Albuquerque, New Mexico; Mr. 
George Hyde, chief operating officer of Barnes Bullets, 
Incorporated, American Fork, Utah; Mr. Ray Foutz, manager of 
Sportsman's Warehouse, Riverdale, Utah; Mr. Clark Collins, 
executive director of the Blue Ribbon Coalition of Pocatello, 
Idaho. We appreciate you being with us. We'll start with you 
Mr. Ramirez and just go across the board. You all know the 
rules. You've got five minutes.

  STATEMENT OF LESLIE W. RAMIREZ, ATTORNEY, ALBUQUERQUE, NEW 
                             MEXICO

    Mr. Ramirez. Mr. Chairman, members of the Committee. My 
name is Les Ramirez. I'm representing the Pueblo Santa Ana, a 
federally recognized Indian nation whose home lands consist of 
64,000 acres located approximately 20 miles north of the city 
of Albuquerque, New Mexico, both of which are located in north 
central New Mexico.
    The Pueblo would like to thank you for the opportunity to 
testify on both H.R. 701 and H.R. 798. This hearing is 
especially timely in relation to the considerable open land and 
open space concerns that are manifest across our nation. This 
Committee and sponsors of both bills should be commended for 
their recognition of the significant and pressing issues 
related to protecting the nation's land and water and wildlife 
resources for this and future generations. And by trying to 
resolve the issues by encouraging and implementing Federal and 
nonFederal partnership.
    We, too, as an Indian nation are concerned with how to 
balance economic development with the restoration and 
maintenance of the natural world and we too are seeking to 
resolve these issues in a positive manner. Our lands are 
intersected by two rivers, the Rio Jemez and the Rio Grande. 
Both watersheds have been severely altered by Federal and local 
flood control, economic development and water management 
activities and by the invasion of exotic nonindigenous 
vegetation. The results are dramatic losses of riparian 
habitat, native wildlife, the creation of extreme fire hazards 
and reduced cultural, religions, economic and recreational 
value to our people.
    Because of this the Tribal Council, the Santa Ana Tribal 
Council, has allocated over $2 million of its own monies to 
restore the Rio Grande watershed within our boundaries. That 
restoration includes the reestablishment of habitat for listed 
and candidate endangered species. Our hopes are that by 
restoring this watershed ecosystem, we can contribute to the 
recovery of the listed species but that we will also be able to 
help prevent future listing of several other candidate species.
    But our efforts are not ended there. We recognize that to 
be successful the ecosystem needs to be restored beyond our 
jurisdiction. Thus we have been instrumental in forming an 
initiative which includes at this time the largest city in New 
Mexico, the largest irrigation district in the state, two other 
Indian Pueblos, and an alliance of national and local 
environmental groups.
    We anticipate that our initiative will continue to grow as 
more parties learn of the benefit of what we're trying to do. 
As in many other parts of the country the animosity created in 
the competition for natural resources and economic resources 
has created deep divisions that previously prevented 
collaborative problem solving.
    In the Rio Grande prior to our initiative stasis was 
reached because the main habitat for several endangered species 
of the river was also supported by the river flows supporting 
the largest agricultural irrigation. Thus, without a new 
proposal, the only alternative to save the species and maintain 
the existing economic structures was to send more water 
downstream, water that was arguably not available. Santa Ana 
proposed a new alternative. Rather than move water to fish, why 
not move fish to water.
    More specifically, we suggested that habitat restoration of 
stretches of the Rio Grande and their attendant year-around 
flows would effectively support the recovery of the species 
using the existing flows that were already being conveyed 
downstream for other uses. This alternative requires the 
willingness of Indian Pueblos to participate, because they 
control most of the central Rio Grande. It requires cooperation 
from environmental communities as well and requires money.
    Habitat restoration is an expensive multi-year commitment. 
Santa Ana's $2.0 million contribution is only a small portion 
of the costs that are going to be necessary to complete this 
restoration. Legislation like that which is before the 
Committee is essential for providing resources that will enable 
collaborative and cooperative partners to be successful.
    Equally important for the Committee sponsors in the 
Congress is the matter of cost-matching. And to support that by 
adequately funding tribal restoration participation and by 
recognizing our invaluable nonmonetary contributions that can 
be made through the contribution of skill, expertise, land and 
water resources.
    To the extent that Santa Ana believes that both H.R. 701 
and H.R. 798 are positive steps, we also must recognize they 
are somewhat flawed. We urge that Title V of H.R. 798 be 
amended to provide for 20 percent of the Federal and Indian 
land restoration fund to be available as grants to qualified 
Indian tribes under both versions of the proposed legislation.
    In addition Congress should raise the maximum grant level 
available to any one tribe in any one fiscal year from 10 
percent to 20 percent. That's because it appears that the total 
allocation for all Indian tribes in the nation is going to be 
maximum about $25 million. So a 10 percent allocation is only 
two and a half million which is too small to actually help 
create these restoration programs in a timely manner. 
Timeliness is an important concern because of the pressure felt 
by many parties under the Endangered Species Act. Acting 
quickly on this legislation will help take the pressure off 
communities when it relates to meeting the goals of the 
Endangered Species Act while avoiding the problems with 
endangered species enforcement.
    From our experience we can assure the committee that such 
legilation will enable groups like initiative to complete their 
restoration projects in a timely manner, especially as I 
mentioned earlier, when they are measured against the need or 
maintenance need of endangered species.
    We also suggest that H.R. 701, including Title II of the 
legislation be amended to provide grants to Indian Tribes as 
opposed to the cost match that is currently involved. If that 
is not possible, a maximum cost share requirement from Indian 
tribes of 25 percent is recommended and that's because----
    Mr. Hansen. Mr. Ramirez, can you wrap up in one more 
minute?
    Mr. Ramirez. Yes.
    Mr. Hansen. We'll give you one more minute.
    Mr. Ramirez. And that's because many tribes control a 
significant amount of endangered species critical habitat and 
should be encouraged to participate in the restoration. 
Currently, they have to essentially sit on the sidelines while 
non-Indian groups fight a very depressing battle over how we 
compile a lot of studies for or against ecosystem restoration. 
We think Indian tribes can be very positive contributors to the 
overall resolution but it's going to require some creativity on 
the part of the Congress in determining and funding what that 
participation--what amounts of that participation should be and 
what that participation can comprise of.
    I know I've run out of time so I thank the Committee again 
for the opportunity to testify on these two very important 
issues.
    [The prepared statement of Mr. Ramirez follows:]

    [GRAPHIC] [TIFF OMITTED] T9388.024
    
    [GRAPHIC] [TIFF OMITTED] T9388.025
    
    [GRAPHIC] [TIFF OMITTED] T9388.026
    
    [GRAPHIC] [TIFF OMITTED] T9388.027
    
    [GRAPHIC] [TIFF OMITTED] T9388.028
    
    [GRAPHIC] [TIFF OMITTED] T9388.029
    
    [GRAPHIC] [TIFF OMITTED] T9388.030
    
    [GRAPHIC] [TIFF OMITTED] T9388.031
    
    [GRAPHIC] [TIFF OMITTED] T9388.032
    
    [GRAPHIC] [TIFF OMITTED] T9388.033
    
    [GRAPHIC] [TIFF OMITTED] T9388.034
    
    [GRAPHIC] [TIFF OMITTED] T9388.035
    
    [GRAPHIC] [TIFF OMITTED] T9388.036
    
    [GRAPHIC] [TIFF OMITTED] T9388.037
    
    [GRAPHIC] [TIFF OMITTED] T9388.038
    
    [GRAPHIC] [TIFF OMITTED] T9388.039
    
    Mr. Hansen. Thank you, Mr. Ramirez. Mr. Hyde, recognized 
for five minutes.

   STATEMENT OF GEORGE HYDE, CHIEF OPERATING OFFICER, BARNES 
               BULLETS, INC., AMERICAN FORK, UTAH

    Mr. Hyde. Mr. Chairman and members of the Resource 
Committee. Thank you for the opportunity to address the issue 
of funding for the future of wildlife. My name is George Hyde 
and I'm here on behalf of Barnes Bullets, Incorporated, a 
manufacturer of hunting bullets and shooting products and a 
supporter of many of the wildlife conservation organizations in 
this country.
    I want to applaud the congressional sponsors of H.R. 701 
Conservation and Reinvestment Act of 1999 for their vision in 
seeing that there is funding for the future of wildlife and the 
conservation of resources, including habitat to support it. 
This is a long-awaited effort to make good on promises made in 
previous Acts like the Land and Water Conservation Fund, which 
have either gone without funding or have been woefully 
underfunded and have therefore fallen short of providing 
necessary change in support of wildlife.
    Barnes Bullets, which is located in American Fork, Utah is 
the nation's oldest manufacturer of custom bullets for 
handloading. As such, we have the opportunity to travel the 
world and are actively involved in many national and 
international wildlife conservation organizations. We are a 
proponent of protecting wildlife habitat, educating the public 
and having law enforcement for the protection of wildlife.
    These are important facets of every nation's plan for the 
future of wildlife. Investing in these endeavors is essential 
and has a direct impact on our business which directly employs 
35 people in Utah County and indirectly contributes to the 
employment of thousands of men and women throughout the 
country.
    Outdoor recreation, including hunting and fishing, 
contribute billions of dollars in the U.S. economy annually in 
the creation of jobs, sales of sporting goods equipment and 
other community economic benefits. Sportsmen in this country 
have for years contributed billions of dollars to perpetuate 
wildlife so that they can pass their heritage to future 
generations. Our company supports these efforts because we 
believe in the cause and we benefit as well.
    CARA funds, as proposed in H.R. 701, will be used to 
supplement and augment the existing conservation programs 
heretofore funded almost exclusively by sportsmen and 
sportswomen through wildlife organizations and excise taxes 
paid on equipment. We support H.R. 701, Conservation and 
Reinvestment Act of 1999 and hope that it will be passed in 
this legislative session.
    Wildlife is a renewable resource and through habitat 
restoration and proper management, it has been shown that 
populations can not only be perpetuated, but improved, for 
future generations. In fact, the progress in the State of Utah 
over the last century is an example of what investing in 
wildlife through hunting and fishing license fees and Pittman-
Robertson's excise tax and wildlife organization efforts can do 
for wildlife.
    Here are just a few examples. Elk in 1920 were nearly 
extinct in Utah. Populations in 1999 are about 60,000. Mule 
deer rarely sighted in 1920, are now at 300,000 plus. Big horn 
sheep, which were rarely sighted in 1920, are now at about 
3,000. Wild turkey, which were extinct in 1920, have been 
reintroduced and are now at 8,000. Cougars, less than 1,000 in 
1920, are now at 2,500. This type of resurgence is happening 
throughout the country but it needs to be sufficiently funded 
to reach its potential.
    CARA would ensure that permanent dedicated funding were in 
place and it would allow for the expansion of programs begun by 
sportsmen and wildlife organizations, programs necessary for 
the long-term benefit of wildlife. Some groups and individuals 
would focus CARA funds on nongame species and predatory 
species. They fail to recognize the fact that by restoring 
funding of game species populations and their accompanying 
habitat, using billions of sportsmen's dollars, predators and 
nongame species have been and will be mutually benefited. They 
are interdependent and the greater advantage for all will be 
accomplished by providing game species habitat which supports 
the ecosystem for all species and provides economic benefits as 
well.
    We support the legislation proposed by H.R. 701 and would 
like to see the following incorporated into the final version. 
Under the Federal ownership of land we would like to see that 
state and local control be maintained and that they control 
management decisions regarding Federal land provided funded by 
CARA. The best government is the government closest to home.
    We'd also like to see another provision that would focus 
CARA funds on game species and their related habitat. For 
decades sportsmen have restored wildlife species enjoyed by all 
and they have funded the conservation and restoration of 
habitat for nongame species. We believe that it is time that 
additional funding be secured.
    In conclusion, I again applaud the sponsors of this 
legislation and support the effort of the Conservation and 
Reinvestment Act of 1999. With the incorporation of the items I 
discussed, we can ensure the future of wildlife for a permanent 
dedicated funding program that cannot be diverted to other 
programs or debt reduction, a fulfillment of promises long in 
need of funding.
    [The prepared statement of Mr. Hyde follows:]

    [GRAPHIC] [TIFF OMITTED] T9388.040
    
    [GRAPHIC] [TIFF OMITTED] T9388.041
    
    [GRAPHIC] [TIFF OMITTED] T9388.042
    
    [GRAPHIC] [TIFF OMITTED] T9388.043
    
    Mr. Hansen. Thank you, Mr. Hyde. Mr. Foutz.

   STATEMENT OF RYAN FOUTZ, MANAGER, SPORTSMAN'S WAREHOUSE, 
                        RIVERDALE, UTAH

    Mr. Foutz. Thank you, Mr. Chairman and the Committee. My 
name is Ryan Foutz, manager of Sportsman's Warehouse in Ogden, 
Utah, and I just sell Mr. Hyde's bullets. We also have stores 
in Salt Lake and Provo and I want to thank you for taking the 
time of holding these hearings on an important piece of 
legislation, the Conservation and Reinvestment Act of 1999.
    The Utah Governor's Office of Planning and Budget estimates 
the economic impact of hunting, fishing and wildlife recreation 
is an access of $550 million in Utah annually. This generates 
over $40 million a year in sales tax for Utah and provides 
thousands of jobs. Unfortunately, the Utah legislature has only 
seen fit to reinvest $3 million a year of this $40 million to 
preserve this large industry. This number slipped to less than 
$200,000 in 1993 before sportsmen rose up by the thousands and 
requested more attention to our outdoor heritage.
    While some may question the economic impact of wildlife in 
Utah, let me assure you we know the impact is huge. Our three 
stores alone generate over $35 million a year in retail sales 
and we employ over 180 people. Our stores alone pay in excess 
of $2.2 million a year in sales tax. Our stores sell hunting, 
fishing and camping equipment and accessories. We do not sell 
ATVs, horse trailers, camp trailers, boats and many other large 
sticker items to be used in the outdoor recreation activities. 
Hundreds of thousands of Utah citizens enjoy hunting, fishing 
interaction with wildlife on a yearly basis.
    Additional funding is required to protect wildlife habitat. 
I would like to testify in favor of public ownership of land, 
the funds from CARA to be used to acquire land. We are 
appreciative that the legislation gives as much control as 
possible to local states. We can manage Federal lands better 
from Utah than the Federal Government can do from Washington, 
DC.
    There are too main reasons why we support ownership of 
public land and acquisition of more. We support private 
property rights and private property owners to have economic 
incentives to support publicly owned wildlife on private lands. 
However, more and more private land in Utah is being posted 
with no trespassing signs. Hunting and fishing and recreation 
by the locals are no longer being allowed. The vast majority of 
our customers, some hundred thousand plus Utah, hunt, fish and 
recreate on public land and public waters. It is the only place 
they can go and enjoy the western heritage of hunting and 
fishing. Some greedy property owners try to exert control by 
blocking access to vast acreages of public land because they 
own small ribbons of private land surrounding national forests. 
CARA funds should be allowed to be used to secure easements, 
access or even title to key private holdings that would allow 
access to public lands.
    The second reason is to protect critical winter range 
habitat. It does no good to set aside millions of acres of 
public land on high level summer ranges and have no winter 
ranges, mostly private lands to support animals in the winter. 
One specific example is there are hundreds of thousands of 
acres of summer range in the high Uintahs. There used to be a 
large elk herd there which was the most popular elk hunting in 
northern Utah. In the early '90s the Wyoming ranchers 
successfully lobbied for nearly unlimited elk hunts with 
seasons extending well into late January. The high Uintah elk 
herd has been dramatically reduced and that reduces hunters, 
which reduces our business.
    CARA dollars would be used to find solutions with the land 
owners controlling only a few thousand private acres that are a 
bottleneck for elk populations on hundreds of thousands of 
acres of public lands. There are millions of acres of existing 
Federal lands that could be improved for wildlife by using 
habitat manipulation techniques such as chaining, burning and 
reseeding efforts. Water development projects such as guzzlers 
are also critical for wildlife populations of all varieties in 
the arrid west. In-stream flow projects protect our fisheries. 
The public shooting grounds such as Farmington Bay, Ogden Bay, 
Locomotive Springs and others provide tremendous opportunity 
for the public to have a place to enjoy water fowl hunting and 
provide tremendous habitat for many species of birds.
    Public ownership of land is a great blessing. It is a place 
where all of us can recreate. Even though public ownership of 
land is a challenge to manage, we strongly support as much 
local control over Federal land as possible. It is far better 
than the alternative no trespassing signs where only the 
wealthy few are allowed in. CARA funds, if properly invested, 
will protect wildlife habitat that protects a $500 million 
industry in Utah. CARA funds will protect a great family 
heritage of hunting, fishing and outdoor recreation and we 
encourage Congress to pass this legislation. Thank you.
    [The prepared statement of Mr. Foutz follows:]

  Statement of Ryan Foutz, Manager, Sportsman's Warehouse, Ogden, Utah

    Dear Congressman,
    My name is Ryan Foutz, Manager of the Sportsman's Warehouse 
store in Ogden, Utah. We also have stores in Salt Lake and 
Provo. Thank you for taking time to hold hearings on an 
important piece of legislation, the Conservation and 
Reinvestment Act of 1999 (CARA).
    The Utah Governor's office of planning and budget estimates 
the economic impact of hunting, fishing and wildlife recreation 
is in excess of $550 million in Utah annually. This generates 
over $40 million a year in sales tax for Utah, and provides 
thousands of jobs. Unfortunately, the Utah legislature has only 
seen fit to re-invest $3 million a year of this $40 million to 
preserve this large industry. This number slipped to less than 
$200,000 in 1993 before sportsmen rose up by the thousands and 
requested more attention to our outdoor heritage.
    While some may question the economic impact of wildlife in 
Utah, let me assure you we know the impact is huge. Our three 
stores alone generate over $35 million a year in retail sales 
and we employ over 180 people. Our stores alone pay in excess 
of $2.2 million a year in sales tax. Our stores sell hunting, 
fishing, and camping equipment and accessories. We do not sell 
ATV's, horse trailers, camp trailers, boats, and many other 
large ticket items used in outdoor recreation activities. 
Hundreds of thousands of Utah citizens enjoy hunting, fishing, 
and interaction with wildlife on a yearly basis. Additional 
funding is required to protect wildlife habitat.

Support of Public Ownership of land

    I would like to testify in favor of public ownership of 
land, and funds from CARA to be used to acquire land. We are 
appreciative that the legislation gives as much control as 
possible to local states. We can mange Federal lands better 
from Utah, with Utahn's than the Federal Government can do from 
Washington DC. There are two main reasons why we support 
ownership of public land, and the acquisition of more.
    We support private property rights and private property 
owners to have economic incentives to support publicly owned 
wildlife on private lands. However, more and more private land 
in Utah is being posted with no trespassing signs. Hunting, 
fishing, and recreation by the locals is no longer being 
allowed. The vast majority of our customers, some 100,000 plus 
Utahn's, hunt, fish, and recreate on public land and public 
waters. It is the only place they can go and enjoy the western 
heritage of hunting and fishing. Some greedy property owners 
try to exert control by blocking access to vast acreage of 
public land, because they own small ribbons of private lands 
surrounding national forests. CARA funds should be allowed to 
be used to secure easements, access, or even title to key 
private holding that allow access to public lands.
    The second reason is to protect critical winter range 
habitats. It does no good to set aside millions of acres of 
public land on the high elevation summer ranges, and have no 
winter ranges, mostly private lands, to support animals in the 
winter. One specific example. There are hundreds of thousands 
of acres of summer range in the High Uintas. There used to be a 
large elk herd there, which was the most popular elk hunting in 
northern Utah. In the early 90's, the Wyoming ranchers 
successfully lobbied for nearly unlimited elk hunts, with 
seasons extending well into late January. The High Uintas elk 
herd has been dramatically reduced, and that reduces hunters, 
which reduces our business. CARA dollars could be used to find 
solutions with landowners controlling only a few thousand 
private acres, that are the bottleneck for elk populations on 
hundreds of thousands of acres of public lands.
    There are millions of acres of existing Federal lands that 
could be improved for wildlife by using habitat manipulation 
techniques such as chaining, burning, and re-seed efforts. 
Water development projects such as guzzlers are also critical 
for wildlife populations of all varieties in the and west. In 
stream flow projects protect our fisheries.
    The public shooting grounds such as Farmington Bay, Ogden 
Bay, Locomotive Springs and others provide tremendous 
opportunity for the public to have a place to enjoy waterfowl 
hunting, and provide tremendous habitat for many species of 
birds.
    Public ownership of land is a great blessing. It is a place 
where all of us can recreate. Even though public ownership of 
land is a challenge to manage, and we strongly support as much 
local control over Federal land as possible, it is far better 
than the alternative of no trespassing signs where only the 
wealthy few are allowed in.
    CARA funds, if properly invested, will protect wildlife 
habitat. That protects a $500 million dollar industry in Utah. 
CARA funds will protect a great family heritage of hunting, 
fishing, and outdoor recreation. We encourage Congress to pass 
this legislation.
    While we take great pride in taking care of ourselves out 
west, the west is growing to rapidly. There is to much pressure 
upon our natural resources. We encourage all Americans to look 
at the tremendous contribution sportsmen have made up to this 
point. BILLIONS of dollars to restore wildlife and protect 
their habitats. Sportsmen can no longer fund the wildlife 
conservation bill for all animals, for all people. CARA funds, 
which if properly invested, via a public input process as 
called for in Title III, section 302, will help preserve all 
wildlife, our quality of life, and our businesses.

    Mr. Hansen. Thank you, Mr. Foutz. Mr. Collins, you're 
recognized for five minutes.

  STATEMENT OF CLARK COLLINS, EXECUTIVE DIRECTOR OF THE BLUE 
              RIBBON COALITION OF POCATELLO, IDAHO

    Mr. Collins. I want to thank the Committee for the 
opportunity to testify before the Committee regarding our 
opposition to H.R. 701 and H.R. 798. The Blue Ribbon Coalition 
is a national organization representing the interests of 
primarily motorized back country users. We also have some 
equestrians, resource industry workers and mountain bicyclists 
as members. We are concerned about the loss of recreation 
access. How much public land do we need? Who should be able to 
use it?
    We represent recreationists in western states that are over 
one half Federal land with additional state land thrown in for 
good measure. In the midwest there is a mix of Federal, state 
and even county public land. Eastern states have a very low 
percentage of Federal land but state forests are common in 
these states. Recreation access to these so-called public lands 
is in constant jeopardy.
    I would like to give you a few examples. One example is the 
BLM planning for the Grand Staircase Escalante National 
Monument in Utah. And I'm going to refer in these examples to 
articles in Blue Ribbon Magazine and I'm going to ask that they 
be submitted as Appendix A, B and C to the public record on 
this hearing.
    Mr. Hansen. Not objectionable.
    Mr. Collins. The first article on the Grand Staircase 
Escalante planning process, one of our member organization 
representatives, Rainer Huck, with the Utah Shared Access 
Alliance pointed out the problems that our groups are having 
with the planning for that national monument in that it seems 
that the BLM is intent on closing that area up and restricting 
access, rather accommodating the existing uses in that area.
    Public lands in midwestern states are also becoming more 
restricted and I don't mean just for motorized users. One of 
our equestrian members, the Shawnee Trail Conservancy, may have 
to go to court to prevent horseback riders from being kicked 
off trails in the Shawnee National Forest in Illinois. And I'm 
referring in my testimony to an article that was in the April 
1999 Blue Ribbon Magazine in which the article on this issue 
points out that the horseback riders in that state are being 
targeted by not only the Federal land managers but the state 
recreation management agency for elimination of a lot of the 
trails on the Shawnee National Forest. So here's an example of 
a nonmotorized user being thrown off of Federal lands because 
of what are perceived as unacceptable impact.
    We also have members in eastern states who recreate on 
state or private land. A threat to them that is relevant to 
this hearing is the Northern Forest Stewardship Act. At a 
Vermont conference featured in the August 1998 Blue Ribbon, 
Briant Watson of the Vermont Association of Snowmobile 
Travelers pointed out the problem that this eastern recreation 
group has with the possibility of a large part of the 
northeast, the New England states being taken up by the Federal 
Government and managed by Federal agencies. And our eastern 
snowmobilers who have cooperative agreements with eastern 
private land owners for their snowmobile trails out there are 
very concerned about the prospect of that land being bought up 
by the Federal Government and they're concerned about the kind 
of problems that we have in our western states with our western 
Federal lands.
    Recreation on our Federal lands is under direct attack in 
the current administration. Tank traps as referred to earlier 
by Representative Chenoweth have been dug in access roads on 
the Targhee National Forest near our home office in Idaho. 
Snowmobile and boating access to our national parks is 
threatened. BLM lands throughout the west are being closed and 
gated and I understand that Representative Cannon had a recent 
experience on some BLM lands that were closed and gated. You 
might want to comment on that.
    Mr. Cannon. I might point out that the Tribune was harsher 
on me than the BLM was.
    Mr. Collins. That's what I've heard. Many land managers 
treat lands that should be available for public use as if they 
are managing the King's forest. They feel they must keep the 
commoners out. The Blue Ribbon Coalition is working with our 
member organizations nation-wide to address this problem. We 
don't think it's going to be of benefit to recreation access to 
provide the Federal Government with a checkbook to buy up more 
Federal land.
    The statement by interior secretary Bruce Babbitt gives us 
an idea of where this attitude may originate, at least within 
the interior agencies. At a White House press conference on 
land acquisition Babbitt was asked--and I'm going to quote 
directly here because I'm pretty sure that Secretary Babbitt 
would not appreciate me paraphrasing his comments, but I'm 
going to directly quote the question and his comment. The 
question was, What is the wilderness protection for the 
national park areas? Does that mean no roads, no commercial 
development, nothing?
    Secretary Babbitt's response to that question makes clear 
his intentions for any Federal lands added to the public 
domain, and I quote. ``Yeah. The essential add-on from a 
wilderness designation in a national park is precisely that,'' 
Babbitt said. ``No more roads, no motorized intrusions, no 
snowmobiles, jet skis, or RVs. That's the real issue. And it of 
course precludes any kind of development as well and sometimes 
that does happen in national parks, however well intentioned, 
and we need to make sure that it doesn't.''
    The Blue Ribbon Coalition was founded to address wilderness 
advocacy group attacks on motorized recreation. More recently, 
however, these same groups have become more critical of 
equestrian and mountain bicycle use in the back country. As a 
result, we have gained equestrian and mountain biker members. 
These nonmotorized trail users realize the value of working 
with our motorized recreation groups to protect and share our 
recreation areas.
    The Blue Ribbon Coalition is very concerned about the LWCF 
related bills being offered by this Congress. The focus in 
these proposals on the purchasing of private inholdings for 
additions to the Federal estate and conservation easements is a 
concept that we cannot support. It has been our experience that 
property purchased with LWCF monies is managed to severely 
restrict or limit access or is managed as defacto wilderness.
    In conclusion, we hope that the Committee on Resources will 
address our concerns with H.R. 701 and H.R. 798. The 
recreationists we represent have historically been locked out 
of lands purchased by LWCF. We believe the whole concept of the 
Land and Water Conservation Fund should be changed from a land 
acquisition program to one that focuses on funding for the 
maintenance of the public lands already under Federal and state 
control.
    Thank you for the opportunity to represent recreation 
interests at this hearing and I'd be happy to answer questions.
    [The prepared statement of Mr. Collins follows:]

Statement of Clark L. Collins, Executive Director, BlueRibbon Coalition

    Chairman, and members of the Committee on Resources. Thank 
you for the opportunity to testify before the Committee 
regarding our concerns with H.R. 701, the ``Conservation and 
Reinvestment Act of 1999'' and H.R. 798, the ``Permanent 
Protection for America's Resources 2000 Act.''
    The BlueRibbon Coalition represents 404 member 
organizations, 351 member businesses and 5,482 individual 
members. We are based in Pocatello, Idaho, and are a national 
organization. While our Coalition primarily represents the 
interests of motorized back country users, we also have many 
equestrian and mountain bicyclists as members. Some resource 
industry interests, who share our recreation access concerns, 
also support our organization. Our members are primarily 
concerned with protecting their recreation access.

How much ``public'' land do we need? Who should be able to use 
it?

    We represent recreationists in Western states like Nevada, 
Idaho, and Utah that are over half Federal land. Millions more 
acres in these states are also managed by state land management 
agencies. Most of the recreation access we are fighting to 
protect in the West is on those Federal and state lands. In the 
Midwest there is a mix of Federal, state and even county 
controlled `` ``public land.'' Eastern states have a very low 
percentage of Federal land, but state forests are common in 
these states. Recreation access to these so-called public lands 
is in constant jeopardy. I would like to give you a few 
examples.
    One example in the West is the BLM planning process 
currently underway for the Grand Staircase-Escalante National 
Monument in Utah. In an article published in the January 1999 
issue of BlueRibbon Magazine, Rainer Huck, with one of our 
member organizations the Utah Shared Access Alliance, said, 
``Four of the five alternatives presented in the Draft will 
place severe restrictions on off highway vehicle access and 
recreation, ignoring the heritage, traditions, and legal rights 
associated with this use. . . . It is obvious that the 
restriction of vehicular access is the major focus of the 
entire planning efforts, since this is the headline issue 
addressed in each of the alternatives.'' I would like to 
request that the entire article be accepted for the public 
record on this hearing as Appendix A to my testimony.
    ``Public'' lands in Midwestern states like Kentucky, 
Indiana, and Illinois are becoming even less accommodating for 
back country recreationists, and I don't mean just for 
motorized users. One of our equestrian organizational members, 
The Shawnee Trail Conservancy, is apparently going to have to 
file suit against the Shawnee National Forest to prevent 
horseback riders from being kicked off trails in that forest. 
An article on this issue in the April 1999 BlueRibbon Magazine 
points out the kind of problems our non motorized members face. 
``Radical environmentalists have been viewed tacking hundreds 
of lie-filled inflammatory flyers on trees throughout Shawnee 
trails and natural areas. This trash degrades the forest's 
beauty and creates a litter-laden garbage dump as it blows 
around the forest landscape.'' I also request that this entire 
article be accepted, as Appendix B, for the public record of my 
testimony at this hearing.
    We also represent recreationists in Eastern states like 
Vermont, Massachusetts, and Maine with very little Federal 
land. Recreation access in those states is largely on state 
land or dependent on the generosity of private land owners. In 
these Eastern states, state land managers are becoming more and 
more restrictive in their recreation access policy. There are 
many examples of recreation access restrictions being imposed 
on the so-called ``public'' lands in the East. A threat to 
recreation access that is particularly relevant to 
consideration of these Land and Water Conservation Fund (LWCF) 
bills, however, is the Northern Forest Stewardship Act. LWCF 
money is the likely source for money needed to purchase the 
private lands being considered in this proposal. At a Vermont 
conference on this issue, featured in the August 1998 
BlueRibbon Magazine, the Executive Director of the Vermont 
Association of Snow Travelers (another of our member 
organizations) Bryant Watson said, ``We have been working with 
private landowners on our snowmobile trail system for many 
years. We don't need Federal agencies interfering with that 
relationship.'' I ask that this article also be submitted in 
total, as Appendix C of my testimony, for the public record on 
this hearing.
    Recreation access to Federal lands is under direct attack 
in the current administration. ``Tank traps'' have been dug in 
access roads on the Targhee National Forest near our home 
office in Idaho. Snowmobile access to Yellowstone, Voyageurs, 
and Denali National Parks is threatened. Boating access is 
threatened in Isle Royal National Park and the Boundary Waters 
Canoe area. BLM lands throughout Utah are being closed and 
gated.
    Many land managers treat lands, that should be available 
for public use, as if they are managing the ``Kings'' forest. 
They feel they must ``keep the commoners out.'' The BlueRibbon 
Coalition is working with our member organizations nationwide 
to address this problem.
    A statement by Interior Secretary Bruce Babbitt gives us an 
idea of where this attitude may originate, at least within the 
Interior agencies. At a January 12, 1999, White House press 
conference on the Land acquisition proposals being forwarded by 
the administration and Congress Babbitt was asked, ``What is 
the Wilderness protection for the national park reas? Does that 
mean no roads, no--any commercial development, nothing?'' 
Secretary Babbitt's response to that question makes clear his 
intentions for any Federal lands added to the public domain. 
``Yeah, the essential add-on, from a Wilderness designation in 
a national park is precisely that,'' Babbitt said. ``No more 
roads; no motorized intrusions. No snowmobiles, jet-skis, ORVs. 
That's the real issue--and it, of course, precludes any kind of 
development as well. And, sometimes, that does happen in 
national parks, however well-intentioned. And we need to make 
sure that it doesn't.''
    Federal and state lands are considered by many to be 
available for recreation use. In fact, in the name of 
``recreation and tourism,'' some Wilderness advocacy groups, 
are advocating the elimination of all resource industry 
activities on these ``public'' lands. Saying they represent 
recreation, these ``anti-recreation'' groups have lobbied for 
the elimination of any timber harvesting, livestock grazing or 
oil and mineral exploration. Now, our resource industries have 
been practically driven from this country into third world 
nations who lack our environmental regulations. Emboldened by 
their success in bringing our resource industries to their 
knees, these Wilderness advocacy groups are becoming more open 
about their opposition to recreation and tourism. They are 
actually anti-recreation access.
    The primary catalyst for the founding of the BlueRibbon 
Coalition in 1987 was Wilderness advocacy group attacks on off 
highway vehicle recreation. These groups have always opposed 
the use of anything with a motor, anywhere. They are especially 
opposed to motorized access to our back country recreation 
areas. The bulk of our membership still is from the motorized 
recreation community.
    More recently, however, these same groups have become more 
critical of equestrian use in the back country. As a result we 
have gained members from the equestrian trail user community. 
These horseback riders realize the value of working ``with'' 
our motorized recreation groups to protect and share our 
recreation areas.
    One of the fastest growing back country recreation interest 
groups in the country are mountain bikers. The Wilderness 
advocacy groups' reaction to this popular sport has been real 
interesting to watch. The green advocacy groups first tried to 
keep this non-motorized user in their camp. However, due to the 
fact that mountain bikes aren't allowed in designated 
Wilderness areas, the bikers are rapidly realizing that this 
alliance is a one-way street. When the end goal of Wilderness 
designation is achieved, mountain bikers realize they are going 
to be sacrificed. As a consequence, we are getting increased 
interest from mountain bikers who realize the value of working 
with us to preserve our ``shared'' access.
    The BlueRibbon Coalition is very concerned about the 
current plethora of LWCF related bills being offered by this 
Congress. We support adequate funding for important resource 
protection efforts, safety issues, recreation enhancements, and 
other infrastructure improvements to existing Federal and state 
lands. However, the focus by this Congress on the purchasing of 
private inholdings for additions to the Federal estate and 
``conservation easements'' is a concept that we cannot 
currently support. Historically these lands are not managed in 
concert with traditional multiple-use values. It has beenour 
experience that property purchased with LWCF monies is either 
gated off and a barbed wire fence installed, or signed and 
posted closed with severely limited access, or managed as 
defacto Wilderness. To date, we do not know of any lands 
purchased with LWCF funds that are managed for traditional 
multiple-use.
    In conclusion, we hope that the Committee on Resources will 
address our concerns with the current lack of multiple-use 
recreational opportunities contained in H.R. 701 & H.R. 798. 
These bills are being promoted as being good for recreation. We 
don't think so! The recreationists we represent have 
historically been locked out of lands purchased by the LWCF. We 
believe the whole concept of the Land and Water Conservation 
Fund should be changed from a land acquisition program to one 
that focuses on funding for the maintenance of the public lands 
already under Federal and state control.
[GRAPHIC] [TIFF OMITTED] T9388.044

[GRAPHIC] [TIFF OMITTED] T9388.045

[GRAPHIC] [TIFF OMITTED] T9388.046

[GRAPHIC] [TIFF OMITTED] T9388.047

    Mr. Hansen. Thank you, Mr. Collins. Questions from the 
panel. Ms. Chenoweth.
    Mrs. Chenoweth. Thank you, Mr. Chairman. I find after 
sitting through three panels and listening to the testimony, 
that I am baffled. I am baffled by the testimony that I hear 
primarily coming from the sportsmen and the arms and bullet 
manufacturers. I'm a little heartsick. Next week we're going to 
be taking on one of the biggest battles that this Congress has 
faced with regards to gun control and I guess I just always 
thought that you leave the dance with those that brought you.
    There's going to be a lot of blood spilt and I think that 
we need to focus on the fact that access to the back country 
for hunting purposes or hunting for sportsmen, unless we fight 
these battles together, may not occur at all. And when we hear 
about--in testimony, when we hear about our American heritage, 
I've got to stop and think that our American heritage that our 
founding fathers envisioned for us envisioned more than just 
the ability to hunt and it envisioned the ability of people to 
be able to make a living from the land and be able to be free 
and to be able to make choices about where they want to live 
and raise their families and not be harassed by the Federal 
Government. That kind of freedom and liberty really was the 
heritage that our founding fathers wanted to leave us.
    And when we talk about game I think of the situation in 
Idaho. I don't see a lot of no trespassing signs on our 
ranches. In fact, what I have seen, especially down in southern 
Idaho, is a partnership with our ranchers and the hunters. So 
long as they ask permission and so long as the rancher knows 
basically where the hunters plan on going, they'll help them 
out. And, in fact, in southern Idaho, the California big horn 
sheep has now prospered to the degree that we're now exporting 
California big horn sheep out of our herds in Idaho. It's a 
real success story because the farmers and the hunters and the 
fish and game formed a partnership without the Federal 
Government coming down on them mandating any kind of 
partnership. And it is a real success story.
    I hear testimony today about elk herds and elk habitat and 
I can tell you that in my district in northern Idaho we used to 
have a blue ribbon elk herd that we used to compete with 
anybody for the quality, the size and the number of elk. And 
now that elk herd is almost nonexistent because of the roadless 
moratorium, because of lack of management in our Federal lands 
and because the elk habitat has been destroyed, literally 
destroyed. It's destroying the elk.
    Furthermore, I'm hearing more and more incidences, while 
our hunters love to talk about the increase in the cougar 
population, we're hearing more and more incidences about human 
harm from cougars because we're not putting limits on how 
cougars are impacting our more populated areas, how they impact 
joggers and hikers and so forth.
    The same thing is happening with wolves and bears that are 
being brought into Idaho by fish and wildlife service. The 
wolves and bears are impacting our elk herds. The wolves and 
bears are impacting our ranchers, and fear is growing about 
taking families in. Our mountain lions are increasing. And so 
this is the way this bill has been presented to us, that it's a 
hunters' bill.
    But I've got to say that our governor, prior to the last 
governor, had to rely on the fact that private property 
provided the tax base for counties to be able to respond to 
hunters and hikers and people who were in the back country who 
got into distress. Our governor, who was kicked in the head 
with a mule, had to have the county search and rescue 
organization come in and rescue him. Search and rescue couldn't 
happen unless there was a tax base that was supported by in 
large part private property.
    So, gentlemen, we've got to look at the whole picture 
because, unless we do, this in and of itself causes more 
division than it does unity. So I would ask you to revisit your 
thinking on that. Thank you very much, Mr. Chairman.
    Mr. Hansen. Thank you. Mr. Simpson.
    Mr. Simpson. Well, thank you, Mr. Chairman. Along those 
same lines I guess that is some of the concern about the 
private property rights and the loss of the tax base but in 
this of course we increase the PILT funding which is supposed 
to make up for those Federal lands and so forth that will fund 
some of those county organizations, those county services that 
currently aren't being funded fully by the Federal Government. 
But I guess what kind of surprised me as I listened to the 
sportsmen's groups, they seem to support this because they 
believe it will increase access for their hunting activities, 
and motorized recreationists oppose it because they believe it 
will decrease the access and they're kind of in conflict there 
whether it will increase or decrease the access.
    But I guess, Mr. Collins, in your testimony you talked 
about decreasing access. With the roadless moratorium that's 
been put on by the forest service and talks about increased 
wilderness and you know the fights we've had in Idaho over the 
last 20 years about wilderness and how we treat that land now. 
Do you have any ideas of how we might be able to address that 
so we increase access to and use of our national forests?
    Mr. Collins. Well, Representative Simpson, you know that 
I've been promoting an alternative concept to wilderness 
designation and I really wasn't expecting to have the 
opportunity to talk about that here but by golly, I'll take it.
    Mr. Simpson. That's why I asked the question.
    Mr. Collins. Because it's our view that sportsmen, the 
hunters and fishermen and primarily motorized recreationists 
that we represent should be working together on an alternative 
to wilderness designation that doesn't involve locking the 
majority of recreationists out of these lands that are so 
special to us, and we've been promoting that alternative under 
the name of back country recreation area designation as a 
proposal. We're attempting to gain some traction with that idea 
and it's our view that all types of recreationists can work 
together to share the back country areas that we love so much.
    I reference the nonmotorized interest groups that are 
involved in our organization and the equestrians and the 
mountain bikers are very interested in this idea. The mountain 
bikers especially because mountain biking is prohibited in 
wilderness areas, so they are automatically excluded from 
wilderness areas. A fact that a lot of mountain bikers aren't 
aware of, quite frankly. But that's our idea of a way that we 
could work together.
    Basically on this Land and Water Conservation Fund, getting 
back to our concerns with it, it's our concern that giving the 
Federal Government a checkbook, more money to purchase Federal 
land, is not going to help promote public access to these 
Federal lands because we're having problems with the park 
service, with the BLM, with the forest service and the roadless 
moratorium. Right now it seems that our Federal agencies are 
bent on restricting, rather than promoting, recreation access 
to the lands under their control. So we think that this is an 
idea that can address that problem.
    Mr. Simpson. I think that from your testimony where you 
talked about some of your colleagues that used snow machines 
and so forth in the east where they don't have public lands 
nearly to the extent they use them on private lands and so 
forth, that even the provision of a no net gain policy in 
states that had, I don't know, pick a number, 25 percent 
Federal lands, would not really make this bill any better in 
terms of what they're concerned about then.
    Mr. Collins. Well, in the east, like I mentioned, the 
snowmobilers back there have cooperative agreements with the 
land owners. The snowmobile trails in the eastern states are 
almost entirely on private land and the private land owners in 
the east are very concerned about the threat of this Northern 
Forest Stewardship Act and our recreationists back there are 
working in concert with those folks to protect the relationship 
that they've got with private land owners. Now I know we've got 
some situations out west where some people do post land, do 
post their land to keep sportsmen off of their land and I would 
like to see us work toward building more cooperation with these 
private land owners, and these public land grab proposals don't 
further that objective in my view. Thank you.
    Mr. Hansen. Thank you. Mr. Cannon.
    Mr. Cannon. Thank you. I would like to first of all thank 
this panel for coming today. It's been very enlightening and I 
appreciate your different views, particularly of course Mr. 
Hyde, who is from my district. And Mr. Foutz, you have a great 
store in Provo. I love your store. Have you noticed an increase 
in gun sales since the Columbine incident and the flurry of 
activity there?
    Mr. Foutz. Yes, we have. Unfortunately, I think that's 
media driven. There is a sense that there's going to be some 
restriction in that area and anytime you do that there causes a 
surge in sales.
    Mr. Cannon. How much of a surge have you seen?
    Mr. Foutz. Twenty percent.
    Mr. Cannon. Do you personally know how long it takes to do 
a Brady Bill review.
    Mr. Foutz. Background check?
    Mr. Cannon. Background check.
    Mr. Foutz. BCI, about 15 minutes.
    Mr. Cannon. Is that from the time the person hands you the 
document he's filled out to the time you've finished the phone 
call?
    Mr. Foutz. No. That would actually be actually trying to 
get through to BCI, getting somebody on the phone and then them 
processing the paperwork and running it through the bureaus.
    Mr. Cannon. I have a hard time getting that out of BATF the 
other day. I appreciate that fact. It doesn't have a lot to do 
with this panel but I think it's significant for the current 
debate.
    Mr. Foutz. If I may add, for the law abiding citizen who 
comes in to purchase a gun, too, is that they've restricted us 
to sales of guns up to 7 o'clock. And in the retail business 
that puts a great constraint on us that they don't kind of 
follow our patterns of retail.
    Mr. Cannon. Seven o'clock p.m., right?
    Mr. Foutz. Seven o'clock p.m.
    Mr. Cannon. Well, that's actually significant to know. 
We're working on that bill. I'm involved in that. Thank you 
very much. Mr. Chairman, I yield back the balance of my time.
    Mr. Hansen. Thank you. You mean the State of Utah has a law 
that says you can't buy a firearm after 7 p.m.?
    Mr. Foutz. We cannot release possession of that firearm 
without a background check, so ownership cannot be taken of 
that individual who purchases that firearm until that 
background check has been done. So they limit us as to when 
they can take ownership of that gun.
    Mr. Hansen. Do you have the technology to do an instant 
check?
    Mr. Foutz. Not currently, no. And I'm not sure where the 
law states whether we could actually access that information.
    Mr. Hansen. So if someone walks in to buy a firearm at 
7:05, we fill out the sheet, pay the money, we have a meeting 
of the minds, we pick up the firearm the next day; is that 
right?
    Mr. Foutz. Yeah. If that's convenient for you.
    Mr. Hansen. That is if we pass.
    Mr. Simpson. I think that we can maybe work on that and 
resolve that in this current bill. That's not reasonable.
    Mr. Hansen. A lot of people don't realize but Federal law 
does superimpose itself on state laws. Let me just say 
something, if I may. There is no piece of legislation that has 
ever gone through with any controversy at all that doesn't end 
up in some compromise. It just doesn't happen that way. And so 
compromise, whether you agree with that or not, happens to be 
the way it's done in city councils, county commission and state 
legislative bodies and the Federal Congress. So if you want to 
kill a bill you can go out (inaudible) or you can make it into 
a gummer and that is when you take out one part after another 
until there's nothing left and it just kind of falls through 
the cracks, or you can improve the bill so it becomes to be a 
rather good piece of legislation.
    With that criteria, if any of you have things you think 
should be taken in, taken out, improve the bill, kill the bill, 
that's the great American way. And so I would appreciate 
hearing from you, as I'm sure Mr. Young would and I'm sure 
members of this Committee would.
    Mr. Collins, you brought up some very interesting things. 
Maybe you have amendments to the bill that you think would make 
it better that you would like to submit to the Committee. In 
other words, everybody in America can stand up and say this is 
bad, bad, bad and maybe we agree. The other side of the coin, 
what really sells heavy with us is solutions. Section 4, 
subheading A is bad. We can make it better by the following 
language. Many times it is better. I see people in this room 
who have done that before and passed pieces of legislation.
    So I can assure you this piece of legislation will probably 
not go through the way it is written now, if it goes through at 
all. So if you have some solutions, let's have the solutions. 
Or, if you've just got to get something off your chest, write 
us a letter and chew us all out, tell us how dumb, stupid we 
are and that's fine, too. I get many of those everyday as every 
Member of Congress does. That's just part of our job.
    On the other side of my coin, I really enjoy getting 
something from somebody who has really spent some time saying I 
don't like this for the following reasons. You'd be surprised 
if you'd watch Congress in committees where it's really all 
done anyway, you will be surprised to see that same congressman 
may pick it up and say--and use you verbatim. Of course members 
of the Congress always take credit for the good things.
    So with that said, we'll excuse this panel unless someone 
has additional questions. We'll excuse this panel and turn to 
our last panel, which is Mr. Christopher F. Robinson, the 
Ensign Group, Salt Lake--no, excuse me, Ensign Group L.C., Salt 
Lake City, Utah; Ms. Wendy Fisher, Utah Open Lands, Salt Lake 
City, Utah; Mr. Frank Priestley, president of Idaho Farm Bureau 
Federation, Pocatello, Idaho; and Karen Henry, Wyoming Farm 
Bureau, Robertson, Wyoming. We welcome these folks. Mr. 
Robinson, we'll start with you, sir. You all know the rules, 
five minutes.

 STATEMENT OF CHRISTOPHER F. ROBINSON, ENSIGN GROUP, L.C, SALT 
                        LAKE CITY, UTAH

    Mr. Robinson. Thank you, Mr. Chairman. I'm Christopher 
Robinson and appreciate the time that you members of the 
Committee and the chairman have given us today. I'm here 
wearing several hats. I'm president of two ranching companies 
that operate ranches in Utah, Idaho and Wyoming that encompass 
a couple hundred thousand acres of (inaudible) land and also we 
are permittees on probably another 700,000 acres of public 
land. I'm also a real estate developer, mainly residential, and 
I'm appearing today as a member of the board of trustees and 
executive committee of the Utah Chapter of Nature Conservancy. 
So I'm here in those capacities.
    I'm also involved in land conservation and open space 
programs with Utah Open Lands, which is what Ms. Fisher is the 
chairwoman of and also a local nonprofit known as Swaner 
Memorial Park Foundation which is trying to preserve a piece of 
meadow up in Summit County, Utah.
    The Nature Conservancy is an international organization, 
nonprofit, but it has as its mission to preserve the plants, 
animals and natural communities that represents diversity of 
life on earth by protecting the lands and waters they need to 
survive. Nationally we have 900,000 members and 1,500 corporate 
members and have chapters in all 50 states and 17 nations 
internationally and manage more than 1,600 nature preserves and 
are the world's largest private system of nature sanctuaries. 
In the state of the Utah there are about 7,600 members and we 
have done about 90 different projects, conserving about 800,000 
acres within the state.
    We think that this is a historic opportunity where 
different members of the House and the Senate have gotten 
together in proposing different pieces of legislation all 
dealing with the same issue basically, the Land and Water 
Conservation Fund. And in my involvement as a private land 
owner and rancher, and also with these nonprofit organizations 
that I've listed, we've spent a lot of effort trying to raise 
money to protect open space and to do other things to enhance 
wildlife.
    For instance, in Idaho, where these two honorable 
representatives are from, we have ranches in Bannock and Cassia 
County where my family has worked with EPA and Idaho game and 
fish to preserve--to restore a portion of Marsh Creek. But all 
of those things cost money and so a lot of nonprofits are doing 
their part and private citizens are doing their part and many 
states and local governments are trying to do their part.
    Last year there were some 124 different initiatives of one 
form or another throughout the nation and of those, 84 percent 
passed, raising some $5 billion for conservation. This Land and 
Wildlife Conservation Fund could represent and does represent 
an important part of the Federal Government's contribution to 
preserving our national heritage. One of the nice things that I 
like about it is it's taking nonrenewable resources and 
investing those monies in things that are of long-term benefit 
and a legacy. Specifically we submitted into the record the 
Nature Conservancy's statement on these two pieces of 
legislation and I won't belabor that.
    There are three issues that I'd like to highlight. One is 
the Land and Water Conservation Fund hopefully will be fully 
and permanently funded. Second one is that hopefully there will 
be provisions that provide for private land owner incentives to 
preserve habitat and open space and especially with reference 
to wildlife. And then the third element is that a lot of 
emphasis is always placed on game species and one of the 
problems is there is lots of biodiversity that never winds up 
in someone's sights or on the end of someone's hook.
    And we would like to make sure that money from this fund 
winds up going into nongame programs and believe that rather 
than seeing more species placed on the endangered list, that a 
more prudent way to go is to encourage land owners and public 
to keep them off the list by preserving their habitat. And I 
appreciate your time and would entertain any questions when the 
others are through.
    Mr. Hansen. Thank you, Mr. Robinson. Wendy Fisher, the 
floor is yours.

  STATEMENT OF WENDY FISHER, UTAH OPEN LANDS, SALT LAKE CITY, 
                              UTAH

    Ms. Fisher. I appreciate you all coming here to hear 
locally what's going on and how this bill and the potential 
passage of this bill can affect us as organizations and as 
citizens. I have been the Executive Director of Utah Open Lands 
first as a--well, actually I started out as a volunteer over 
nine years ago and then as a paid executive director for the 
organization.
    As a 501-C-3 public charity, Utah Open Lands really gets 
our mandate from the public and from land owners. We have saved 
over 7,500 acres of land throughout the state through the 
voluntary donation. In other words, that's donation of 
conservation easements from land owners to our organization. 
I'm personally aware of and understand why our organization has 
been successful but it's not as the executive director of 
Utah's lands (inaudible) part of a family ranch, family farm 
that I live on.
    I currently live on a family farm in Oakley and in the past 
years, perhaps due to the Oakley Rodeo or perhaps due to the 
protected culinary water source that is under a conservation 
easement or maybe the riparian protected corridor that runs 
through the city, the property that's under family ownership 
has increased tenfold in the last five years. If my parents 
were to pass away, heaven forbid, tomorrow, I wouldn't be able 
to inherit that piece of property. We would have to sell it for 
the estate tax purposes.
    This is a situation that our organization sees in several 
instances with land owners. And one of the things our 
organization firmly believes is that if the community is 
interested in protecting open space and feels that is a part of 
their quality of life and if the land owner is willing and 
interested in preserving that land, that we should be able to 
come to a willing buyer/willing seller arrangement but 
oftentimes, as Mr. Robinson pointed out, it's very hard for 
local nonprofit organizations to raise all of the money on our 
own.
    I will say that as a nonprofit organization, we oftentimes 
do know what it is that the communities are interested in 
preserving and we are oftentimes in touch with the struggle 
that the land owners have. I think you might consider that in 
every county and every city throughout our nation there are 
land planning firms, attorneys and professionals who wish to 
exercise their right to develop the land and that's a great 
thing. There are incentives for developing, there is land and 
infrastructure consisting of roads, sewer and schools which 
support land development.
    And equally important to a community's quality of life and 
its economic vitalty, as we are finding in the State of Utah, 
are its farm lands, wildlife habitat and its open spaces, and 
yet there are very few communities throughout the nation where 
the infrastructure and incentives are available to individuals 
interested in exercising the right to preserve their land. 
Aside from limiting income tax benefits there are limited 
benefits available to land owners who choose to preserve their 
land and this choice is a choice which benefits not just the 
land owners but the community and the quality of lives they 
have and for future generations.
    I think that the Land and Water Conservation Fund and 
funding provided can go a long way in equaling some of that 
playing field when it comes to individual communities and 
individual land owners so that we can have both of those 
private property rights exercised. That's the extent of my 
comments today. Thank you.
    Mr. Hansen. Thank you very much.
    [The prepared statement of Ms. Fisher follows:]
    [GRAPHIC] [TIFF OMITTED] T9388.048
    
    [GRAPHIC] [TIFF OMITTED] T9388.049
    
    [GRAPHIC] [TIFF OMITTED] T9388.050
    
    [GRAPHIC] [TIFF OMITTED] T9388.051
    
    [GRAPHIC] [TIFF OMITTED] T9388.052
    
    [GRAPHIC] [TIFF OMITTED] T9388.053
    
 STATEMENT OF FRANK PRIESTLEY, PRESIDENT OF IDAHO FARM BUREAU 
                  FEDERATION, POCATELLO, IDAHO

    Mr. Hansen. Mr. Priestley.
    Mr. Priestley. Chairman Hansen and the Committee, I'm Frank 
Priestley, president of the Idaho Farm Bureau. We have about 
49,000 member families in our organization and it's a privilege 
for me to represent them today. Also it's indeed my honor to 
recognize Idaho's own congressman, Helen Chenoweth, who has 
been a very strong fighter in the nation for property rights 
and we appreciate all that she does to help us. And our newly 
elected representative, Mike Simpson, it's good to have you 
with us here and good to be here. We appreciate you bringing 
this to the west.
    H.R. 701, the Conservation Reinvestment Act of 1999 has 
been extensively reviewed and extensively discussed by the 
Idaho Farm Bureau Federation and we find that the Act is in 
basic conflict with the Idaho Farm Bureau Policy No. 69 which 
states, ``We support no net loss of private property. We urge 
enactment of legislation to require prior legislative approval 
for any Federal land acquisition on a parcel-by-parcel basis.''
    Idaho as a public land state is over 66 percent owned by 
Federal Government. Most western states have over 50 percent of 
their land owned by the Federal Government and this leaves very 
little private land in our counties.
    These counties rely heavily upon the natural resources to 
sustain jobs and families. But with the decrease of mining, 
logging and grazing that has been pushed by the Clinton 
Administration, many counties are finding themselves without 
the financial resources to adequately support their 
infrastructure needs.
    H.R. 701 would compound this problem for the bill 
authorizes $378 million for the Federal land acquisition which 
would remove more private land from the tax rolls as well as 
$378 million per year for state acquisition of private 
property.
    In addition, our Policy No. 23 states, ``We recommend that 
a fee in lieu of taxes be assessed on all lands removed from 
tax rolls by state or Federal agency ownership. We favor an 
annual fee equivalent on local private property tax on land. We 
recommend that these fees be tied to the cost of living 
index.''
    H.R. 701 appropriates approximately $65 million in interest 
payments to PILT. However, in Idaho and most of the western 
states with the drop in logging, mining and grazing revenues 
and with the PILT payments never being fully funded, county 
revenues are decreasing dramatically. Sixty five million 
dollars when accompanied by purchases of vast tracts of new 
lands cannot possibly compensate for the loss of revenue and 
this will put even more pressure on western states and 
counties.
    If the Federal Government is going to continue to be the 
west's largest landlord, then they must pay their fair share of 
the county infrastructure needs. The bill ends the current 
practice of condemnation of private land by the Federal 
Government for land and water conservation purposes and limits 
acquisition to a willing seller. Certainly in the past this did 
not occur and the government used the fund acquire vast tracts 
of land. This section of the bill could prevent the wholesale 
purchase of private land but we feel that the wording must be 
tighter to assure that the willing sellers are not forced into 
the sale. One only need look around to the happenings in the 
west to see that ranchers and farmers are under constant 
pressure to give up their holdings to the Federal Government 
and willingness to sell oftentimes comes after years of 
pressure and sometimes abuse at the hands of Federal 
bureaucrats.
    Even states are not exempt from this pressure. For right 
here in Utah the Grand Staircase Escalante was created over the 
objections of the state. If states cannot resist these 
pressures, then how could an individual resist them, too? We 
are not comfortable with the provisions of the bill that 
bypasses Congressional authority. We have recognized the need 
for local jurisdictions to have a permanent source of dollars 
for assistance grants to create parks, open spaces and 
recreational facilities but we also recognize that the 
Congressional appropriation process holds the Federal 
bureaucracy in check and permanent funding without 
Congressional oversight bothers us.
    We would recommend this section be modified to give 
Congress appropriation authority over most of the funding. In 
addition, without Congressional appropriation this bill becomes 
almost a billion dollars a year entitlement which is off budget 
and certainly complicates the efforts to balance the Federal 
budget. Since these monies now go into the treasury, a study 
should be conducted to determine the source of replacement 
dollars for these withdrawals.
    This bill dictates that the Federal agencies be considered 
partners with local units of government when land use planning 
decisions occur. This is totally unacceptable to us for it will 
lead to Federal interference with local government and Federal 
domination of land use decisions.
    The Idaho Farm Bureau is not comfortable with any bill that 
would allow the Federal Government to acquire more private land 
since the Federal Government already owns 50 percent of the 
west and, as I stated, 66 percent of the state of Idaho.
    We do note with a certain amount of pleasure that this bill 
has as its basis the principle of willing buyer and willing 
seller. This concept is supported by Farm Bureau policy and it 
is good to see it is becoming part of Congressional Federal 
land management bills. We recognize that in some national parks 
there are still private inholders who have been waiting for 
funds to buy them out. We have no objections to the purchase of 
these existing inholder properties if the seller is willing. We 
would strongly oppose any other purchase of private property by 
Federal agencies in the west. We feel the current exchange 
policy keeps a policy of no net gain of Federal public land in 
effect. The Idaho Farm Bureau strongly supports this concept.
    In closing, Mr. Chairman, I want to once again thank the 
Committee for allowing the Idaho Farm Bureau to express our 
views on H.R. 701. We recognize that the local government is 
strapped in providing parks and recreation for the citizens but 
we feel that H.R. 701 goes so far in expanding Federal and 
state land acquisition. We feel local government needs are 
almost left out. We don't object to the dollars being used for 
enhancing urban quality of life but in the west, Federal 
Government as the major land owner already dominates. It cannot 
manage the lands that it currently has in its inventory and we 
must adamantly oppose any new additions.
    Mr. Hansen. Thank you, Mr. Priestley.
    [The prepared statement of Mr. Priestley follows:]

 Statement of Frank Priestley, President, Idaho Farm Bureau Federation

    Chairman Young and Members of the Committee:
    I am Mr. Frank Priestley, President of the 49,000 member 
Idaho Farm Bureau Federation. It is indeed a pleasure for me to 
appear before the House Resource Committee to discuss H.R. 701 
and it is indeed an honor for me to recognize Idaho's own 
Congressman Helen Chenoweth who is known and respected by us 
and this great nation as a champion of private property rights 
and a friend of agriculture. We want to also thank Congressman 
Jim Hansen for bringing this hearing to the West as well as you 
Committee members who have taken time from your busy schedules 
to attend this hearing. The Idaho Farm Bureau Federation thanks 
you for allowing us to enter our comments on H.R. 701 into the 
official record.
    H.R. 701, the ``Conservation and Reinvestment Act of 1999'' 
has been extensively reviewed and extensively discussed by the 
Idaho Farm Bureau Federation and we find the Act in basic 
conflict with Idaho Farm Bureau Policy Number 69 which states: 
``We support no net loss of private property. We urge enactment 
of legislation to require prior legislative approval for any 
Federal land acquisition on a parcel by parcel basis.''
    Idaho, as a public land state, is over 66 percent owned by 
the Federal Government. Most western states have over 50 
percent of their land owned by the Federal Government and this 
leaves very little private land in many counties. These 
counties rely heavily upon the natural resource industries to 
sustain jobs and families, but with the decrease in mining, 
logging and grazing that has been pushed by the Clinton 
Administration, many counties are finding themselves without 
the financial resources to adequately support their 
infrastructure needs. H.R. 701 would compound this problem, for 
the bill authorizes $378 million for Federal land acquisition 
which would remove more private land from the tax rolls as well 
as $378 million per year for state acquisition of private 
property.
    In addition, Idaho Farm Bureau Policy Number 23 states ``We 
recommend that a fee in lieu of taxes be assessed on all lands 
removed from tax rolls by state or Federal agency ownership. We 
favor an annual fee equivalent to local private property tax on 
land. We recommend that these fees be tied to the cost of 
living index.''
    H.R. 701 appropriates approximately $65 million in interest 
payments to PILT, however in Idaho and most of the Western 
United States, with the drop in logging, mining and grazing 
revenues and with PILT payments never being fully funded, 
county revenues are decreasing dramatically. Sixty five million 
dollars, when accompanied by purchases of vast tracts of new 
lands cannot possibly compensate for the loss of revenue and 
this will put even more pressure on western states and 
counties. If the Federal Government is going to continue to be 
the west's largest landlord, they must pay their fair share of 
the county infrastructure needs.
    The bill ends the current practice of condemnation of 
private land by the Federal Government for land and water 
conservation purchases and limits acquisition to a willing 
seller. Certainly, in the past this did not occur and the 
government used the fund to acquire vast tracts of land. This 
section of the bill could prevent the wholesale purchase of 
private land, but we feel the wording must be much tighter to 
assure that willing sellers are not coerced into the sale. One 
need only look around at the happenings in the west to see that 
ranchers and farmers are under constant pressure to give up 
their holdings to the Federal Government and willingness to 
sell oftentimes comes after years of pressure and sometimes, 
abuse, at the hands of Federal bureaucrats. Even states are not 
exempt from this pressure, for right here in Utah the Grande 
Staircase Escalante was created over the objections of the 
State. If states cannot resist this pressure, how could an 
individual resist such pressure!
    We are not comfortable with the provisions of the bill that 
bypasses Congressional appropriation authority. We recognize 
the need of local jurisdictions to have a permanent source of 
dollars for assistance grants for creating parks, open spaces 
and recreational facilities, but we also recognize that 
Congressional appropriation holds the Federal bureaucracy in 
check and permanent funding without Congressional oversight 
bothers us. We would recommend this section be modified to give 
Congress appropriation authority over most of the funding. In 
addition without Congressional appropriation this bill becomes 
a nearly $1 Billion/year entitlement which is off budget and 
certainly complicates efforts to balance the Federal budget. 
Since these monies now go into the treasury a study should be 
conducted to determine the source of replacement monies to take 
up the $1 billion/year withdrawal.
    This bill dictates that Federal agencies be considered 
partners with local units of government when land use planning 
decisions occur. This is totally unacceptable to us for it will 
lead to Federal interference with local government and Federal 
domination of land use decisions.
    The Idaho Farm Bureau Federation is not comfortable with 
any bill that will allow for more Federal acquisition of 
private land since the Federal Government already owns almost 
50 percent of the west, and as stated before, 66 percent of the 
State of Idaho. We do note with a certain amount of pleasure 
that this bill has as its basis the principle of a willing 
buyer and seller creating an agreement. This concept is 
supported by Farm Bureau policy and it is good to see it is 
becoming a part of Congressional management bills. We recognize 
that in some national parks there are still private inholders 
that have been waiting for funds to buy them out and we have no 
objections to the purchase of these existing inholdings if the 
seller is willing. We would strongly oppose any other purchases 
of private property by Federal agencies in the west, for we 
feel the way it is now handled on an exchange basis keeps the 
no net gain of Federal land policy in effect and Idaho Farm 
Bureau policy strongly supports this concept.
    We feel the distribution formula used in this bill is 
crafted with an eye on political votes rather than perceived 
needs. Some states like Alaska ($150 million), Texas ($205 
million), California ($125 million) and New York ($83 million), 
along with the newly classified coastal states of Michigan, 
Wisconsin, Ohio and Illinois seem to be aimed specifically at 
contributing toward establishing a winning political coalition. 
Since Idaho has an inland port at Lewiston, perhaps we too 
should be classified as a coastal state and increase our 
allotment from $11.5 million to something really astounding. We 
feel that the formula used indicates the bill is designed 
specifically to get votes.
    In closing, we want to once again thank the Committee for 
allowing the Idaho Farm Bureau to express our views of H.R. 
701. We recognize that local government is strapped in 
providing parks and recreation for their citizens, but we feel 
H.R. 701 goes so far in expanding Federal and state land 
acquisition that local government needs are almost left out. We 
do not object to dollars being used for enhancing urban quality 
of life, but with the Federal Government already demonstrating 
it cannot manage the lands that it currently has in its 
inventory, we must adamantly oppose any new additions. 
Currently there is a $12 billion backlog on infrastructure 
needs on government lands and this is resulting in closing 
campgrounds, parks and roads throughout the nation. H.R. 701 
does not address that issue, rather it adds to the problem by 
bringing in considerably more land to mismanage. We feel H.R. 
701 needs to be extensively modified to make it good public 
policy and gain Idaho Farm Bureau Federation support. We do 
appreciate the work currently going on in Washington D.C. 
between the Committee and American Farm Bureau Federation to 
modify the bill.
    Thank you again for allowing us to express our views on 
H.R. 701.

    Mr. Hansen. Karen Henry, the floor's yours.

   STATEMENT OF KAREN HENRY, WYOMING FARM BUREAU, ROBERTSON, 
                            WYOMING

    Ms. Henry. Thank you, Mr. Chairman. Thank you for having 
this hearing so that we are allowed to voice our opposition. 
I'm Karen Henry, the elected president of the Wyoming Farm 
Bureau Federation, which is the largest agricultural 
organization in Wyoming and we represent a much smaller amount 
than Frank, of course, because our population is so much 
smaller. We have around 8,300 member families.
    I'm here today representing that organization and its many 
private property owning members and Wyoming Farm Bureau must 
stand in opposition to these two pieces of legislation. The 
problems with H.R. 798 are too numerous to adequately cover in 
the short amount of time allowed here. We feel a more accurate 
Title for this Act would be the Central Planning Land 
Nationalization Act of 2000. The method of resource management 
advocated in this legislation has been shown to be an utter 
failure in the Communist Bloc countries.
    American Farm Bureau Federation policy states that we favor 
the repeal of the Land and Water Conservation Act, and has 
always felt that the funds allocated under that Act should be 
used by the Federal land management agencies to better manage 
the lands that they already have. Right now the Federal land 
management agencies are unable to carry out their Congressinoal 
mandates. Maintenance and rehabilitation projects are 
underfunded or not funded at all and the backlog has become 
staggering in recent years.
    You need look no farther than Yellowstone Park in my home 
state of Wyoming to see the many shortcomings of the Federal 
land management, not to mention a lot of the other things that 
they're not doing. The Forest Service isn't maintaining the 
roads that they have right now. We've looked in the high 
Uintahs and there hasn't been one dime used in the last 15 
years to maintain those roads and the people that have to use 
those roads, the recreationists as well as the agriculturalists 
that use those roads are beating up their outfits right now 
because they say they have no money to maintain the roads.
    The Federal Government has enough land here in the west. 
Farm Bureau members object to having tax money given to Federal 
agencies to buy up their land. Removing the private land owner 
will result in the reduction of the tax base. Productive uses 
of private land are an economic imperative in every state. With 
the loss of income, how will governments deal with the cost of 
managing, improving and maintaining their public lands as well 
as their infrastructures. It's one thing to buy land, quite 
another to manage it correctly.
    Who will produce the food? If these ranches are sold, who 
will produce the food to feed the world? The rhinestone cowboy 
who will have a government check and ride around and do 
windshield assessments?
    When governments covet a piece of land there are many 
weapons available to get that piece of land. Whether they're a 
willing seller or not there are many things that the government 
uses to make people willing sellers. I have a friend that lives 
in the east who was almost driven completely out of business by 
the Federal Government and he and his wife were not doing 
anything wrong.
    There's no provision that the state and local governments 
must buy from willing sellers. The provisions for Congressional 
approval for over a million dollars are inadequate. They work 
well if someone has land holdings over a million dollars, but 
the vast majority of people do not have land holdings are that 
worth over a million dollars.
    Unfortunately, this provision may lead to a scenario where 
no one has land worth more than a million dollars. Think of it 
the other way. Land acquisitions coupled with the burdensome 
environmental regulations in this country could be used to deny 
access for recreation, limit avenues for commerce, and control 
the activities of the remaining private land owners to the 
point that it is not profitable for them to own land. Land 
owners have every reason to fear that this is the real purpose 
of this bill.
    Assertions that this bill will further protect endangered 
species undoubtedly stems from the Federal land management 
agencies' frustration that they cannot get permission to survey 
private land. Endangered Species Act has been used as a club 
against the land owners. Changing the Endangered Species Act to 
reflect the reality that private land ownership promotes and 
maintains healthy habitat will do far more to protect the 
environment than any provisions of H.R. 701. Farm Bureau has 
always been in the front line defending private property 
rights, so we must oppose H.R. 701.
    I have more but I will not attempt to read it all. I would 
just like to make a couple of additional comments. Control of 
the land and the water resource conveys awesome power to the 
entity having the control. Without the personal responsibility 
and obligation to the next generation that arises out of having 
to make a long-term living from the land, the power is 
corrupting. Private land owners are the best conservators of 
the resource. They need it to live.
    In conclusion, I would just say we oppose H.R. 701 and H.R. 
798. We support in part former Senator Malcolm Wallop's 
testimony stating that the revenues from oil and gas production 
should be shared with the states in which production activities 
are located. A 50-50 split with no agenda and no government 
strings attached would allow the states to do the things that 
they need to do. The states could use the money where it's 
needed. If we're going to govern by trust fund, we don't need 
Congress. We can put it on automatic pilot and watch it 
operate. Thank you.
    [The prepared statement of Ms. Henry follows:]

 Statement of Karen J. Henry, President, Wyoming Farm Bureau Federation

    I am Karen J. Henry, the elected President of the Wyoming 
Farm Bureau Federation which is the largest agricultural 
organization in Wyoming. I am here today representing that 
organization, and its many private property owning members. I 
appreciate the opportunity to testify on H.R. 701 and H.R. 798.
    Wyoming Farm Bureau must stand in opposition to these two 
pieces of legislation; H.R. 701 and H.R. 798. The problems with 
H.R. 798 are too numerous to adequately cover in the short 
amount of time allowed here. We feel a more accurate title for 
this Act would be The Central Planning/Land Nationalization 
2000 Act. The method of resource management advocated in this 
legislation has been shown to be an utter failure in the 
Communist Bloc countries.
    American Farm Bureau Federation policy states that we favor 
the repeal of the Land and Water Conservation Act, and has 
always felt that the funds allocated under that Act should be 
used by the Federal land management agencies to better manage 
the lands they already have. AFBF policy further state that:

        Experience has shown that an improving environment is dependent 
        upon economic productivity, and that economic productivity is 
        dependent upon private ownership of the means of production. 
        Because we view land as a means of production, we are concerned 
        that over one-third of the land in this nation is owned by the 
        Federal Government.
        Increasing Federal land acquisitions and Federal land use 
        regulations are inimical to economic productivity and resultant 
        environmental improvements. We oppose further expansion of 
        Federal land ownership, and we support a national policy of no 
        net loss of private lands.
    The claim that government ownership of the land protects the 
environment can be laid to rest just by going out and looking at the 
poor environmental condition of land managed solely by the government. 
Politics drives the management of these lands, not the needs of the 
resource; so the management is bound to fail, and the nation loses the 
resource.
    Federal land management agencies are unable to carry out their 
Congressional mandates. Maintenance and rehabilitation projects are 
underfunded or not funded at all, and the backlog has become staggering 
in recent years. You need look no farther than Yellowstone, in my home 
state of Wyoming, to see the many shortcomings of Federal land 
management.
    The Federal Government has enough land here in the west. Farm 
Bureau members object to having tax money given to Federal agencies to 
buy up their land. Removing the private land owner will result in a 
reduction of the tax base. Productive uses of private land are an 
economic imperative in every state. With this loss of income, how are 
governments supposed to deal with the costs of managing, improving, and 
maintaining their public lands? It's one thing to buy land, quite 
another to manage it correctly. Even with the provision that only one-
third of the money in the fund will be used to buy land in the west, we 
are still faced with the prospect of agencies having $126 million per 
year to acquire privately held lands in the west; if the fund has the 
full $900 million. It won't take the government long to buy up what 
they don't already own.
    While there are prohibitions against the condemnation of property 
to allow purchase, and requirements that purchases of over one million 
dollars must have congressional approval, there are many opportunities 
for abuse in this legislation. When governments covet a piece of land, 
there are many weapons at their disposal to turn an unwilling seller 
into a willing seller. Further, there is no provision that state and 
local governments must buy from willing sellers. The provisions for 
congressional approval for purchases of over one million dollars are 
inadequate. They work well if someone has land worth over one million 
dollars; but do nothing to protect the vast majority of land owners 
whose land is worth less than one million dollars. Unfortunately, this 
provision may lead to a scenario where no one has land worth more than 
one million dollars. Land acquisitions, coupled with the burdensome 
environmental regulations in this country, could be used to deny access 
for recreation, limit avenues for commerce, and control the activities 
of the remaining private landowners to the point that it is not 
profitable for them to own land. Landowners have every reason to fear 
that this is the real purpose of this bill.
    Assertions that this bill will further protect endangered species 
undoubtedly stems from the Federal land management agency's frustration 
that they cannot get permission to survey private land. The Endangered 
Species Act has been used as a club against landowners. Changing the 
ESA, to reflect the reality that private land ownership promotes and 
maintains healthy habitat, will do more to protect the environment than 
the provisions of H.R. 701 will ever do.
    Farm Bureau has always been in the front line defending private 
property rights, so we must oppose H.R. 701 which establishes a fund 
which could be used by government agencies to acquire private property. 
Wyoming Farm Bureau has long been opposed to the Game and Fish 
Commission setting up a trust fund for the purposes of game management, 
wildlife habitat or any other purpose, including land acquisition.
    Control of the land and water resource conveys awesome power to the 
entity having the control. Without the personal responsibility and 
obligation to the next generation that arises out of having to make a 
long term living on your land, that power is corrupting. The power 
derived from land ownership by the government, or the public, is not 
power that is invested back into the resource, it is invested in 
creating agency empires; in creating political power, and in gathering 
the power to force people to conform with what the government thinks is 
the ideal working society. Bills like H.R. 701 and H.R. 798 erode our 
ability; our very right, to be self-determining. Private ownership of 
property is one of the cornerstones of our democracy. The founders of 
this country knew, firsthand, what it was like to have a society where 
only the governing elite, or the monarchy, controlled all the land.
    Private landowners are the best conservators of the resource, they 
need it to live. Private land in Wyoming supports most of the state's 
wildlife and water resource. While private landowners have been 
demonized as destroyers of the earth and wasters of the wildlife and 
the water, just a little critical thought will expose the weakness of 
this reasoning. Healthy land is the only way to success for an 
agricultural producer. A government, on the other hand, does not 
necessarily have to worry about the health of the land. They just have 
to worry that they have the biggest chunk. Having the biggest piece 
translates into more money, more power and more influence. The loser 
here is the resource; there is no one to care for the land, because 
responsibility can be passed to the next person. That is the tragedy of 
the commons, everyone owns it, but no one is responsible for it; the 
buck never has to stop. There is no justification for giving the 
government more money or power to acquire land, and further erode the 
rights of citizens in this country to own property, determine their own 
fates, and exercise their freedoms.
    We oppose H.R. 701 and H.R. 798. We support, in part, former 
Senator Malcolm Wallop's statement in his testimony that revenues from 
oil and gas production should be shared with the states in which 
production activities are located, a fifty-fifty split with no agenda 
attached. The states use the money where it is needed. Straightforward 
legislation that would share revenues to help the states meet their 
individual needs; not the perceived or political needs of the Federal 
Government would be supported. If we are going to govern by trust fund, 
we don't need Congress for representation; we can simply put government 
on auto pilot and watch it run.
    Thank you for this opportunity to testify in opposition to H.R. 701 
and H.R. 798.

    Mr. Hansen. Thank you. Questions for this panel? Mrs. 
Chenoweth, recognized for five minutes.
    Mrs. Chenoweth. Thank you, Mr. Chairman. I appreciate the 
good testimony that we've heard. Mr. Priestley, thank you for 
your kind comments and I wanted to address the issue of 
condemnation which you made mention of in your testimony. The 
fact is indeed this bill allows for condemnation of private 
property. But I also want to call to the attention of the 
members and to you, too, that it will not allow for any of the 
funds to be used to pay the owner for the acquisition of his 
land. So again, I think that's more than disingenuous. It needs 
to be corrected.
    I appreciate the fact that you picked up on the issue of 
partnership. When the Federal Government talks about 
partnership, I think the local units of government and 
individuals need to grab their pocketbooks and run, and this 
bill is replete with promises of partnership but as we examine 
the fine print in the bill, the partnership means that the 
Secretary of Interior shall have the final say over any 
partnership agreement, either with the states or local units of 
government. I appreciate very much your bringing that out in 
your testimony.
    Mr. Chairman, I also want to say that with a $5.7 trillion 
debt, you know, it's not only going to--this is not only going 
to hurt our tax base, but where are we going to get the money 
to refund the Social Security Trust Fund that this bill and the 
$4 billion that is targeted here, $4 billion that is targeted 
here--no, $2 billion that is targeted here will take a big 
chunk out of our attempts to continue to balance the budget and 
live up to the trust responsibilities that we have with the 
American people to rebuild the Social Security Trust Fund that 
we have been expending on general fund expenditures.
    And finally, I appreciate the testimony where there was a 
question about how will it happen if we turn more land over to 
the Federal Government to manage when we know, and you continue 
to receive testimony in your Committee, as I do in mine, that 
the land managers are far behind in good management practices 
of their land and facilities.
    And so with that I do want to say that we need to continue 
to ask how much is enough? What is the appetite of the Federal 
Government? When will Utah have given enough? When will Idaho 
have given enough? Nevada has given 94 percent of their land, 
Alaska 98 percent of their land. When is enough enough? I think 
that we need to start pushing the envelope the other way. Thank 
you very much.
    Mr. Hansen. Thank you. The gentlemen from Idaho, Mr. 
Simpson, you're recognized for five minutes.
    Mr. Simpson. Thank you, Mr. Chairman. Ms. Henry or Mr. 
Priestley, you're both opposed to this bill. Does this bill do 
anything good?
    Ms. Henry. Mr. Simpson, I can't see anything in the bill 
that is good. I can see where the people in the urban areas 
need to have their green belts as Mrs. Chenoweth has referred 
to and some of those things, the inner city recreation, and 
recreation is very important for people. I understand that. But 
I also agree with one of the gentlemen that spoke before that 
the access to the Federal lands is being so limited right now 
through the forest service with their road closure moratorium 
and things like that, I can't see anything in the bill that is 
good.
    I have a whole page of things that I have listed. Page 12, 
lines 1 through 19, refers to this not being a budget item and 
I would say in reference to what Mrs. Chenoweth brought up 
about the $5 trillion debt, I think that if we have that much 
money, it should be applied to the debt. It shouldn't be 
applied to all these perks. Maybe by bringing the money back 
that was denied in 1995 that was referred to before, that would 
probably help some of these urban communities with their 
recreation, but this bill, as it's written, will not do 
anything for recreation.
    Page 19, lines 13 through 16, is a slap in the face for 
every governor. It assumes that some underling state agency, 
instead of the state governor, will be dealing with the 
Secretary of Interior. The Secretary of Interior has complete 
authority with no ability for appeal. That's definitely not the 
American way.
    Pages 43, lines 11 through 14, what nongovernmental 
entities are we talking about? Who are these government 
entities that are going to be able to enforce these easements? 
What about the states that have laws on the books that say 
perpetuity is illegal? Easements are for perpetuity. If you 
lock up a ranch in perpetuity, that disallows anyone from ever 
selling a little piece of land to save their land, to save 
their children, to send their children to college. These are 
not good things. These are things that will put our farmers and 
ranchers--I'll say ranchers, I won't say farmers. These are 
things that will put our ranchers out of business.
    Mr. Simpson. So what you're saying is that there's nothing 
in here worth saving. There's no way to correct this bill, 
there's no way to amend it to correct it, there's nothing worth 
saving in it?
    Ms. Henry. Yes, sir.
    Mr. Simpson. And I understand your testimony, you said we 
ought to repeal the Land and Water Conservation Fund; is that 
right? Did you say that in your testimony?
    Ms. Henry. I'm saying that if we do continue with the Land 
and Water Conservation Fund for some of the projects like the 
first lady that spoke within the urban areas, that's great. But 
to expand it out to the extent that these bills have been 
expanded is absolutely unthinkable.
    Mr. Simpson. I guess my point is is that many of us, in 
effect all of us, that's why some of us haven't signed on to it 
and we see there's good aspects of it, things we like in it, 
there's bad aspects. And what we're trying to find out is what 
are the parts of it that we don't like that we can change and 
can we make it something that will in fact be good or is it 
just rejectable from the start? I guess that's the question I'm 
asking.
    Mr. Priestley, is there anything in here worth saving?
    Mr. Priestley. Well, we have no objections, Congressman, 
about enhancing the urban life of the parks and those type of 
things or the open space concepts that have been very muchly 
talked about today. We do object that this could become a major 
land acquisition program. At a time when the Federal Government 
is not able to manage the land they already have.
    Mr. Simpson. I agree fully.
    Mr. Priestley. I was in Couer d'Alene not long ago and we 
went on a range tour of some forest land. As you looked across 
the hills you could clearly feel what was state or what was 
Federal. A short time ago, I don't remember the dates, a 
terrible ice storm came across northern Idaho. It broke off the 
tops of most of the pine trees. That, in essence, killed those 
trees. On the state and the privately owned properties, the 
trees were harvested and we still have a beautiful forest. On 
the other side of the line controlled by the Federal Goverment, 
we have a whole forest full of dead trees that's been infested 
with beetles and it is prime for a forest fire. To me that's 
not managing land. The Federal Government should be required to 
manage the land it has before being allowed to acquire more to 
leave unmanaged.
    Mr. Simpson. I guess a lot of us are really concerned about 
the Federal Government acquiring land but we don't mind states 
and communities being able to acquire those types of open 
spaces for whatever, recreational facilities and those types of 
things, and we're trying to find a way to be able to fund that 
to get money back into the Land and Water Conservation fund for 
those types of things.
    I don't want the Federal Government coming in and starting 
to purchase large tracts of land again. I like some of the 
easement provisions where we can purchase land for open spaces 
on a willing seller/willing buyer type of provision, trying to 
maintain open spaces. Quite frankly, in many farm communities 
that would help some of the farmers that have talked to me that 
think that that's a good idea. I guess I'm trying to find out 
what aspects of this are worth saving and what should we say is 
out of balance. I appreciate your testimony here today. And 
what you've entered in the record that you weren't able to 
state I'll sit down and read.
    Mr. Hansen. Thank you. The gentleman from Utah, Mr. Cannon, 
is recognized for five minutes.
    Mr. Cannon. Thank you, Mr. Chairman. Ms. Fisher, I was 
interested in your statement. Just for the record to clarify, I 
take it it was the value of your parents' land that has gone up 
ten times, right?
    Ms. Fisher. Yes.
    Mr. Cannon. At this point you're concerned because death 
taxes would cause that to be sold and I suspect that would mean 
probably some kind of development that would ruin what you 
would consider a pristine area.
    Ms. Fisher. Yes. For me and my siblings the idea of being 
able to stay on the family farm and being able to do what we 
have been doing is what we're interested in doing. But with the 
estate tax issue and the fact that the farm has increased 
tenfold we would probably have to sell some of that land off 
for development and that's one of the things actually that has 
prompted us to look at a conservation easement on our 
particular property because it's a long term visioning that we 
can do as a family but in terms of preservation we're looking 
at the vision of what we want to see happen on that property 
from generation to generation.
    Mr. Cannon. It seems to me that this is actually quite an 
interesting issue of policy generally in the United States and 
it might be interesting for your group and Chris, Mr. Robinson, 
it might be interesting for Nature Conservancy to take a look 
at policy, at a recommendation as to what ought to happen with 
the death tax or the elimination of the death tax. It may be 
you guys operate on such a large basis that it may be that 
people who have to sell their land makes a better market and 
it's easier to buy choice pieces of property to conserve but on 
the other hand it may be that forcing people into selling it 
then becomes prime for development is the kind of thing you'd 
like to avoid.
    It would be interesting to me if Nature Conservancy would 
take a look at that and see if they could derive a position 
about the death tax which I think is a most counter productive 
tax that's ever been envisioned by the mind of man or woman or 
king or subject anywhere. Do you know, Mr. Robinson, if Nature 
Conservancy has ever looked at that?
    Mr. Robinson. As I said, Representative Cannon, I'm a board 
of trustee member. I'm not familiar precisely whether they 
have. I believe they have. I wanted to say one thing though 
about this issue that's been sort of highlighted by Ms. Fisher 
and you in this dialogue and that is that when you have a 
property that's gone up tenfold and Ms. Fisher (inaudible) if 
she were trying to earn a livelihood off the land in this 
commodity based ag business (inaudible) what winds up happening 
is, not just to pay the death taxes but just to keep food on 
the table, people wind up having to sell the property, whether 
it's one piece at a time or whether it's the whole shooting 
match.
    And so what these conservation easements allow, especially 
if there's a funding source for them, is that she could sell 
easement on a property which would solve the estate tax problem 
because then when she does pass away, then the valuation's less 
and maybe statutory exemption is six hundred or seven hundred 
thousand would cover it but by the same token, you have to see 
property preserved. But right now the development tool or the 
tools that are available are the land owner can either just 
leave it as it is and suffer the consequences of ownership or--
there isn't a funding mechanism to buy those development rights 
which constitute by and large the biggest share of the bundle 
of rights. And so what this conservation fund does in part is 
provides matching--could provide a funding source to do some of 
the things that Open Lands and Nature Conservancy and other 
groups in trust for public lands is trying to do. You have to 
keep these lands open and operating farms and relieve the 
financial pressure.
    Mr. Cannon. I suspect that you may end up deciding that the 
inheritance tax is actually a good tool to encourage people to 
divest that bundle and that may be a very good thing, although 
I do not like the inheritance tax myself.
    Let me just end by saying I want to thank the two 
representatives from the Idaho and Wyoming Farm Bureau. I think 
you've stated your ideas clearly and thoughtfully and we 
appreciate that input. And thank you also Ms. Fisher and Mr. 
Robinson.
    Mr. Hansen. Thank you, Mr. Cannon. You've all brought up 
some very interesting points. Ms. Henry, did you want to 
respond? I'll give you 30 seconds to respond.
    Ms. Henry. No, sir, I didn't have a response, I had a 
question. You said if we asked questions of you to make them 
clear and you will write back the comments? I'm unclear on what 
you said in the beginning.
    Mr. Hansen. I was pointing out that any solutions that you 
had to these bills or something you wanted to change or you 
felt there was a good amendment or you wanted to object to a 
part of it, please write us and let us know. We would love to 
hear from you and we appreciate you bringing that up.
    Ms. Henry. Thank you.
    Mr. Hansen. You've all brought up some interesting things. 
There is some really tough problems. You can't please 
everybody. We never try. We try to do what we think is best for 
all America and that's a hard thing to do.
    Mr. Priestley, you brought up the idea of inholdings in 
parks. I chair the Committee on public lands. They have 374 
units that we're looking at and a whole bunch of them have 
little teeny pieces in them. People will never be able to use 
them. You're paying taxes on them. Then on the other hand, who 
wants to take out all these big pieces in forest service and 
other areas? It's a real tough question.
    The gentleman representing Nature Conservancy, I admire you 
folks because you market the marketplace. No disrespect to some 
people but they market the legislature and they feel they go to 
the legislature. We're marketed constantly, whether it's Sierra 
Club or Wilderness Alliance or whoever it is, they're 
constantly trying to get Congress to do things that affect 
their work. And frankly, it's nice if people go in on a willing 
seller type of thing. I have to say I admire that and I'm sure 
we all have disagreements but I always get a little resentful 
sometimes when I see so many organizations who are marketing 
the marketplace. They form entire organizations. They create an 
industry just for doing that. And basically it's for their own 
very limited and very restrictive agenda.
    I'm going to excuse this Committee and I'll probably get in 
trouble for this but my two colleagues from Idaho have asked 
for two additional people to speak, Mr. Simpson and Ms. 
Chenoweth. The problem we get when we do this, we don't have 
testimony so we can't drill you and ask you nasty questions and 
all that kind of thing.
    But we would like to invite, as we've excused this panel, 
Karen Conway, Executive Secretary of the New Mexico Cattle 
Growers Association and Dennis Maughan, Commissioner of Twin 
Falls County, Idaho. If you two would like to come up for just 
a moment.

STATEMENT OF CAREN COWAN, EXECUTIVE SECRETARY OF THE NEW MEXICO 
                   CATTLE GROWERS ASSOCIATION

    Ms. Cowan. I appreciate this opportunity and thank you for 
letting us speak. First of all, I thank you for taking on this 
issue and I appreciate you being here but it's frustrating to 
see that we had 13 witnesses and only four on the side against 
the bill.
    First of all, as Mr. Smith stated, our association has a 
policy of no net loss of private lands. And if that could be 
put into this bill we would have a much greater comfort level 
although that may not solve all the problems.
    We do appreciate, Mr. Simpson, that it talks about willing 
seller and willing buyer but as you heard today there are lots 
of laws that take away that concept, the death taxes being one 
of them. Maybe we should fix those laws rather than write a new 
law that might create greater problems. So we appreciate you 
looking into those areas.
    We talked about the management of Federal lands. We have a 
tinder box in all of our forests and then that in turn affects 
our water quality and water quantity, which the Clean Water Act 
is now coming down hard on. We've heard about the need for 
public lands. I guess the best way to look at the situation is 
to ask, which do you think you'd rather use, a public rest room 
or a private one?
    The folks that talked about their businesses today and how 
they thought that private land owners were locking up lands, 
are their rest rooms open for anybody to come in anytime of day 
or night? That's the situation that we're in. In New Mexico we 
have encouraged people to post their property with no 
trespassing signs but that's because of the Endangered Species 
Act and the Clean Water Act.
    We don't want folks coming on our private land identifying 
species or as Chairman Hansen talked about, putting species on, 
endangered species, to limit our private property. It's not to 
keep the hunters off. It's not to keep the public off.
    I was brought up with the ethic that you shared the land. 
My grandparents didn't pass it on to my parents and my parents 
on to me to lock it up. It's ours to use for a while and to 
share. But the Federal laws have come down and taken away that 
principle from us and we need your help to fix that.
    There are some good things in this bill in terms of urban 
recreation and everybody believes, that I work for, thinks 
that's necessary. But the strings that are tied to it are too 
great for the private property owners to pay.
    The conservation easement situation is something that I 
personally really have a problem with. I have a family where 
we've got a land inheritance to work with and we have a family 
fight every year whether we need to or not and half of us don't 
speak for six months because we can't figure out what we're 
going to do with the land. But we don't want to sell it. A 
conservation easement would take away my nephew's right to 
decide what he wanted to do with it in the future.
    And I'll take two more seconds. Talking about the roadless 
situation and the divisiveness that this bill has caused people 
who all have the same stake in the card that we want to care 
for the land, we want greater wildlife, we want greater 
opportunity. With this bill obviously you can see the dangers, 
that's why it's divided people. Who benefits from that, I guess 
that is the question that I would hope you could consider.
    You mentioned PILT payments. If I understand the bill right 
it takes PILT payments from Congress to the Secretary of 
Interior. Is that going to benefit anybody? That's a question I 
have. I don't have the answer to that. I crashed a forest 
service roadless forum a few weeks ago and there were 15 people 
there who were ranchers, there were off road vehicle folks and 
environmentalists and by the end of the evening it was 
determined that it was the hunters' fault that the forest 
service roads are in such bad shape because they go in in poor 
weather and tear it up, and of course there were no hunters 
there to defend themselves.
    And finally one of the ranchers piped up and he said, Wait 
a minute, the hunters didn't cause the Grand Canyon. I 
responded that I had heard that rangers had caused it. We can't 
sit here and point fingers but I don't believe this bill has 
hit that mark yet. Thank you very much for your time.
    Mr. Hansen.  Thank you. Commissioner?

STATEMENT OF DENNIS MAUGHAN, COMMISSIONER OF TWIN FALLS COUNTY, 
                             IDAHO

    Mr. Maughan. Mr. Chairman and members of the Committee, 
it's an honor for me to be here. I hadn't planned on testifying 
so I was relaxing until Congressman Chenoweth and Congressman 
Simpson intervened and then I got all of a sudden nervous and 
started making all sorts of notes and should have just relied 
on my original. But I do thank you very much for allowing me a 
few moments to share my thoughts on H.R. 701. I have not looked 
at H.R. 798.
    I've got some blended comments coming from a local county 
perspective and a state perspective. I've been serving on the 
County Commission since 1994 in Twin Falls County, which is 
about 65,000 people. About 40 percent of it is federally owned 
by BLM and forest service so we know what effects Federal 
ownership can have on local government and we do appreciate 
those PILT payments so keep those coming. Don't interrupt 
those, please. They are helpful.
    Fortunately, at this point with H.R. 701 we have an 
opportunity to maybe build on some things that we had in the 
past as it relates to the Land and Water Conservation Funds. 
Twin Falls County has nine parks along the Snake River. Six of 
those were built with Land and Water Conservation Funds. The 
great thing about that was that the state shared in a 50-50 
local match. Those projects and those lands were titled for 
Twin Falls County.
    If there's anything that I'd like to see done with H.R. 701 
is that provision of the Federal partnership taken out, only 
because it's worked so well in the past that we should rely on 
the 1965 Land and Water Conservation Fund rules for that grant 
and those land acquisitions.
    I will try to blend through these. The Land and Water 
Conservation Act of 1965 was a promise to the citizens of the 
United States to fund this renewable resource outdoor 
recreation using a nonrenewable resource. It should be 
appropriated to the states without annual review, I believe. 
The Idaho State legislature saw the value in restoring this 
funding and overwhelmingly passed this last year House Joint 
Memorial II. Support also comes from the National Governors 
Association and the National Association of Counties.
    Idaho, as many states, suffers from limited state and local 
budgets, especially when it comes to outdoor recreation, 
facilities and programs. In many cases we've realized a 
reduction in our local and state in this area. The State Parks 
and Recreation Department has been asked to seek alternative 
funding from the legislature, as Congressman Simpson knows, to 
accomplish their mission and has worked hard and proposed 
legislation only to be vetoed a couple of times. They've been 
asked to come up with creative answers and really end up having 
a shortfall. It just hasn't been enough.
    Our cities and counties in Idaho are unable to sustain 
Idaho's rapid growth. At the same time citizens and visitors, 
as we all know, are demanding more recreation opportunities and 
need additional facilities to accommodate their use. H.R. 701 
for Idaho would give us $6.2 million annually for maintenance, 
repair and acquisition for our local and state parks and 
recreation facility. It would also provide $5.5 million for 
wildlife programs and conservation efforts.
    I would urge you to look at the merits of H.R. 701 as it 
impacts local and state--not so much how it impacts the Federal 
Government because I think the promise back in 1965 was there 
to share those offshore oil royalties with the states and 
figure out a way to develop H.R. 701 into this partnership with 
the states. They can pass it on to a local entity and we can 
continue to provide outstanding opportunities for our folks in 
recreation.
    I would say I know there's an increased concern over land 
acquisition. I think I've given you my thoughts on that. I 
believe that there is a way that we can work this out with a 
Federal partnership as far as the appropriation. Thank you very 
much for your time and I wish you good luck on this one.
    Mr. Hansen. Thank you, Commissioner. Any members of the 
Committee have a burning desire to ask questions or comment on 
the statement of our two friends here?
    Mr. Simpson. I just thank the chairman for allowing us to 
have these two additional witnesses.
    Mr. Cannon. If I might I would just like to assure Mrs. 
Cowan that all of us know the difference between numbers and 
the quality of insight that we get from witnesses.
    Mr. Hansen. Both of you were excellent and we appreciate 
your good testimony. You mentioned though, as Mr. Cannon 
pointed out, we're trying basically to get information and we 
look at who we can get information from. It's kind of hard to 
say four on this side, four on that side type of thing so we 
try our best to do that and it's very difficult. You've aptly 
pointed that out.
    With that stated, let me thank all the people who are here 
today for your excellent testimony, your time and patience. We 
thank our staff people for coming out from Washington. I know 
they're all antsy to catch airplanes and get out of here. I 
think Mrs. Chenoweth deserves to go to dinner somewhere because 
she's probably fasted for two days straight.
    So with that we'll consider this closed. This was Mr. 
Young's bill, Mr. Miller's bill. We would like to hear comment 
on both of those bills. This hearing is adjourned.
    [Whereupon, at 2:15 p.m., the Subcommittee was adjourned.]
    [Additional material submitted for the record follows.]
                             BRIEFING PAPER

H.R. 701--``CONSERVATION AND REINVESTMENT ACT''
H.R. 798--``PERMANENT PROTECTION FOR AMERICA'S RESOURCES 2000''

    This will be the fourth legislative hearing the Committee 
has held on H.R. 701 (Young, AK), ``Conservation and 
Reinvestment Act'' and H.R. 798 (Miller, CA), ``Permanent 
Protection for America's Resources 2000.''

CARA Summary:

        <bullet> This bill resolves the inequity of oil and gas revenue 
        distribution while providing for important conservation and 
        recreation programs. It represents a responsible reinvestment 
        of revenue from non-renewable resources into renewable 
        resources of conservation and recreation for all 50 states and 
        territories.
        <bullet> The Senate companion bill titled ``The Conservation 
        and Reinvestment Act of 1999'' (S. 25) is similar, but not 
        identical.
    In January 1999, the Clinton Administration unveiled a similar 
proposal titled ``The Lands Legacy Initiative.'' However, there are 
substantial differences. Some include:

        <bullet> CARA's emphasis on local government authority and 
        involvement. This is a key element of the House legislation but 
        diminished in the President's initiative.
        <bullet> Protection of individual property rights are included 
        in the House legislation but excluded from the President's 
        initiative.
        <bullet> New restrictions on access to public lands by creating 
        new wilderness areas which is a focal point of the President's 
        initiative but not included in the House legislation.

Title I--OCS Impact Assistance

        <bullet> Creates a revenue sharing fund for coastal states and 
        eligible local governments to mitigate the various unintended 
        impacts of OCS activities and to support sustainable 
        development of nonrenewable resources.
        <bullet> This is accomplished without creating an incentive for 
        new oil and gas development and will have no impact on current 
        OCS leasing moratoria or the President's Executive Order 
        concerning outer continental shelf leasing.
        <bullet> 27 percent of OCS revenues distributed amongst 35 
        coastal states and territories.
        <bullet> Distribution formula based on production, coastline 
        miles, and population. A provision was added in the 106th 
        Congress to ensure that areas held in moratoria are precluded 
        from both revenue inflows and for the computation in 
        determining a state and eligible political subdivision's 
        allocation.
        <bullet> 50 percent of the funds are shared with local 
        governments (counties, boroughs, parishes) in states where 
        Federal OCS production exists. In all other cases, 100 percent 
        of the state's allocation would be directly allocated to the 
        state government.

Title II--Land-based Conservation

        <bullet> By reallocating 23 percent of OCS revenue, CARA 
        guarantees stable and annual funding for the Land and Water 
        Conservation Fund (LWCF) at its authorized $900 million level. 
        This dedicated funding would provide for both the state and 
        Federal programs included in the LWCF.This title of the bill 
        also includes funding for important recreation projects through 
        the Urban Parks and Recreation Recovery Program (UPARR). More 
        than $100 million would be dedicated to this important program 
        annually.
        <bullet> In Titles One and Two contain provisions to fund 
        Payment In Lieu of Taxes (PILT). While the funds from these two 
        titles are held in the Treasury for a year before disbursement 
        they will accrue interest on approximately $2 billion; that 
        interest will be provided directly to PILT.
        <bullet> CARA includes amendments to the LWCF Act to make the 
        long awaited improvements regarding the operation of the state-
        side matching grant program.
        <bullet> While funding is provided for Federal land acquisition 
        within the Federal-side of the LWCF, there are some protections 
        to note:

                --The funding cap for Federal LWCF expenditures, 
                included in CARA, is near the $300 million historical 
                average for Federal LWCF appropriation;
                --Acquisition can only take place with willing sellers 
                and is only allowed within Congressionally approved 
                boundaries;
                --None of the funding provided for Federal purposes may 
                be used for the condemnation of any interest of 
                property.
                --An Act of Congress must be passed to approve projects 
                (acquisition, improvements, buildings, etc) over $1 
                million; and
                --2/3 of the funding available must be spent east of 
                the 100th meridian.

Title III--Wildlife-based Conseravation

        <bullet> This title of the Conservation and Reinvestment Act of 
        1999 will reallocate 10 percent of the revenue gained from oil 
        and gas development in the Federal waters of the outer 
        continental shelf (OCS) to provide dedicated funding for 
        wildlife conservation and education programs.
        <bullet> This fimding will not only accomplish the goals of 
        ``Teaming With Wildlife", but surpass the level of funding 
        anticipated with that proposal.
        <bullet> CARA will not establish an excise tax.
        <bullet> Title III funds will be distributed through the 
        Federal Aid in Wildlife Restoration Fund also known as Pittman-
        Robertson (P-R). Since fiscal year 1939, Pittman-Robertson has 
        collected and disbursed more than $3 billion for wildlife 
        conservation and recreation projects across America. Made 
        possible entirely through the efforts and taxes paid by 
        sportsmen, the funds are derived from an 11-percent excise tax 
        on sporting arms and ammunition, 10-percent on pistols and 
        revolvers, and an 11-percent tax on archery equipment sold 
        specifically for bow hunting.

Resources 2000 Summary:

        <bullet> Provides annual funding for resource preservation;
        <bullet> Limits funding source to revenues from leases in the 
        Western & Central Gulf of Mexico that were in production by 
        January 1, 1999. Prohibits inclusion of any dollars derived 
        from lease sales issued on or after date of enactment;
        <bullet> Provides automatic trigger to proportionally reduce 
        funds in fiscal years in which the total amount of eligible 
        revenues received is less than the amounts spelled out above;
        <bullet> Provides $250 annually for operations and maintenance 
        of National Parks, Wildlife Refuges, public lands administered 
        by BLM, and National Forests;
        <bullet> Caps administrative expenses at 2 percent for each 
        activity;
        <bullet> Does not include any private property restrictions 
        such as a prohibition against condemnation of private lands; 
        and
        <bullet> Coastal title excludes local governments as an 
        eligible recipient of funding and caps the total amount of 
        funds available to a single state at 10 percent in a fiscal 
        year.

Summary of Resources 2000 funding by program:

    Land and Water Conservation Fund (Federal) funded at $450 million:
    One-half of the annual $900 million allocation of the LWCF would be 
dedicated to Federal acquisition of lands authorized by Congress for 
our national parks, national forests, national wildlife refuges, and 
public lands.

    Land and Water Conservation Fund (Stateside) funded at $450 
million:
    The other half would go for matching grants to the States (by 
formula and competitive grants) for the acquisition of lands or 
interests, planning, and development of outdoor recreation facilities.

    UPARR funded at $100 million:
    Provides matching grants to local governments to rehabilitate 
recreation areas and facilities, provide for the development of 
improved recreation programs, and to acquire, develop, or construct new 
recreation sites and facilities.

    Historic Preservation Fund funded at $150 million:
    Funding for the programs of the Historic Preservation Act, 
including grants to the States, maintaining the National Register of 
Historic Places, and administer numerous historic preservation 
programs.

    Lands Restoration funded at $250 million:
    Funds a coordinated program on Federal and Indian lands to restore 
degraded lands, protect resources that are threatened with degradation, 
and protect public health and safety.

    Endangered and Threatened Species Recovery Fund funded at $100 
million:
    Funds implementation of a private landowners incentive program for 
the recovery of endangered and threatened species and the habitat that 
they depend on.

    Ocean Fish/Wildlife Conservation, Restoration, and Management 
funded at $300 million:
    Funding for the conservation, restoration and management of ocean 
fish and wildlife of the United States through formula grants to 
coastal states (including Great Lakes States) and competitive, peer-
reviewed grants to private entities. $300 Million begins in FY 2005 and 
each year thereafter; (FY 2000-2001=$100 Million; FY 2002-2004=$200 
Million annually)

    Native Fish/Wildlife Conservation, Restoration, Management funded 
at $350 million:
    Provides funding for the conservation, restoration and management 
of native fish, wildlife and plants through formula grants to the 
states for the development and implementation of comprehensive plans. 
$350 Million begins in FY 2005 and each year thereafter; (FY 2000-
2001=$100 Million; FY 2002-2004=$200 Million annually)

    Farmland and Open Space Preservation Grants funded at $150 million:
    Matching, competitive grants to state, local and tribal governments 
for open space planning, acquisition and administration of threatened 
farmland and urban forests, to help communities grow in ways that 
ensure a high quality of life and strong, sustainable economic growth.
    Total Funding: $2.3 Billion

Staff Contact: Mike Henry, 225-9297

[GRAPHIC] [TIFF OMITTED] T9388.054

[GRAPHIC] [TIFF OMITTED] T9388.055

[GRAPHIC] [TIFF OMITTED] T9388.056

[GRAPHIC] [TIFF OMITTED] T9388.057

[GRAPHIC] [TIFF OMITTED] T9388.058

[GRAPHIC] [TIFF OMITTED] T9388.059

[GRAPHIC] [TIFF OMITTED] T9388.060

[GRAPHIC] [TIFF OMITTED] T9388.061

[GRAPHIC] [TIFF OMITTED] T9388.062

[GRAPHIC] [TIFF OMITTED] T9388.063

[GRAPHIC] [TIFF OMITTED] T9388.064

[GRAPHIC] [TIFF OMITTED] T9388.065

[GRAPHIC] [TIFF OMITTED] T9388.066

[GRAPHIC] [TIFF OMITTED] T9388.067

[GRAPHIC] [TIFF OMITTED] T9388.068

[GRAPHIC] [TIFF OMITTED] T9388.069

[GRAPHIC] [TIFF OMITTED] T9388.070

[GRAPHIC] [TIFF OMITTED] T9388.071

[GRAPHIC] [TIFF OMITTED] T9388.073

[GRAPHIC] [TIFF OMITTED] T9388.074

[GRAPHIC] [TIFF OMITTED] T9388.075

[GRAPHIC] [TIFF OMITTED] T9388.076

[GRAPHIC] [TIFF OMITTED] T9388.077

[GRAPHIC] [TIFF OMITTED] T9388.078

[GRAPHIC] [TIFF OMITTED] T9388.079

[GRAPHIC] [TIFF OMITTED] T9388.020

4[GRAPHIC] [TIFF OMITTED] T9388.205

[GRAPHIC] [TIFF OMITTED] T9388.206

[GRAPHIC] [TIFF OMITTED] T9388.207

[GRAPHIC] [TIFF OMITTED] T9388.208

[GRAPHIC] [TIFF OMITTED] T9388.209

[GRAPHIC] [TIFF OMITTED] T9388.210

[GRAPHIC] [TIFF OMITTED] T9388.211

[GRAPHIC] [TIFF OMITTED] T9388.212

[GRAPHIC] [TIFF OMITTED] T9388.213

[GRAPHIC] [TIFF OMITTED] T9388.214

[GRAPHIC] [TIFF OMITTED] T9388.215

[GRAPHIC] [TIFF OMITTED] T9388.216

[GRAPHIC] [TIFF OMITTED] T9388.217

[GRAPHIC] [TIFF OMITTED] T9388.218

[GRAPHIC] [TIFF OMITTED] T9388.219

[GRAPHIC] [TIFF OMITTED] T9388.220

[GRAPHIC] [TIFF OMITTED] T9388.080

[GRAPHIC] [TIFF OMITTED] T9388.081

[GRAPHIC] [TIFF OMITTED] T9388.082

[GRAPHIC] [TIFF OMITTED] T9388.083

[GRAPHIC] [TIFF OMITTED] T9388.084

[GRAPHIC] [TIFF OMITTED] T9388.085

[GRAPHIC] [TIFF OMITTED] T9388.086

[GRAPHIC] [TIFF OMITTED] T9388.087

[GRAPHIC] [TIFF OMITTED] T9388.088

[GRAPHIC] [TIFF OMITTED] T9388.089

[GRAPHIC] [TIFF OMITTED] T9388.090

[GRAPHIC] [TIFF OMITTED] T9388.091

[GRAPHIC] [TIFF OMITTED] T9388.092

[GRAPHIC] [TIFF OMITTED] T9388.093

[GRAPHIC] [TIFF OMITTED] T9388.094

[GRAPHIC] [TIFF OMITTED] T9388.095

[GRAPHIC] [TIFF OMITTED] T9388.096

[GRAPHIC] [TIFF OMITTED] T9388.097

[GRAPHIC] [TIFF OMITTED] T9388.098

[GRAPHIC] [TIFF OMITTED] T9388.099

[GRAPHIC] [TIFF OMITTED] T9388.100

[GRAPHIC] [TIFF OMITTED] T9388.101

[GRAPHIC] [TIFF OMITTED] T9388.102

[GRAPHIC] [TIFF OMITTED] T9388.103

[GRAPHIC] [TIFF OMITTED] T9388.104

[GRAPHIC] [TIFF OMITTED] T9388.105

[GRAPHIC] [TIFF OMITTED] T9388.106

[GRAPHIC] [TIFF OMITTED] T9388.107

[GRAPHIC] [TIFF OMITTED] T9388.108

[GRAPHIC] [TIFF OMITTED] T9388.109

[GRAPHIC] [TIFF OMITTED] T9388.110

[GRAPHIC] [TIFF OMITTED] T9388.111

[GRAPHIC] [TIFF OMITTED] T9388.112

[GRAPHIC] [TIFF OMITTED] T9388.113

[GRAPHIC] [TIFF OMITTED] T9388.114

[GRAPHIC] [TIFF OMITTED] T9388.115

[GRAPHIC] [TIFF OMITTED] T9388.116

[GRAPHIC] [TIFF OMITTED] T9388.117

[GRAPHIC] [TIFF OMITTED] T9388.118

[GRAPHIC] [TIFF OMITTED] T9388.119

[GRAPHIC] [TIFF OMITTED] T9388.120

[GRAPHIC] [TIFF OMITTED] T9388.121

[GRAPHIC] [TIFF OMITTED] T9388.122

[GRAPHIC] [TIFF OMITTED] T9388.123

[GRAPHIC] [TIFF OMITTED] T9388.124

[GRAPHIC] [TIFF OMITTED] T9388.125

[GRAPHIC] [TIFF OMITTED] T9388.126

[GRAPHIC] [TIFF OMITTED] T9388.127

[GRAPHIC] [TIFF OMITTED] T9388.128

[GRAPHIC] [TIFF OMITTED] T9388.129

[GRAPHIC] [TIFF OMITTED] T9388.130

[GRAPHIC] [TIFF OMITTED] T9388.131

[GRAPHIC] [TIFF OMITTED] T9388.132

[GRAPHIC] [TIFF OMITTED] T9388.133

[GRAPHIC] [TIFF OMITTED] T9388.134

[GRAPHIC] [TIFF OMITTED] T9388.135

[GRAPHIC] [TIFF OMITTED] T9388.136

[GRAPHIC] [TIFF OMITTED] T9388.137

[GRAPHIC] [TIFF OMITTED] T9388.138

[GRAPHIC] [TIFF OMITTED] T9388.139

[GRAPHIC] [TIFF OMITTED] T9388.140

[GRAPHIC] [TIFF OMITTED] T9388.141

[GRAPHIC] [TIFF OMITTED] T9388.142

[GRAPHIC] [TIFF OMITTED] T9388.143

[GRAPHIC] [TIFF OMITTED] T9388.144

[GRAPHIC] [TIFF OMITTED] T9388.145

[GRAPHIC] [TIFF OMITTED] T9388.146

[GRAPHIC] [TIFF OMITTED] T9388.147

[GRAPHIC] [TIFF OMITTED] T9388.148

[GRAPHIC] [TIFF OMITTED] T9388.149

[GRAPHIC] [TIFF OMITTED] T9388.150

[GRAPHIC] [TIFF OMITTED] T9388.151

[GRAPHIC] [TIFF OMITTED] T9388.152

[GRAPHIC] [TIFF OMITTED] T9388.153

[GRAPHIC] [TIFF OMITTED] T9388.154

[GRAPHIC] [TIFF OMITTED] T9388.155

[GRAPHIC] [TIFF OMITTED] T9388.156

[GRAPHIC] [TIFF OMITTED] T9388.157

[GRAPHIC] [TIFF OMITTED] T9388.158

[GRAPHIC] [TIFF OMITTED] T9388.159

[GRAPHIC] [TIFF OMITTED] T9388.160

[GRAPHIC] [TIFF OMITTED] T9388.161

[GRAPHIC] [TIFF OMITTED] T9388.162

[GRAPHIC] [TIFF OMITTED] T9388.163

[GRAPHIC] [TIFF OMITTED] T9388.164

[GRAPHIC] [TIFF OMITTED] T9388.165

[GRAPHIC] [TIFF OMITTED] T9388.166

[GRAPHIC] [TIFF OMITTED] T9388.167

[GRAPHIC] [TIFF OMITTED] T9388.168

[GRAPHIC] [TIFF OMITTED] T9388.169

[GRAPHIC] [TIFF OMITTED] T9388.170

[GRAPHIC] [TIFF OMITTED] T9388.171

[GRAPHIC] [TIFF OMITTED] T9388.172

[GRAPHIC] [TIFF OMITTED] T9388.173

[GRAPHIC] [TIFF OMITTED] T9388.174

[GRAPHIC] [TIFF OMITTED] T9388.175

[GRAPHIC] [TIFF OMITTED] T9388.176

[GRAPHIC] [TIFF OMITTED] T9388.177

[GRAPHIC] [TIFF OMITTED] T9388.178

[GRAPHIC] [TIFF OMITTED] T9388.179

[GRAPHIC] [TIFF OMITTED] T9388.180

[GRAPHIC] [TIFF OMITTED] T9388.181

[GRAPHIC] [TIFF OMITTED] T9388.182

[GRAPHIC] [TIFF OMITTED] T9388.183

[GRAPHIC] [TIFF OMITTED] T9388.184

[GRAPHIC] [TIFF OMITTED] T9388.185

[GRAPHIC] [TIFF OMITTED] T9388.186

[GRAPHIC] [TIFF OMITTED] T9388.187

[GRAPHIC] [TIFF OMITTED] T9388.188

[GRAPHIC] [TIFF OMITTED] T9388.189

[GRAPHIC] [TIFF OMITTED] T9388.190

[GRAPHIC] [TIFF OMITTED] T9388.191

[GRAPHIC] [TIFF OMITTED] T9388.192

[GRAPHIC] [TIFF OMITTED] T9388.193

[GRAPHIC] [TIFF OMITTED] T9388.194

[GRAPHIC] [TIFF OMITTED] T9388.195

[GRAPHIC] [TIFF OMITTED] T9388.196

[GRAPHIC] [TIFF OMITTED] T9388.197

[GRAPHIC] [TIFF OMITTED] T9388.198

[GRAPHIC] [TIFF OMITTED] T9388.199

[GRAPHIC] [TIFF OMITTED] T9388.200

[GRAPHIC] [TIFF OMITTED] T9388.201

[GRAPHIC] [TIFF OMITTED] T9388.202

[GRAPHIC] [TIFF OMITTED] T9388.203

[GRAPHIC] [TIFF OMITTED] T9388.221

[GRAPHIC] [TIFF OMITTED] T9388.222

[GRAPHIC] [TIFF OMITTED] T9388.223

[GRAPHIC] [TIFF OMITTED] T9388.224

[GRAPHIC] [TIFF OMITTED] T9388.225

[GRAPHIC] [TIFF OMITTED] T9388.226

[GRAPHIC] [TIFF OMITTED] T9388.227

[GRAPHIC] [TIFF OMITTED] T9388.228

[GRAPHIC] [TIFF OMITTED] T9388.229

[GRAPHIC] [TIFF OMITTED] T9388.230

[GRAPHIC] [TIFF OMITTED] T9388.231

[GRAPHIC] [TIFF OMITTED] T9388.232

[GRAPHIC] [TIFF OMITTED] T9388.233

[GRAPHIC] [TIFF OMITTED] T9388.234

[GRAPHIC] [TIFF OMITTED] T9388.235

[GRAPHIC] [TIFF OMITTED] T9388.236

[GRAPHIC] [TIFF OMITTED] T9388.237

[GRAPHIC] [TIFF OMITTED] T9388.238

[GRAPHIC] [TIFF OMITTED] T9388.239

[GRAPHIC] [TIFF OMITTED] T9388.240

[GRAPHIC] [TIFF OMITTED] T9388.241

[GRAPHIC] [TIFF OMITTED] T9388.242

[GRAPHIC] [TIFF OMITTED] T9388.243

[GRAPHIC] [TIFF OMITTED] T9388.244

[GRAPHIC] [TIFF OMITTED] T9388.245

[GRAPHIC] [TIFF OMITTED] T9388.246

[GRAPHIC] [TIFF OMITTED] T9388.247

[GRAPHIC] [TIFF OMITTED] T9388.248

[GRAPHIC] [TIFF OMITTED] T9388.249

[GRAPHIC] [TIFF OMITTED] T9388.250

[GRAPHIC] [TIFF OMITTED] T9388.251


                                   - 

</pre></body></html>
